Nos. 19-267 & 19-348

In the Supreme Court of the United States
__________

OUR LADY OF GUADALUPE SCHOOL, Petitioner,
v.
AGNES MORRISSEY-BERRU, Respondent.
__________
ST. JAMES SCHOOL, Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL, Respondent.
__________
ON WRITS OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT

__________
JOINT APPENDIX

__________

JENNIFER A. LIPSKI
Counsel of Record
JML LAW
5855 Topanga Canyon
Blvd., Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com
Counsel for Respondents

ERIC C. RASSBACH
Counsel of Record
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire
Ave., N.W., Suite 700
Washington, D.C. 20036
(202) 955-0095
erassbach@becketlaw.org
Counsel for Petitioners

February 2020
Our Lady of Guadalupe School v. Morrissey-Berru,
No. 19-267
Petition for Writ of Certiorari Filed Aug. 28, 2019
Petition for Writ of Certiorari Granted Dec. 18, 2019
St. James School v. Biel, No. 19-348
Petition for Writ of Certiorari Filed Sept. 16, 2019
Petition for Writ of Certiorari Granted Dec. 18, 2019

TABLE OF CONTENTS
Page
Our Lady of Guadalupe School v.
Morrissey-Berru, No. 19-267
Relevant Docket Entries, Our Lady of
Guadalupe Sch. v. Morrissey-Berru,
No. 17-56624 (9th Cir.) ................................... JA 1
Relevant Docket Entries, Our Lady of
Guadalupe Sch. v. Morrissey-Berru,
No. 2:16-cv-09353 (C.D. Cal.).......................... JA 6
Excerpts of Record, Morrissey-Berru v. Our
Lady of Guadalupe Sch., No. 17-56624
(9th Cir. Mar. 12, 2018), ECF No. 7-2:
Statement of Controverted and
Uncontroverted Facts and Conclusions of
Law (ER 57, 61, 121-123, 127-128, 131,
162) ................................................................ JA 19
Deposition Testimony of April Beuder,
Vol. II (ER 192, 199-203) .............................. JA 30
Deposition Testimony of Silvia Bosch (ER
206, 212-216, 217-223, 224-225, 226-236,
237) ................................................................ JA 35
Elementary School Classroom
Observation Report for Morrissey-Berru,
dated 11/6/14 (ER 242-244)........................... JA 59
Declaration of Silvia Bosch
(ER 250-252) .................................................. JA 65
Declaration of Beatriz Botha
(ER 254-255) .................................................. JA 68

JA ii
Excerpts of Record, Morrissey-Berru v. Our
Lady of Guadalupe Sch., No. 17-56624
(9th Cir. Mar. 12, 2018), ECF No. 7-3:
Deposition Testimony of Agnes Deirdre
Morrissey-Berru (ER 263, 268-272, 275279, 282, 290-292, 295-300, 301) .................. JA 71
Teacher Employment Contract, 20132014 School Year (Ex. 12 to MorrisseyBerru Dep.) (ER 342-346) ............................. JA 91
Morrissey-Berru April 7, 2016 Letter to
EEOC, (ER 353-356) ................................... JA 101
Deposition Testimony of April Beuder,
Vol. I, (ER 359, 365-370, 371, 372-373,
374-376, 377, 378-380, 381-385) ................. JA 108
Teacher Employment Agreement,
Elementary, 1999-2000 School Year (Ex.
3 to Beuder Dep.) (ER 395-396) .................. JA 127
Faculty Employment Agreement,
Elementary, 2012-2013 School Year (Ex.
4 to Beuder Dep.) (ER 397-402) .................. JA 134
Teacher Employment Agreement,
Elementary, 2013-2014 School Year
(Ex. 5 to Beuder Dep.) (ER 403-407) .......... JA 144
Teacher Employment Agreement,
Elementary, 2014-2015 School Year,
Part-Time (Ex. 6 to Beuder Dep.)
(ER 408-413) ................................................ JA 154
Complaint, Morrissey-Berru v. Our Lady of
Guadalupe Sch., 2:16-cv-09353-SVWAFM (C.D. Cal. Dec. 19, 2016),
ECF No. 1 .................................................... JA 165

JA iii
Answer, Morrissey-Berru v. Our Lady of
Guadalupe Sch., 2:16-cv-09353-SVWAFM (C.D. Cal. Feb. 13, 2017),
ECF No. 16 .................................................. JA 176
Amended Answer, Morrissey-Berru v. Our
Lady of Guadalupe Sch., 2:16-cv-09353SVW-AFM (C.D. Cal. Mar. 17, 2017),
ECF No. 21 .................................................. JA 186
St. James School v. Biel, No. 19-348
Relevant Docket Entries, Biel v. St. James
Sch., No. 17-55180 (9th Cir.) ...................... JA 197
Relevant Docket Entries, Biel v. St. James
Sch., No. 2:15-cv-04248-TJH-AS
(C.D. Cal.) .................................................... JA 212
Excerpts of Record, Biel v. St. James Sch.,
No. 17-55180 (9th Cir. Sept. 20, 2017),
ECF No. 21-2:
Statement of Controverted and
Uncontroverted Facts and Conclusions of
Law (ER 29, 34, 40, 45-47, 73-75, 77-78).... JA 226
Excerpts of Record, Biel v. St. James Sch.,
No. 17-55180 (9th Cir. Sept. 20, 2017),
ECF No. 21-3:
Deposition Testimony of Kristen Biel
(ER 207, 210-216, 217-219, 223-234, 258259, 260-262, 263-266, 267-268, 272) ......... JA 242
Elementary School Classroom
Observation Report, Nov. 12, 2013
(ER 282-286) ................................................ JA 277

JA iv
Excerpts of Record, Biel v. St. James Sch.,
No. 17-55180 (9th Cir. Sept. 20, 2017),
ECF No. 21-4:
Deposition Testimony of Mary M.
Kreuper (ER 431, 435-436, 437, 441, 442,
443-444, 447-452, 453-454, 458, 459-461,
462-466, 467-468, 469-473, 475-476, 477) .. JA 287
Faculty Employment Agreement—
Elementary, 2013-2014 school year (Ex. 2
to Kreuper Dep.) (ER 483-487) ................... JA 320
Letter from Mary M. Kreuper, dated May
15, 2014 (ER 502) ........................................ JA 330
Excerpts of Record, Biel v. St. James Sch.,
No. 17-55180 (9th Cir. Sept. 20, 2017),
ECF No. 21-5:
Declaration of Mary M. Kreuper in
support of Defendant’s Motion for
Summary Judgment (ER 666-667) ............. JA 331
Complaint, Biel v. St. James Sch., No. 2:15cv-04248-TJH-AS (C.D. Cal. June 5,
2015), ECF No. 1 ......................................... JA 334
Answer, Biel v. St. James Sch., No. 2:15-cv04248-TJH-AS (C.D. Cal. July 22, 2015),
ECF No. 11 .................................................. JA 347
First Amended Complaint, Biel v. St. James
Sch., No. 2:15-cv-04248-TJH-AS (C.D.
Cal. Nov. 12, 2015), ECF No. 21 ................. JA 365

JA v
The following opinions, decisions, judgments,
orders and other materials have been omitted in
printing this joint appendix because they appear on
the following pages in the appendix to the Petition for
Certiorari:
Our Lady of Guadalupe School v.
Morrissey-Berru, No. 19-267
Opinion, Morrissey-Berru v. Our Lady of
Guadalupe Sch., No. 17-56624 (9th
Cir. Apr. 30, 2019), ECF No. 38-1. ................ 1a
Order Granting Summary Judgment,
Morrissey-Berru v. Our Lady of
Guadalupe Sch., 2:16-cv-09353-SVWAFM (C.D. Cal. Sept. 27, 2017), ECF
No. 58. ............................................................ 4a
29 U.S.C. § 623. ................................................. 10a
29 U.S.C. § 631. ................................................. 10a
Excerpts from Defendant’s Reply to
Plaintiff’s Statement of Controverted
and Uncontroverted Material Facts
and Conclusions of Law Re: Motion of
Defendant for Summary Judgment,
Morrissey-Berru v. Our Lady of
Guadalupe Sch., 2:16-cv-09353-SVWAFM (C.D. Cal. Sept. 1, 2017), ECF
No. 44 ........................................................... 11a

JA vi
Teacher Employment AgreementElementary, Non-Exempt,
Department of Catholic Schools,
Archdiocese of Los Angeles, Our Lady
of Guadalupe School, Deidre
Morrissey-Berru,
2014-2015 ..................................................... 32a
Philosophy & History, Our Lady of
Guadalupe School (Apr. 14, 2017) ............... 43a
Rev. Richard N. Fragomeni, Blest Are We,
Faith & Word Edition, Title Page and
Table of Contents (2010).............................. 45a
Our Lady of Guadalupe Faculty
Handbook, Statement of Commitment
to Core Values, 303-304 (2014-2015) .......... 52a
Excerpts from Transcript of Deposition of
April L. Beuder, Volume I, MorrisseyBerru v. Our Lady of Guadalupe Sch.,
No. 2:16-cv-09353 (C.D. Cal. May 4,
2017) ............................................................. 56a
Excerpts from Transcript of Deposition of
April L. Beuder, Volume II, MorrisseyBerru v. Our Lady of Guadalupe Sch.,
No. 2:16-cv-09353 (C.D. Cal. May 11,
2017) ............................................................. 73a
Excerpts from Transcript of Deposition of
Agnes Deirdre Morrissey-Berru,
Morrissey-Berru v. Our Lady of
Guadalupe Sch., No. 2:16-cv-09353
(C.D. Cal. Apr. 26, 2017).............................. 80a

JA vii
The following has been omitted in printing this
joint appendix because it appeared on the following
pages in the appendix to the Respondent’s Brief in
Opposition to Petition for a Writ of Certiorari:
Declaration of Agnes Deirdre MorrisseyBerru Submitted in Opposition to Our
Lady of Guadalupe School’s Motion for
Summary Judgment ...................................... 1a
The following opinions, decisions, judgments,
orders and other materials have been omitted in
printing this joint appendix because they appear on
the following pages in the appendix to the Petition for
Certiorari:
St. James School v. Biel, No. 19-348
Opinion,
Biel v. St. James Sch., No. 17-55180
(9th Cir. Dec. 17, 2018) .................................. 1a
Order,
Biel v. St. James Sch., No. 17-55180
(9th Cir. June 25, 2019) ............................... 40a
Notice of Party Substitution,
Biel v. St. James Sch., No. 17-55180
(9th Cir. July 3, 2019) .................................. 68a
Amended Order,
Biel v. St. James Sch., No. 2:15-cv04248-TJH-AS (C.D. Cal. Jan. 24,
2017) ............................................................. 69a
42 U.S.C. 12112 ................................................. 75a

JA viii
Statement of Uncontroverted Facts
and Conclusions of Law,
Biel v. St. James Sch., No. 2:15-cv04248-TJH-AS (C.D. Cal. Nov. 7,
2016) ............................................................. 76a
Deposition of Kristen Biel,
Biel v. St. James Sch., No. 2:15-04248
(C.D. Cal. Nov 10, 2015) .............................. 92a
Faculty/Staff Handbook of St. James
School ......................................................... 109a
Deposition of Janell O’Dowd,
Biel v. St. James Sch., No. 2:15-cv04248-TJH-AS (C.D. Cal. Jan 28,
2016) .......................................................... 111a
Deposition of Kathleen McDermott,
Biel v. St. James Sch., No. 2:15-cv04248-TJH-AS (C.D. Cal. Dec. 3, 2015) .... 120a

JA 1
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________
No. 17-56624
__________
Agnes Morrissey-Berru,
Plaintiff-Appellant,
v.

Our Lady of Guadalupe School
Defendant-Appellee.
__________
RELEVANT DOCKET ENTRIES
Date Filed

#

Docket Text

10/25/2017

1

DOCKETED CAUSE AND
ENTERED APPEARANCES
OF COUNSEL. SEND MQ:
Yes. The schedule is set as follows: Mediation Questionnaire due on 11/01/2017. Appellant Agnes Deirdre Morrissey-Berru opening brief due
12/26/2017. Appellee Our
Lady of Guadalupe School answering brief due 01/23/2018.
Appellant's optional reply
brief is due 21 days after service of the answering brief.
[10631572] (WL) [Entered:
10/25/2017 03:27 PM]
*

*

*

JA 2
Date Filed

#

Docket Text

03/12/2018

7

03/12/2018

8

Submitted (ECF) excerpts of
record. Submitted by Appellant Agnes Deirdre MorrisseyBerru. Date of service:
03/12/2018. [10795350] [1756624] (Lovretovich, Joseph)
[Entered: 03/12/2018 04:33
PM]
Submitted (ECF) Opening
Brief for review. Submitted by
Appellant Agnes Deirdre Morrissey-Berru. Date of service:
03/12/2018. [10795523] [1756624] (Lovretovich, Joseph)
[Entered: 03/12/2018 09:21
PM]
*

05/25/2018

17

*

*

Submitted (ECF) Answering
Brief for review. Submitted by
Appellee Our Lady of Guadalupe School. Date of service:
05/25/2018. [10885930] [1756624]--[COURT UPDATE:
Attached corrected brief.
05/30/2018 by SLM] (Kantor,
Stephanie) [Entered:
05/25/2018 11:38 AM]
*

*

*

JA 3
Date Filed

#

Docket Text

07/16/2018

23

Submitted (ECF) Reply Brief
for review. Submitted by Appellant Agnes Deirdre Morrissey-Berru. Date of service:
07/16/2018. [10944450] [1756624]--[COURT UPDATE:
Attached corrected PDF of
brief. 07/17/2018 by RY] (Lovretovich, Joseph) [Entered:
07/16/2018 09:28 PM]
*

12/18/2018

29

36

*

Filed (ECF) Appellant Agnes
Deirdre Morrissey-Berru citation of supplemental authorities. Date of service:
12/18/2018. [11125285] [1756624]--[COURT UPDATE:
Attached searchable version
of letter. 12/19/2018 by RY]
(Lovretovich, Joseph) [Entered: 12/18/2018 05:09 PM]
*

04/11/2019

*

*

*

ARGUED AND SUBMITTED
TO JOHNNIE B.
RAWLINSON, MARY H.
MURGUIA and JAMES RODNEY GILSTRAP. [11260842]
(DLM) [Entered: 04/11/2019
12:43 PM]

JA 4
Date Filed

#

Docket Text

04/19/2019

37

04/30/2019

38

Filed Audio recording of oral
argument. Note: Video recordings of public argument calendars are available on the
Court's website, at
http://www.ca9.uscourts.gov/
media/ [11270708] (DLM) [Entered: 04/19/2019 03:08 PM]
FILED MEMORANDUM
DISPOSITION (JOHNNIE B.
RAWLINSON, MARY H.
MURGUIA and JAMES RODNEY GILSTRAP) REVERSED. FILED AND ENTERED JUDGMENT.
[11281598] (MM) [Entered:
04/30/2019 09:59 AM]
*

07/11/2019

40

08/30/2019

41

*

*

MANDATE ISSUED.(JBR,
MHM and JRG) Costs taxed
against Appellee in the
amount of $541.44.
[11361039] (RR) [Entered:
07/11/2019 03:05 PM]
Supreme Court Case Info
Case number: 19-267 Filed on:
08/28/2019 Cert Petition Action 1: Pending [11416662]
(RR) [Entered: 08/30/2019
11:30 AM]

JA 5
Date Filed

#

Docket Text

12/18/2019

42

Supreme Court Case Info
Case number: 19-267 Filed on:
08/28/2019 Cert Petition Action 1: Granted, 12/18/2019
[11537620] (RR) [Entered:
12/18/2019 03:43 PM]

JA 6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
__________
No. 16-cv-9353
__________
Agnes Morrissey-Berru,
Plaintiff,

v.
Our Lady of Guadalupe School, et al.
Defendants.
__________
RELEVANT DOCKET ENTRIES
Date Filed

#

12/19/2016

1

02/13/2017

Docket Text

COMPLAINT Receipt No:
0973-19076448 - Fee: $400,
filed by plaintiff Agnes Deirdre Morrissey-Berru. (Attorney Joseph M Lovretovich
added to party Agnes Deirdre
Morrissey-Berru (pty:pla))
(Lovretovich, Joseph) (Entered: 12/19/2016)
*
*
*
16 ANSWER to Complaint (Attorney Civil Case Opening) 1
filed by Defendant Our Lady
of Guadalupe School.(Kantor,
Stephanie) (Entered:
02/13/2017)
*
*
*

JA 7
Date Filed

#

Docket Text

03/13/2017

20

03/17/2017

21

MINUTES OF NEW CASE
STATUS CONFERENCE held
before Judge Stephen V. Wilson. The Court sets the following dates: Jury Trial set for
8/15/2017 at 09:00 AM before
Judge Stephen V. Wilson. Pretrial Conference set for
8/7/2017 at 03:00 PM before
Judge Stephen V. Wilson. Defendant is granted leave to file
an amended answer. Court
Reporter: N/A. (mrgo) (Entered: 03/15/2017)
AMENDED ANSWER to
Complaint (Attorney Civil
Case Opening) 1 filed by Defendant Our Lady of Guadalupe School. (Kantor, Stephanie) (Entered: 03/17/2017)
*

08/18/2017

27

*

*

NOTICE OF MOTION AND
MOTION for Summary Judgment as to Complaint filed by
Defendant Our Lady of Guadalupe School. Motion set for
hearing on 9/18/2017 at 01:30
PM before Judge Stephen V.
Wilson. (Kantor, Stephanie)
(Entered: 08/18/2017)

JA 8
Date Filed

#

08/18/2017

28

08/18/2017

08/18/2017

Docket Text

NOTICE OF LODGING filed
of Proposed Statement on Uncontroverted Facts re NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Complaint 27 (Attachments: #
1 [Proposed] Statement of Uncontroverted Facts)(Kantor,
Stephanie) (Entered:
08/18/2017)
29 REQUEST FOR JUDICIAL
NOTICE re NOTICE OF MOTION AND MOTION for
Summary Judgment as to
Complaint 27 filed by Defendant Our Lady of Guadalupe
School. (Kantor, Stephanie)
(Entered: 08/18/2017)
*
*
*
31 APPENDIX filed by Defendant Our Lady of Guadalupe
School. Re: NOTICE OF MOTION AND MOTION for
Summary Judgment as to
Complaint 27 (Attachments: #
1 Exhibit A in support of motion for summary judgment)(Kantor, Stephanie)
(Entered: 08/18/2017)

JA 9
Date Filed

#

08/18/2017

32

08/18/2017

08/18/2017

08/18/2017

Docket Text

APPENDIX filed by Defendant Our Lady of Guadalupe
School. Re: Appendix 31 Exhibit B in support of Motion
for Summary Judgment (Kantor, Stephanie) (Entered:
08/18/2017)
33 APPENDIX filed by Defendant Our Lady of Guadalupe
School. Re: Appendix 32, Appendix 31 Exhibits C-G in
support of Motion for Summary Judgment (Kantor,
Stephanie) (Entered:
08/18/2017)
34 APPENDIX filed by Defendant Our Lady of Guadalupe
School. Re: Appendix 32, Appendix 33, Appendix 31 Exhibits 1-14 in support of Motion for summary judgment
(Kantor, Stephanie) (Entered:
08/18/2017)
35 APPENDIX filed by Defendant Our Lady of Guadalupe
School. Re: Appendix 32, Appendix 34, Appendix 33, Appendix 31 Exhibits 15-30 in
support of Motion for Summary Judgment (Kantor,
Stephanie) (Entered:
08/18/2017)
*
*
*

JA 10
Date Filed

#

Docket Text

08/28/2017

38

08/28/2017

39

08/28/2017

40

MEMORANDUM in Opposition to NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Complaint 27
filed by Plaintiff Agnes Deirdre Morrissey-Berru. (Lovretovich, Joseph) (Entered:
08/28/2017)
Plaintiff's Separate Statement
In Opposition to Motion For
Summary Judgment Opposition re: NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Complaint 27
filed by Plaintiff Agnes Deirdre Morrissey-Berru. (Lovretovich, Joseph) (Entered:
08/28/2017)
Plaintiff's Request for Judicial
Notice in Support of Opposition Opposition re: NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Complaint 27 filed by Plaintiff
Agnes Deirdre MorrisseyBerru. (Lovretovich, Joseph)
(Entered: 08/28/2017)

JA 11
Date Filed

#

Docket Text

08/28/2017

41

08/28/2017

42

09/01/2017

43

Plaintiff's Compendium of Evidence - Volume 1 of 2 Opposition re: NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Complaint 27
filed by Plaintiff Agnes Deirdre Morrissey-Berru. (Lovretovich, Joseph) (Entered:
08/28/2017)
Plaintiff's Compendium of Evidence - Volume 2 of 2 Opposition re: NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Complaint 27
filed by Plaintiff Agnes Deirdre Morrissey-Berru. (Lovretovich, Joseph) (Entered:
08/28/2017)
REPLY in support of NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Complaint 27 filed by Defendant Our Lady of Guadalupe
School. (Kantor, Stephanie)
(Entered: 09/01/2017)

JA 12
Date Filed

#

Docket Text

09/01/2017

44

09/01/2017

45

09/01/2017

46

09/06/2017

47

STATEMENT of Reply Statement of Controverted and Uncontroverted Facts NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Complaint 27 filed by Defendant Our Lady of Guadalupe
School. (Kantor, Stephanie)
(Entered: 09/01/2017)
NOTICE OF LODGING filed
Objections to Plaintiff's Evidence re Reply (Motion related) 43 (Attachments: # 1
Objections to Plaintiff's Evidence)(Kantor, Stephanie)
(Entered: 09/01/2017)
DECLARATION of Stephanie
B. Kantor in support of Defendant's Reply NOTICE OF
MOTION AND MOTION for
Summary Judgment as to
Complaint 27 filed by Defendant Our Lady of Guadalupe
School. (Kantor, Stephanie)
(Entered: 09/01/2017)
NOTICE of Voluntary Dismissal filed by plaintiff Agnes
Deirdre Morrissey-Berru. Dismissal is with prejudice. (Lovretovich, Joseph) (Entered:
09/06/2017)

JA 13
Date Filed

#

09/08/2017

48

09/11/2017

09/11/2017

Docket Text

IN CHAMBERS ONLY-TEXT
ONLY ENTRY by Judge Stephen V. Wilson: The Court orders that Defendant Our Lady
of Guadalupe School clarify
the scope of the Motion for
Summary Judgment 27, in
light of the recent dismissal of
claims. The defendant shall
file a supplemental memorandum no later than Wednesday, September 13, 2017.
THERE IS NO PDF DOCUMENT ASSOCIATED WITH
THIS ENTRY. (pc) TEXT
ONLY ENTRY (Entered:
09/08/2017)
49 MEMORANDUM of CONTENTIONS of FACT and
LAW filed by Defendant Our
Lady of Guadalupe School.
(Kantor, Stephanie) (Entered:
09/11/2017)
*
*
*
51 MEMORANDUM of CONTENTIONS of FACT and
LAW filed by plaintiff Agnes
Deirdre Morrissey-Berru.
(Lovretovich, Joseph) (Entered: 09/11/2017)
*
*
*

JA 14
Date Filed

#

09/12/2017

55

09/15/2017

Docket Text

SUPPLEMENT to NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Complaint 27 Memorandum
Clarifying Scope of Motion
filed by Defendant Our Lady
of Guadalupe School. (Kantor,
Stephanie) (Entered:
09/12/2017)
56 IN CHAMBERS ONLY-TEXT
ONLY ENTRY by Judge Stephen V. Wilson: The Motion
for Summary Judgment as to
Complaint filed by Defendant
27 is suitable to a determination without oral argument.
Fed. R. Civ. P. 78(b); Local
Rule 7-15. The hearing scheduled for 09/18/2017 at 1:30
p.m. is VACATED and OFFCALENDAR. Order to issue.
THERE IS NO PDF DOCUMENT ASSOCIATED WITH
THIS ENTRY. (pc) TEXT
ONLY ENTRY (Entered:
09/15/2017)
*
*
*

JA 15
Date Filed

#

09/27/2017

58

10/25/2017

Docket Text

MINUTES (IN CHAMBERS)
ORDER GRANTING SUMMARY JUDGMENT by Judge
Stephen V. Wilson re: 27 for
Summary Judgment. The prevailing shall submit a proposed judgment consistent
with this order. All previously
set dates are vacated. (See
document for details) (mrgo)
(Entered: 09/27/2017)
*
*
*
60 NOTICE OF APPEAL to the
9th Circuit Court of Appeals
filed by plaintiff Agnes Deirdre Morrissey-Berru. Appeal
of Order on Motion for Summary Judgment, 58 . (Appeal
Fee - $505 Fee Paid, Receipt
No. 0973-20719823.) (Lovretovich, Joseph) (Entered:
10/25/2017)
*
*
*

JA 16
Date Filed

#

12/06/2017

63

04/30/2019

Docket Text

JUDGMENT by Judge Stephen V. Wilson. IT IS
HEREBY ORDERED, ADJUDGED AND DECREED as
follows: Plaintiff shall take
nothing on her Complaint; 2.
Defendant OUR LADY OF
GUADALUPE SCHOOL's Motion for Summary Judgment
27 58 is GRANTED in its entirety. (MD JS-6, Case Terminated). (lom) (Entered:
12/07/2017)
*
*
*
75 MEMORANDUM from Ninth
Circuit Court of Appeals filed
re: Notice of Appeal to 9th
Circuit Court of Appeals 60
filed by Agnes Deirdre Morrissey-Berru. CCA # 17-56624.
The decision of the district
court is REVERSED. (mrgo)
(Entered: 05/02/2019)

JA 17
Date Filed

#

07/11/2019

76

Docket Text
MANDATE of Ninth Circuit
Court of Appeals filed re: Notice of Appeal to 9th Circuit
Court of Appeals 60, CCA
# 17-56624. The judgment of
this Court, entered April 30,
2019, takes effect this date.
This constitutes the formal
mandate of this Court issued
pursuant to Rule 41(a) of the
Federal Rules of Appellate
Procedure. Costs are taxed
against the appellee in the
amount of $541.44. [See
USCA Memorandum 75 We
have jurisdiction under 28
U.S.C. § 1291, and we reverse.](mat) (Entered:
07/12/2019)
*
*
*

JA 18
Date Filed

#

Docket Text

08/06/2019

81

MINUTE ORDER (IN CHAMBERS) GRANTING DEFENDANT'S UNOPPOSED
MOTION TO STAY 78 by
Judge Stephen V. Wilson. The
Court hereby issues a stay of
the matter, pending resolution of Defendant's Petition
for Writ of Certiorari to the
Supreme Court. The case is
moved to the Court's inactive
calendar. The parties shall notify the Court, in writing,
when the case should be returned to the active calendar.
The parties are instructed to
notify the Court within 10
days of the Supreme Court's
resolution of the Defendant's
Petition for Writ of Certiorari.
(MD JS-6. Case Terminated)
(mrgo) (Entered: 08/07/2019)

JA 19
EXCERPTS FROM
DEFENDANT’S REPLY TO PLAINTIFF’S
STATEMENT OF CONTROVERTED AND
UNCONTROVERTED MATERIAL FACTS AND
CONCLUSIONS OF LAW RE: MOTION OF
DEFENDANT FOR SUMMARY JUDGMENT,
ECF NO. 44
[ER 57]
LINDA MILLER SAVITT, SBN 94164
lsavitt@brgslaw.com
STEPHANIE KANTOR, SBN 272421
skantor@brgslaw.com
BALLARD ROSENBERG GOLPER & SAVITT, LLP
15760 Ventura Boulevard, Eighteenth Floor
Encino, CA 91436
Telephone: (818) 508-3700
Facsimile: (818) 506-4827
Attorneys for Defendant
OUR LADY OF GUADALUPE SCHOOL
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIRDRE
MORRISSEY-BERRU,
an individual
Plaintiff,
vs.
OUR LADY OF
GUADALUPE
SCHOOL, a California
non-profit corporation

CASE NO. 2:16-CV09353-SVW-AFM
[Assigned to Hon
Stephen V. Wilson]
DEFENDANT’S
REPLY TO
PLAINTIFF’S
STATEMENT OF
CONTROVERTED
AND
UNCONTROVERTED

JA 20
and DOES l through
50, inclusive

MATERIAL FACTS
AND CONCLUSIONS
OF LAW RE: MOTION
OF DEFENDANT FOR
SUMMARY
JUDGMENT
[Fed. R. Civ. P. 56]

Defendants.

Date: September 18,
2017
Time: 1:30 p.m.
Ctrm: l0A
(Filed concurrently
with Objections to
Plaintiffs Evidence;
Kantor Reply
Declaration; Reply
MPA; Notice of
Lodgment of Objection
to Evidence)
Action Filed:
December 19, 2016
[ER 61]

*

*

*

[I. Statement of Uncontroverted Facts]
[Defendant’s Uncontroverted Facts]
*

*

*

[DEFENDANT’S] REPLY: Plaintiff raises no
genuine, material dispute. Instead she concedes that
“the faculty and staff are committed to faith-based
education.” Plaintiff’s purported dispute presents only
argumentative, irrelevant surplusage which is non-

JA 21
responsive to the fact proffered. There is no genuine
issue with respect to this fact, and it should be deemed
uncontroverted.
_________________________________________________
6. Plaintiff began working full time at the School as a
teacher in 1999, at the age of 48.
Supporting Evidence:
Plaintiff Depo. 12:19-20, 19:4-21
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
7. The teachers at the School all work on one-year
fixed term contracts. Teacher contracts are only for
one year at a time, and renewal is determined on a
year to year basis.
Supporting Evidence:
Beuder Decl. ¶6; Plaintiff Dep. 20:19Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
_________________________________________________
[ER 121]
*

*

*

II. PLAINTIFF’S STATEMENT OF FURTHER
UNCONTROVERTED FACTS
Plaintiff’s
Uncontroverted
Facts
and
Supporting Evidence
90. Agnes Deirdre Morrissey-Berru (“MorrisseyBerru”) attended two colleges to receive her Bachelor
of Arts in English language arts and a minor in
secondary education. [Deposition of Agnes MorrisseyBerru 17:14-18:4]

JA 22
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
Plaintiff’s
Uncontroverted
Facts
and
Supporting Evidence
91. In 2007, after teaching full-time at Our Lady of
Guadalupe for eight years, Morrissey-Berru received
her California teaching credential from Chapman
University. [Deposition of Morrissey-Berru 18:5-18:17;
19:4-19:15]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
92. Before Morrissey-Berru taught at Our Lady of
Guadalupe, she worked at the Los Angeles Times for
20 years as a [ER122] copywriter and advertising
salesperson. [Deposition of Morrissey-Berru 18:1819:2] [Declaration of Morrissey-Berru 11]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
93. In 1998, Morrissey-Berru began working at Our
Lady of Guadalupe as a substitute teacher.
[Deposition of Agnes Morrissey-Berru 19:4-19:10]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
94. When she began working for the school, MorrisseyBerru was forty-seven years old. [Deposition of Agnes
Morrissey-Berru 12:19-12:20; 19:4-19:10]

JA 23
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
95. In the fall of 1999, Morrissey-Berru was offered a
full-time 6th grade position. [Deposition of Agnes
Morrissey-Berru 19:11-23]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
96. This position was self-contained – Morrissey-Berru
taught reading, writing grammar, vocabulary, science,
social studies, and religion. [Deposition of Agnes
Morrissey-Berru 19:16-19:21]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
[ER 123]
97. This position lasted for 10 years until MorrisseyBerru moved to 5th grade. [Deposition of Agnes
Morrissey-Berru 19:24-20:6]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
98. The 5th grade position was also self-contained.
[Deposition of Agnes Morrissey-Berru 19:24-20:6]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
99. Upon being hired, Morrissey­Berru testified that
she did not feel her position at Our Lady of Guadalupe
was “called” or believe that she was accepting a formal

JA 24
call to ministry. [Declaration of Agnes MorrisseyBerru ¶8]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
irrelevant given that Plaintiff’s admissions include the
following:
• Our Lady of Guadalupe School is a Catholic
parish school under the jurisdiction of the
Archdiocese of Los Angeles (UF 1);
• “the mission of the School is to provide its
students with a Catholic education” (Plaintiff’s
response to UF 10, 11);
• “Morrissey-Berru admitted that she was
responsible for introducing her students to
Catholicism and providing the groundwork for
their religious doctrine” (Plaintiff’s response to
UF 15);
• “Morrissey-Berru admitted that she was
committed to faith-based
_________________________________________________
[ER 127]
103. Ms. Beuder was the only individual who
completed Elementary School Classroom Observation
Reports regarding the teachers at Our Lady of
Guadalupe. [Deposition of April Beuder 193:9-193:20]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
104. To complete these forms, Ms. Beuder would
observe the teacher as she teaches the students.
[Deposition of April Beuder 189:10-193:8, Exhibit 9]

JA 25
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
105. In November 2012, Principal April Beuder
performed a classroom observation of MorrisseyBerru’s teaching. [Deposition of April Beuder 189:10193:20, Exhibit 9]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
irrelevant as it involves a review of a science class.
_________________________________________________
106. On the review, Ms. Beuder marked either
“Innovating” or “Implementing” to describe various
categories
of
Morrissey-Berru’s
performance.
[Deposition of April Beuder 189:10-190:1; Exhibit 9]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
irrelevant as it involves a review of a science class.
_________________________________________________
[ER 128]
107. “Innovating” is defined as “Adjusts and creates
new strategies for unique student needs and
situations during the lesson.” Exhibit 5 – Defendant’s
Document Production [OLG 0170]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________

JA 26
108. “Implementing” is defined as “Uses strategies at
appropriate time, in the appropriate matter.” Exhibit
5 – Defendant’s Document Production [OLG 0170]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
109. Additionally, Ms. Beuder wrote positive
comments
about
Morrissey-Berru’s
teaching,
including “Ms. Morrissey has an excellent rapport
with her students. This was an interactive lesson that
engaged multiple mobilities, visual auditory,
kinesthetic. Highly effective use of technology.”
[Deposition of April Beuder 189:10-190:1; Exhibit 9 –
OLG 0156]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
irrelevant as it involves a review of a science class.
_________________________________________________
110. Ms. Beuder would conduct similar reviews in
March 2013 and November 2014 and mark either
“Innovating” or “Implementing” to describe various
aspects of Morrissey-Berru’s performance.
Defendant’s Response and Supporting Evidence
Vague and ambiguous as to “similar” reviews and to
the extent that Plaintiff has not captured the entire
reviews. For example, Plaintiff’s fact conceals that
Mrs. Beuder also marked “emerging” to describe
aspects of Plaintiff’s
_________________________________________________
[ER 131]
118. Our Lady of Guadalupe hired Andrea RumaHarrington who was thirty-nine years old to teach
language arts for that year. [Deposition of Agnes

JA 27
Morrissey-Berru 138:11-138:22] [Deposition of April
Beuder, Volume 2, 261:5-262:4]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
119. Morrissey-Berru’s part-time contract lasted one
year. [Deposition of Agnes Morrissey-Berru 146:1146:7] [Deposition of April Beuder, Volume 2, 268:23269:1]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
120. Teachers are not required to be Catholic in order
to teach at Our Lady of Guadalupe [Deposition of April
Beuder 54:11-58:13]
Defendant’s Response and Supporting Evidence
The materials cited do not support Plaintiff’s “fact”:
“Q. Is it a requirement that a teacher be Catholic in
order to teach at OLG School? Yes or no? A. Yes.”.
(Beuder Depo. 58:5-8) This raises no genuine, material
issue.
_________________________________________________

JA 28
121. All of the teachers at Our Lady of Guadalupe are
governed by one-year renewable contracts. [Deposition
of Agnes Morrissey-Berru 21:25-22:8]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
122. Morrissey-Berru is considered a teacher under
her Faculty Employment Agreement – Elementary
with Our Lady of Guadalupe Catholic School.
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
duplicative of PUMF 100 and therefore is calculated
to vex, harass and annoy. This fact is also irrelevant
given
_________________________________________________
[ER 162]
*
*
*
162. On the review, Ms. Beuder marked either
“Innovating” or “Implementing” to describe various
aspects of Morrissey-Berru’s performance. Exhibit 5 –
Defendant’s Document Production [OLG 0146-0148]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
irrelevant as it involves a review of a math class.
_________________________________________________
163. Additionally, Ms. Beuder noted that MorrisseyBerru has an “[e]xcellent use of technology” and stated
that “Ms. Morrissey-Berru demonstrated calm under
pressure when she had to switch gears due to technical

JA 29
difficulties!” Exhibit 5 – Defendant’s Document
Production [OLG 0146-0148]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. This fact is
irrelevant as it involves a review of a math class.
_________________________________________________
164. In November 2014, Principle April Beuder
performed a classroom observation of MorrisseyBerru’s teaching. Exhibit 5 – Defendant’s Document
Production [OLG 0170-0172]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue.
_________________________________________________
165. On the review, Ms. Beuder marked either
“Innovating or “Implementing” to describe various
aspects of Morrissey-Berru’s performance. Exhibit 5 –
Defendant’s Document Production [OLG 0170-0172]
Defendant’s Response and Supporting Evidence
This raises no genuine, material issue. Irrelevant
because on the same review, Ms. Beuder also marked
“emerging” to describe aspects of Plaintiff’s
performance. This is also irrelevant because it is a
review from November
_________________________________________________

JA 30
Excerpts from Transcript of Deposition of
April L. Beuder
[ER 192]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIDRE
MORRISSEY-BERRU,
an individual,
Plaintiff,
vs.
OUR LADY OF
GUADALUPE
CATHOLIC SCHOOL, a
California non-profit
corporation; and DOES
1-50, inclusive,
Defendants.

Case No. 2:16-cv-09353SVW-AFM
Volume II

VIDEOTAPED DEPOSITION OF APRIL L.
BEUDER, taken on behalf of the Plaintiff, before
Damaris Martinez, a Certified Shorthand Reporter,
Number 12925, for the State of California;
commencing at 11:04 a.m., on Thursday, May 11,
2017, at 21052 Oxnard Street, Woodland Hills,
California.
[ER 199]

*

*

*

BY MS. FUND:
Q: Okay. Did you ever consider, I believe his name is
Mr. Hazen. Do you know who I'm referring to, Jimmy
Hazen?

JA 31
A: Yes, I know who Jimmy Hazen is.
Q: Did you ever consider him to teach the fifth grade
class for the 2014, 2015 school year?
A: I don't recall him specifically. I don't recall him
specifically. Overall, there was – I looked at everyone
to see if it was possible to move people around.
Q: Did you ever –
A: And it wasn’t.
Q: Sorry. Did you ever tell Mr. Hazen that you wanted
him to take on the fifth grade teaching job?
A: No.
Q: Do you know how old Mr. Hazen is?
A: No.
Q: What's your best estimate?
MS. KANTOR: Don't guess.
THE WITNESS: 30s.
MS. KANTOR: It's been almost an hour. Can we take
a break sometime soon?
MS. FUND: Sure. We can take one right
*

*

*

*

*

*

[ER 200]
MS. KANTOR: You can answer.
THE WITNESS: No.
BY MS. FUND:
Q: Okay. Who ultimately was selected to teach the
majority of classes for fifth grade for 2014, 2015?

JA 32
MS. KANTOR: Vague as to “majority of classes.”
Argumentative. Lacks foundation.
THE WITNESS: In late July 2014. Ms. Andrea Ruma
was hired to teach fifth and sixth grade language arts.
BY MS. FUND:
Q: Are those the only classes that she was teaching?
A: She was part-time.
Q: And again my question is, are those the only classes
she was teaching?
A: Yes.
Q: Only language arts for fifth and sixth grade?
MS. KANTOR: Asked and answered.
THE WITNESS: And fifth grade math.
BY MS. FUND:
Q: Who taught – I’ll strike that. [ER 201] Is reading
and writing included in language arts?
A: Language arts is reading, writing, spelling,
grammar, phonics, yes.
Q: Who was teaching science to the fifth grade
students during the 2014 to 2015 school year? The fifth
grade students?
A: I believe it was Ms. Katy Dovey.
Q: Did you know Ms. Ruma before she started at OLG
school?
A: I worked with her once.
Q: And where did you work with her?

JA 33
A: I worked with her at American Martyrs Catholic
School.
Q: And how long did you work with her there at
American Martyrs?
A: I believe our time there overlapped by three years,
three to four years.
Q: Did you ever ask Ms. Morrissey-Berru to help Ms.
Ruma with the reading and writing program?
MS. KANTOR: Lacks foundation.
THE WITNESS: Only to give her all the books and
resources that she had in her possession.
*

*

*

*

*

*

[ER 202]
BY MS. FUND:
Q: Did you have any complaints about Ms. MorrisseyBerru’s teaching during the 2014 to 2015 school year?
MS. KANTOR: Overbroad. Lacks foundation. Calls for
speculation. Calls for a narrative.
THE WITNESS: Yes.
BY MS. FUND:
Q: Okay. What are those concerns?
A: Classroom management, lack of rigor in social
studies.
THE REPORTER: Lack of?
THE WITNESS: Rigor. Academic rigor. Coloring. Too
much coloring. Concerns about sweets being brought

JA 34
into and provided for the students despite school-wide
policy against sweets.
BY MS. FUND:
Q: At any time did you consider renewing her parttime contract or offering her another part-time
contract for the 2015, 2016 school year?
[ER 203]
A: No.
Q: And why is that?
A: I created a part-time position explicitly for one year
for Ms. Morrissey-Berru and found a way to make it
work in our budget but it was not a sustainable model
for a number of reasons.
Q: And tell me about what those reasons are.
A: It’s an additional part-time position that wasn’t
there before. We have very limited resources and the
– having someone in teaching social studies, who is not
able to collaborate and integrate the principles of
reading and writing instruction that are probably
throughout the school is problematic and not in the
students’ best interest.
Q: Ultimately, then, why did you decide to offer her the
position, the part-time position for 2014, 2015?
MS. KANTOR: Asked and answered.
THE WITNESS: I was doing my best to preserve her
dignity and treat her with compassion.
BY MS. FUND:
Q: Do you know what a employee counseling notice is?

JA 35
Excerpts from Transcript of Deposition of
Silvia Bosch
[ER 206]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIDRE
MORRISSEY-BERRU, AN
INDIVIDUAL,
PLAINTIFF,
VS.
OUR LADY OF
GUADALUPE SCHOOL, A
CALIFORNIA NONPROFIT CORPORATION;
AND DOES 1-50,
INCLUSIVE,

Case No. 2:16-cv09353-SVW-AFM

DEFENDANTS.
DEPOSITION OF SILVIA BOSCH
THURSDAY, JULY 20, 2017
JOB NO. 105779
REPORTED BY Izumi Kono, CSR No. 14156
*

*

*

*

*

*

[ER 212]
A: I believe I did.
Q: How soon afterwards?
A: That I don’t recall.

JA 36
Q: Was it during that same month, or was it sometime
late, like, months later? I mean, how close in time?
A: I don’t recall.
Q: Do you know how you would have communicated
these two incidents to Mrs. Morrissey-Berru?
A: Probably, to the best of my knowledge—we had—
she had a few children who had difficulties in the
playground, so I probably went up to her classroom if
I had bench—or time-out, back then we called it, a
time-out, something like that—so I would let her know
something happened. And that’s probably when I
would 1ave told her something.
Q: Okay. So you had referenced an employee named
Lana. What was her first name, to your recollection?
A: Lana. Labor—Labeard—Labeertay. Something like
that.
Q: What was your understanding of—well, let’s start
with this. How long did you work with Lana Laliberte?
[ER 213]
A: To the best of my knowledge, 2011.
Q: And when did your conversation with Mrs. Beuder
about Lana take place?
A: I want to say after Christmas.
Q: And the year?
A: To the best of my knowledge, 2013.
Q: In 2013, how old was Lana, to your knowledge?
MS. FUND: Calls for speculation.
THE WITNESS: 60s?

JA 37
BY MS. KANTOR:
Q: Do you know how old she was?
A: No.
Q: This is just based on your guess?
A: I knew she was in her 60s. That’s all I know.
Q: And what was her role when you were working with
her?
A: She assisted with watching the children,
homework, the lunch program, monitoring the
children during lunch, serving snacks, cutting snacks,
cleaning, making sure parents sign in and out.
Q: Were you her direct supervisor?
A: Was I her supervisor? Yes.
Q: And were you her supervisor during this entire time
period from 2011?
A: Yes.
[ER 214]
Q: And what was your relationship with her like?
MS. FUND: I object. Vague and ambiguous, and
overbroad as to time and scope.
THE WITNESS: Overall?
BY MS. KANTOR:
Q: Yes.
A: At first, when I first hired her, it was fine. She—
she was good. She did everything I asked her to do. As
time went by, she started to get sloppy. And I knew
that she was babysitting students, and I noticed that

JA 38
she didn’t want to listen to me, so it became a bit
rough.
Q: Did you have any other issues managing her?
A: Yes.
Q: What were they?
A: Everything. She—just her whole performance. It
was hard.
Q: Other than not listening to you, what other issues
did you have?
A: She was volatile. She had—she was very
confrontational, very rude, she didn’t want to follow
the rules—certain things you can’t do ‘cause they’re
children, she didn’t—yeah.
Q: How was she confrontational?
[ER 215]
A: If I said something and she didn’t like it, she would
yell at me. Sometimes she would use profanity in front
of the children. She would just—she would go
bananas.
Q: At you?
A: At me. Uh-huh.
Q: And how was she volatile?
A: Volatile—one minute she’s happy, and then other
minute she’s not.
Q: And how was she—Did you feel she wasn’t a good
fit for the school?
A: Yes. I think—yes.
Q: And how come?

JA 39
A: She wasn’t following directions. She was very—
again, she was insubordinate. She was—I didn’t
think—I didn’t think I had to deal with someone’s
personality. And her preference with children.
Q: What do you mean?
A: She was very sweet and kind to the children she
babysat, but then again sometimes she wouldn’t want
to help another child if they needed help. She wasn’t—
you have to be neutral.
Q: So you felt there was favoritism?
[ER 216]
A: Definitely.
Q: So you wanted to terminate her?
A: I did.
Q: Had you done anything in the way of counseling?
A: Yes.
Q: What had you done?
A: Verbal counseling.
Q: Anything else?
A: I did—I did the verbal counseling at first. And
then—believe in April I did a written warning.
Q: In April?
A: I believe, yeah.
Q: Of 2013?
A: I believe so.
Q: Anything else?
A: No.

JA 40
Q: How many conversations did you have with Mrs.
Beuder about Lana?
A: Almost—a lot. A lot.
Q: Can you give me an estimate?
A: Over ten.
Q: When did these conversations start?
A: When they got really bad. And I want to say it was
after Christmas.
Q: That was your first conversation with
*

*

*

[ER 217]
Q: Did you take notes of the conversations?
A: No.
Q: Okay. So the conversation you documented in your
Declaration, was that the first conversation with Mrs.
Beuder?
A: No.
Q: Of the over ten conversations, which one do you
think this was?
MS. FUND: Calls for speculation.
THE WITNESS: That would—could have been the one
in the month of March.
BY MS. KANTOR:
Q: Did you start seeing Mrs. Beuder because you
wanted to terminate Lana?
A: Did I start to see Ms.—I—Can you clarify that?

JA 41
Q: Why did you start seeing Mrs. Beuder in Christmas
of 2012? What was your intention?
MS. FUND: Asked and answered. Go ahead.
THE WITNESS: To inform her of the difficulties I was
having.
BY MS. KANTOR:
Q: Okay. And how did Ms. Beuder respond to your
initial conversation?
[ER 218]
A: At first she listens—she would listen. To the best of
my knowledge, she first listened to me. I don’t really
recall the beginnings of the conversation.
Q: At what point in time did you decide that you
wanted to terminate Lana?
A: Believe it was March—beginning of March.
Q: And what had happened that made you want to
terminate her?
A: Lana—her
aggressive.

aggression

became

worse,

very

Q: Verbally?
A: Verbally. And she—I felt that she was—her next
level was physical.
Q: So in your conversations with Mrs. Beuder between
Christmas of 2012 to March of 2013, you conveyed
your concerns about Lana?
A: Can you clarify that?
Q: I want to understand what those
conversations with Mrs. Beuder were about.

earlier

JA 42
A: They—at first, it was—she’s not—Lana’s not
listening. I come in, and it wasn’t cleaned. I would let
her know I’m having—she’s not—I was looking for
coaching to help me try to deal with Lana at first.
Q: And did Mrs. Beuder provide you with any advice?
[ER 219]
A: Believe she did.
Q: Do you remember what it was?
A: No. I don’t.
Q: Was she trying to help you through the situation?
MS. FUND: Calls for speculation.
THE WITNESS: I felt that it was—it was more my
responsibility. She wanted me to handle it.
BY MS. KANTOR:
Q: Okay. So how many conversations do you think you
had with Mrs. Beuder before March of 2013 about
Lana?
A: I don’t recall.
Q: Was it—how many conversations did you have with
Mrs. Beuder after March of 2013 about Lana?
A: I don’t recall.
Q: Okay. So what was the purpose of your March 2013
conversation with Mrs. Beuder about Lana?
A: I went into her office to let her know my intentions
of terminating Lana.
Q: So at that time you wanted to terminate Lana?
A: Yes.

JA 43
Q: And was Mrs. Beuder reluctant to have you
terminate her?
A: Yes.
Q: Where did this conversation take place?
[ER 220]
A: In her office.
Q: Was anybody else there?
A: No.
Q: How long was the conversation?
A: I don’t recall.
Q: Approximately?
A: I don’t recall.
Q: Did you take any notes?
A: No.
Q: And the purpose of the conversation you said is you
wanted to terminate Lana?
Q: Okay. Can you imagine—if I was a fly on the wall,
can you tell me, you know, what she said and then
what you said in order as best as you remember?
A: Best of my knowledge, I went in, and I told her my
intentions of terminating her. I told her—I told her,
“I’m planning on terminating Lana.” And she said—
she said, you can’t just—“You can’t simply terminate
her. You can’t”—“it’s not that simple to terminate her
because that would be a lawsuit in the making.” And
she kind of—what’s the word—I don’t know—she—
“It’s not that simple to terminate her; it’s a lawsuit in
the making.” That’s what she said. [ER 221] I said,
“Why?” She said because of her—“Because she’s an

JA 44
older person.” And I said, “But I’ve given her plenty of
verbal warnings.” And she said, “That’s not how you
terminate older people. Let me tell you how you
terminate older people.” And then she’s like, “You
don’t want to get sued?” “No.” “Then let me tell you
how you terminate older people.” I said, “Okay.” She
said, “First, you’re going to reduce. Every time you do
a schedule, you reduce her hours and duties—
document it—little by little. Employees become”—
what was the word—frustrated or miserable, “that
they eventually”—“they quit.” And they leave in their
own terms. So then I said, “Well, what happens if she
doesn’t leave?” And she said, “Then you don’t renew
her contract. We are”—what did she say—“private
schools are at will, and you don’t need to renew her
[ER 222] contract at the end of the year.” So I said,
“Okay.” And that’s what I did. Not much—because
when I first did it, she went bananas on me—so I was
afraid of Lana going bananas. So I just did it slowly,
and I reduced her duties.
Q: Was anything else said during her conversation
with Mrs. Beuder?
A: To—regards?
Q: During that conversation you just described to me.
Anything else like—at all. Was anything else said at
all?
A: Of what we discussed?
Q: Have you told me everything that was said in your
conversation with Mrs. Beuder in March of 2013?
A: To the best of my knowledge, yes.
Q: You said that—in response to all of that, you said
okay. Did you say anything else?

JA 45
MS. FUND: Asked and answered.
THE WITNESS: Did I say anything else? I told her she
was going to go bananas on me if I reduced her hours.
And she did say, “Just tell her you don’t have that
much hours to offer.” And then I said, “I really don’t
want to deal with Lana.” [ER 223] She told me, “Just
tell her to come see me then.” And I did. That’s all I
can remember.
Q: From that conversation?
A: From that conversation, yes.
Q: Did you have any awareness of how old Mrs. Beuder
was during that conversation?
MS. FUND: Calls for speculation.
BY MS. KANTOR:
Q: Do you know if she was in her 50s? In her 60s? 40s?
A: No.
Q: How many people did you have working for you that
time?
A: Maybe four, five—that I can remember.
Q: And what
conversation?

were

Lana’s

hours

before

this

A: Oh, I believe it was from 11:30 to 6:00.
Q: Did everyone have the same hours?
A: No. Oh, actually—no. 11:30 to 6:00. Two other
people had—oh, no. No. And one other person had
those hours.
Q: One other person had those hours, and other people
had less hours?

JA 46
*

*

*

[ER 224]
Q: March 2013.
A: Oh, 2013. Sorry. I don’t recall.
Q: So the conversation that you just told me about in
detail you don’t know if that was your last
conversation with Mrs. Beuder about Lana?
MS. FUND: Asked and answered. It’s harassing.
THE WITNESS: You’re confusing me.
BY MS. KANTOR:
Q: I’m sorry. I’m confused, I think. You had this
conversation with Mrs. Beuder that you wrote about
in your Declaration, the one we just talked about.
A: Oh. Uh-huh.
Q: I wanted to know if there were any conversations
with Mrs. Beuder about Lana after that?
A: Yes.
Q: How many?
A: I don’t recall.
Q: What were those conversations about?
A: Lana harassing me, being confrontational to me.
Q: And how would Mrs. Beuder respond?
A: Keep reducing her hours.
Q: What was the first conversation you had with Mrs.
Beuder after the March 2013? Or when was the next
conversation?
[ER 225]

JA 47
A: I don’t recall.
Q: How many conversations did you have with Mrs.
Beuder wherein she allegedly said something about
reducing her hours?
A: How many I had after that—
Q: Yes.
A:—that particular?
Q: Yes.
A: I don’t recall.
Q: Can you give me your best estimate?
A: I don’t recall.
Q: How many times did Mrs. Beuder allegedly tell you
to reduce Lana’s hours?
MS. FUND: Asked and answered.
THE WITNESS: I don’t recall.
BY MS. KANTOR:
Q: So there was at least one conversation with Mrs.
Beuder after the March 2013 conversation wherein
you complained about Lana. Were you still trying to
terminate her? In those conversations, did you say you
wanted to terminate her?
A: After the?
Q: After the March 2013.
A: Yes.
*

*

*

*

*

*

[ER 226]

JA 48
A: To the best of my knowledge, no.
Q: Did Mrs. Beuder ever say anything to you about
Mrs. Morrisey-Berru?
A: Anything—for example? Can you be specific?
Q: Did you and Mrs. Beuder ever discuss Mrs.
Morrisey-Berru?
A: In any way at any time?
Q: Yes. That’s correct.
MS. FUND: I’ll object to the extent it’s extremely
overbroad. Vague and ambiguous. Harassing. Go
ahead.
THE WITNESS: We did.
BY MS. KANTOR:
Q: You have had conversations with Mrs. Beuder
about Mrs. Morrisey-Berru?
A: Yes.
Q: How many conversations do you think you’ve had?
A: I don’t recall.
Q: Well, you said something in your Declaration about
Mrs. Beuder having made underhanded comments
about plaintiff. Can you tell me more about that?
MS. FUND: When she says “plaintiff,” she’s referring
to Mrs. Morrisey-Berru.
[ER 227]
THE WITNESS: Oh. The one that I remember—semiremember was my daughter got into a math summer
program, and—trying to remember. She got into a
summer program. I don’t recall why I was in her office.

JA 49
I’m sure we were talking about—don’t recall why I was
in her office, but anyways I was in her office. And she
said, “Congratulations. I heard (redacted)”—oops, I
gave her name. “I heard” my daughter’s name “got into
the”—it was a pre-algebra. Pre-algebra. And I said,
“Oh, thank you.” And then she said—she said,
laughing, she said, “I want to tell you that”—trying to
think how she said—“I want to tell you that Mrs.
Morrisey thinks she had something to do with that.”
And then she made a sarcastic comment, “we all know
she doesn’t”—“she had nothing do with it, especially
math.” And she rolled her eyes—the way she said it.
That was one. That’s the one I remember the most.
Q: When did that comment take place?
A: I don’t recall.
Q: Well, when did your daughter get into this math
program?
A: I don’t recall. I don’t recall.
Q: Was this before or after—[ER 228] Oh, would this
have been after your daughter had Mrs. MorriseyBerru as her 5th grade teacher or?
A: Believe—I believe—I believe it was her entering 6th
grade.
Q: And do you remember what year that would have
been?
A: No.
Q: Where did this conversation take place?
A: In her office.
Q: Was anybody else present?
A: No.

JA 50
Q: Do you remember why you were in her office?
MS. FUND: Asked and answered.
THE WITNESS: No.
BY MS. KANTOR:
Q: How long was the conversation?
A: I don’t recall.
Q: Was anything else said in the conversation?
A: I don’t recall.
Q: Why did you think—why did you think the
comment was underhanded?
A: Her mannerism, expression, her tone.
Q: Is your daughter gifted at math?
A: I don’t want to say she is, you know. I
Q: You just prefer not to discuss your daughter?
[ER 229]
A: I prefer not to discuss my daughter.
Q: Is it possible that the comment could have been a
commendation of your daughter’s math abilities?
A: No.
Q: Saying that she was able to get into the program
because of her giftedness? On her own merits?
MS. FUND: Calls for speculation.
THE WITNESS: I don’t—I don’t understand what
you’re trying to ask.
BY MS. KANTOR:

JA 51
Q: Well, the way—my understanding is what you said
is the comment was some sort of comment, you know,
somebody trying to take credit, but, you know, your
daughter did this on her own, or she was able to do it.
I was just asking if it was some sort of credit to your
daughter.
MS. FUND: Calls for speculation.
THE WITNESS: Well, no. Credit to my daughter. We
all—my kids, every summer, they go to summer
school, period. Math and English is what we always
focus on.
BY MS. KANTOR:
Q: So they’re hard workers?
A: Uh-huh.
Q: Okay. So how many underhanded comments did
you [ER 230] hear Mrs. Morrisey-Berru make about
plaintiff?
MS. FUND: Hold on. Do you want to—why don’t you
re-ask that—
BY MS. KANTOR:
Q:—did you hear Mrs. Beuder make about Mrs.
Morrisey-Berru.
A: Just one I remember is—I think they had some
Saints Day. I just remember her rolling her eyes, just
let her handle it. Something like that.
Q: Handle what?
A: I think she handled the whole—I don’t know. It was
some kind of saints.
Q: When was this conversation?

JA 52
A: I don’t recall.
Q: It could have been at any point in time while Mrs.
Beuder was the principal?
A: Yes.
Q: And what was the context?
A: Believe I was asking if we were going to do it, if it
was—there was a lot of changes, so I didn’t know if
that was something taking place.
Q: What?
A: The saints—saints play, I believe. Something like
that.
Q: You were asking if sort of saints-related [ER 231]
activity was going to happen?
A: Yeah. And she said—Oh. And I asked, “Who’s going
to do it?” And she made a—“Mrs. Morrisey do it.”
Q: Did she say anything else?
A: That I recall, no.
Q: Did you say anything else?
A: No. As I recall, no.
Q: Were there any other underhanded comments that
you heard Mrs. Beuder make about Mrs. MorriseyBerru?
A: That I recall, no. I do know that if you mention her
name, she had a habit of rolling her eyes.
Q: How many times did you see Mrs. Beuder roll her
eyes about Mrs. Morrisey-Berru?

JA 53
A: Few times. I don’t recall any—I just knew every
time you mentioned her name, she would roll her eyes.
You had the feeling she didn’t like her.
Q: Based on?
A: I don’t know.
Q: You just had a feeling, but you don’t know what it
was based on?
A: Yes.
Q: And when you said you don’t know how many times
she rolled her eyes, can you give your best estimate?
[ER 232]
A: I can’t.
Q: Can you describe the eye roll?
A: Just rolling her eyes back in her head.
Q: Did you ever see her roll her eyes with regard to any
other employees?
A: I don1 t recall. No.
Q: Did she ever roll her eyes with regard to Dr.
Mitchell?
MS. FUND: Calls for speculation.
BY MS. KANTOR:
Q: That you’ve seen?
A: That I recall, no.
Q: And where—where would these eye rolls occur?
A: Generally in her office.
Q: When it was just the two of you?
A: For the most part, yes.

JA 54
Q: Did you ever ask about the eye roll?
A: No.
Q: Did you ever complain about it?
A: Oh, no.
Q: Did you ever take any notes about it?
A: No.
Q: Were there any witnesses to it?
A: To my knowledge, no.
Q: Okay. You said something in your Declaration [ER
233] about parents approaching you and saying, “I
don’t think Mrs. Beuder likes Mrs. Morrisey-Berru”; is
that correct?
A: Correct.
Q: How many conversations like that did you have?
A: To my knowledge, two. Maybe three.
Q: When was the first conversation?
A: I don’t recall.
Q: Was it during your last year of employment at Our
Lady of Guadalupe?
A: I believe so.
Q: And why do you think that?
A: Because it involved Mr. Hazen, and I believe—well,
that’s why.
Q: Tell me about the first conversation.
A: A mom came up to me and said, what’s going “Do
you know what’s going on with Mrs. Morrisey?” And I
said, “No.” And I asked why. And she said she had just

JA 55
gone up—I believe she said she went up—she had
spoken to Mrs. Beuder and spoke highly of Mrs.
Morrisey. And she said that she felt that Mrs. Beuder
was not welcoming to what she had to say. And I said,
“I don’t know anything.” And then she said, “I don’t
think she likes her,” and asked, “do you know if she’s
coming back?” [ER 234] I said, “I don’t know.”
Q: Was anything else said during this conversation?
A: To the best of my knowledge, no.
Q: Did this parent say what she had said to Mrs.
Beuder about Mrs. Morrisey-Berru?
A: Just she spoke highly of her.
Q: Did she say what Mrs. Beuder said or did to indicate
that she was not welcoming of that?
A: No.
Q: Do you know when this parent’s conversation with
Mrs. Beuder took place?
A: I don’t.
Q: And you’re not certain what year it took place?
A: A lot happened. To the best of my knowledge, a lot
of the parents were coming to me the last year that I
was there.
Q: The last school year or the last—
A: The last school year that I was there. So could have
been, I think, 2014.
Q: How long was your conversation with this parent?
A: Not too long.
Q: And where did it take place?

JA 56
A: Inside of the hall, which is the daycare.
Q: Was anybody else present for this conversation?
A: No.
[ER 235]
Q: And do you know why the parent said—spoke to you
about this?
A: No.
Q: When was the second conversation in relation to
that one?
A: It was close to the end of the year.
Q: And where did that conversation take place?
A: In the hall.
Q: Same hall?
A: Same hall.
Q: And was anybody else there?
A: No.
Q: And how long was the conversation?
A: Not that long.
Q: And so what was said?
A: They asked—they asked what’s going on with Mrs.
Morrisey. I said, I don’t know. Why? She says, “I
heard”—no, maybe not “heard” “Mr. Hazen is teaching
English, and how is that possible”—they were upset
about that “and he doesn’t have any credentials.” I
said, “Well, you need to speak to the principal about
that.” She said, “Is she not coming back?” [ER 236] “I
don’t know.” And that—I believe that was it.

JA 57
Q: Any other conversations with parents about
Principal Beuder and Mrs. Morrisey-Berru?
A: That I recall, no.
Q: Had you heard anything before about Mr. Hazen or
was there anything—Was that the first time you heard
anything about Mr. Hazen teaching English?
A: Teaching English, to the best of my knowledge, yes.
Q: And do you know if—if he proceeded to teach
English that next year?
A: I don’t—I don’t recall, but I will say—
MS. FUND: Just respond to her question.
THE WITNESS: Oh.
MS. FUND: And it’s whether you know if Mr. Hazen
taught English the next year.
THE WITNESS: I don’t recall.
BY MS. KANTOR:
Q: I want to mark as Exhibit 3 the Declaration of Silvia
Bosch. It’s Bates stamped MORRISSEY-BERRU1068
to 1070.
*

*

*

[ER 237]
A: Yes.
Q: Did you have to get permission from the principal
to hire Lana?
A: No.
Q: Did you personally interview Lana?
A: Yes.

JA 58
Q: Okay. In order to terminate Lana’s employment,
did you need to receive authority from the principal,
Ms. Beuder?
A: No.
Q: And I don’t think we put it on the record earlier, but
Ms. Beuder is actually sitting across from you at the
table today; is that correct?
A: Correct.
Q: Mrs. Morrisey-Berru is not in this room; correct?
A: Correct.
Q: Have you been offered any type of compensation for
your testimony from Mrs. Morrissey-Berru?
A: No.
Q: But, in fact, you did receive a check for your
deposition today from counsel for Our Lady of
Guadalupe; correct?
A: Yes.
Q: Okay. Have you been made—strike that.

JA 59
[ER 242]
Archdiocese of Los Angeles
Elementary School Classroom Observation Report
Teacher: Mrs. Morrissey-Berru
School: Our Lady of Guadalupe School
Principal: Mrs. April Beuder
City: Hermosa Beach
Grade: 5th
School Year: 2014-15
Subject: Social Studies
Date: 11.6.14 T1
Innovating
Adjusts and creates new
strategies for unique
student needs and
situations during the
lesson.
Emerging
Attempts to use strategy
but uses it incorrectly or
at the wrong time.

Implementing
Uses strategies at
appropriate time, in the
appropriate manner.
Not Exhibiting
Strategy was called for
but not exhibited.

WCEA (Catholic Identity Factors) Check if observed
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 There is visible evidence of signs, sacramental,
traditions of the Roman Catholic Church in the
classroom.
 Curriculum includes Catholic values infused
through all subject areas.
 Integrates Schoolwide Learning Expectations.
Observation Comments: _____________

JA 60
Objective to be Observed: California Standards
for the Teaching Profession
For the following 5 standards, check if observed
Standard 1: Engaging and Supporting All
Students in Learning
 Innovating 1.4
 Emerging

 Implementing
 Not Exhibiting

 1.1 Using knowledge of students to engage them in
learning
 1.2 Connecting learning to students’ prior
knowledge, backgrounds, life experiences, and
interests
 1.3 Connecting subject matter to meaningful, reallife contexts
 1.4 Using a variety of instructional strategies,
resources, and technologies to meet students’ diverse
learning needs
 1.5 Promoting critical thinking through inquiry,
problem solving, and reflection
 1.6 Monitoring student learning and adjusting
instruction while teaching
Observation Comments: Great use of technology!
Standard 2: Creating and Maintaining Effective
Environments for Student Learning
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 2.1 Promoting social development and
responsibility within a caring community where each
student is treated fairly and respectfully
 2.2 Creating physical or virtual learning
environments that promote student learning, reflect

JA 61
diversity, and encourage constructive and productive
interactions among students
 2.3 Establishing and maintaining learning
environments that are physically, intellectually, and
emotionally safe
 2.4 Creating a rigorous learning environment with
high expectations and appropriate support for all
students
 2.5 Developing, communicating, and maintaining
high standards for individual and group behavior
 2.6 Employing classroom routines, procedures,
norms, and supports for positive behavior to ensure a
climate in which all students can learn
[ER 243]
 2.7 Using instructional time to optimize learning
Observation Comments: _____________
Standard 3: Understanding and Organizing
Subject Matter for Student Learning
 Innovating 3.1, 3.4, 3.5
 Implementing
 Emerging 3.6
 Not Exhibiting
 3.1 Demonstrating knowledge of subject matter,
academic content standards, and curriculum
frameworks
 3.2 Applying knowledge of student development
and proficiencies to ensure student understanding of
subject matter
 3.3 Organizing curriculum to facilitate student
understanding of the subject matter
 3.4 Utilizing instructional strategies that are
appropriate to the subject matter

JA 62
 3.5 Using and adapting resources, technologies,
and standards-aligned instructional materials,
including adopted materials, to make subject matter
accessible to all students
 3.6 Addressing the needs of English learners and
students with special needs to provide equitable
access to the content
Observation Comments: Support for students w/
STEP/MAPS?
Standard 4: Planning Instruction and Designing
Learning Experiences for All Students
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 4.1 Using knowledge of students' academic
readiness, language proficiency, cultural background,
and individual development to plan instruction
 4.2 Establishing and articulating goals for student
learning
 4.3 Developing and sequencing long-term and
short-term instructional plans to support student
learning
 4.4 Planning instruction that incorporates
appropriate strategies to meet the learning needs of
all students
 4.5 Adapting instructional plans and curricular
materials to meet the assessed learning needs of all
students
Observation Comments: _____________
Standard 5: Assessing Students for Learning
N/A [handwritten comment]
 Innovating
 Implementing
 Emerging
 Not Exhibiting

JA 63
 5.1 Applying knowledge of the purposes,
characteristics, and uses of different types of
assessments
 5.2 Collecting and analyzing assessment data from
a variety of sources to inform instruction
 5.3 Reviewing data, both individually and with
colleagues, to monitor student learning
 5.4 Using assessment data to establish learning
goals and to plan, differentiate, and modify
instruction
 5.5 Involving all students in self-assessment, goal
setting, and monitoring progress
 5.6 Using available technologies to assist in
assessment, analysis, and communication of student
learning
 5.7 Using assessment information to share timely
and comprehensible feedback with students and their
families
Observation Comments: Mrs. Morrissey-Berru
designed a social studies lesson on the Mayflower
Compact with a “close” reading activity and worksheet
with text-dependent questions.
Commendations: Mrs. Morrissey-Berru did an
excellent job incorporating technology into her lesson.
She was well-prepared with all materials and
knowledgeable regarding the subject.
Recommendations: Differentiate assignments and
assessments?
[ER 244]
I submit this report in accordance with the schedule
and procedures established by the Department of
Catholic Schools as described in the Administrative
Handbook.

JA 64
Principal Signatures: /s/ April Beuder
Date: 11/6/14
I have read this report and discussed it with the
principal. My signature does not necessarily imply
agreement this observation report. I understand that
I am free to attach to this observation report any
written reactions I may have within one week of
today's date.
Teacher Signature: /s/ Deirdre Morrissey-Berru
Date: November
**This observation form is used in conjunction with
the California Standards for the Teaching Profession

JA 65
[ER 250]
JML LAW
A Professional Law Corporation
21052 Oxnard Street
Woodland Hills, California 91367
Tel: (818) 610-8800
Fax: (818) 610-3030
JOSEPH M. LOVRETOVICH
State Bar No. 73403
JARED W. BEILKE
State Bar No. 195698
CATHRYN G. FUND
State Bar No. 293766
Attorneys for Plaintiff
Agnes Deirdre Morrissey-Berru
UNITED STATES DISTRICT COURT
FOR THE COUNTY OF CENTRAL DISTRICT OF
CALIFORNIA
AGNES DEIRDRE
MORRISSEY-BERRU,
an individual,
Plaintiff,
vs.

Case No.: 2:16-cv-09353SVW-AFM
(Assigned for all purposes
to Hon. Stephen Wilson)
DECLARATION OF
SILVIA BOSCH

OUR LADY OF
GUADALUPE
Complaint Filed:
CATHOLIC SCHOOL, December 12, 2016
a California non-profit
corporation; and DOES
1-50, inclusive,
Defendants.

JA 66
[ER 251]
DECLARATION OF SILVIA BOSCH
I, Silvia Bosch, do hereby declare that if called upon
as a witness, I could and would testify truthfully to the
following matters of which I have personal knowledge.
1. I am an individual and resident of Hawthorne,
California.
2. I was employed by Our Lady of Guadalupe
Catholic School from approximately 2009 to 2014 as
Director of the After School Program.
3. While Director of the After School Program, I
struggled managing an employee named Lana, in her
60’s, that I felt was aggressive, confrontational, and
not a good fit for the school.
4. As a result, I met with Principal April Beuder,
in her office, to inform Principal Beuder of my
intentions to terminate Lana’s employment.
5. During the meeting in her office, Principal
Beuder told me that I could not just get rid of Lana
and that simply terminating her employment was “a
lawsuit in the making.”
6. Principal Beuder then stated, “Let me tell you
how you get rid of older people. First, you need to
reduce their hours.” She explained that I should
reduce Lana’s hours by a couple of hours and duties
each time that I made the schedule. She then told me
employees “become so miserable that eventually they
leave.”
7. Throughout my employment, I heard Principal
Beuder make several underhanded comments about
Agnes Deirdre Morrissey-Berru. Principal Beuder

JA 67
would also roll her eyes when Mrs. Morrissey-Berru’s
name was brought up.
8. Throughout my employment, several parents
approached me and stated “I don’t think Principal
Beuder likes Ms. Morrissey-Berru.”
[ER 252]
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.
Executed this 6 day of June, 2017, in Hawthorne,
California.
/s/ Silvia Bosch
Silvia Bosch

JA 68
[ER 254]
JML LAW
A Professional Law Corporation
21052 Oxnard Street
Woodland Hills, California 91367
Tel: (818) 610-8800
Fax: (818) 610-3030
JOSEPH M. LOVRETOVICH
State Bar No. 73403
JARED W. BEILKE
State Bar No. 195698
CATHRYN G. FUND
State Bar No. 293766
Attorneys for Plaintiff
Agnes Deirdre Morrissey-Berru
UNITED STATES DISTRICT COURT
FOR THE COUNTY OF CENTRAL DISTRICT OF
CALIFORNIA
AGNES DEIRDRE
MORRISSEY-BERRU,
an individual,
Plaintiff,
vs.
OUR LADY OF
GUADALUPE
CATHOLIC SCHOOL,
a California non-profit
corporation; and DOES
1-50, inclusive,
Defendants.

Case No.: 2:16-cv-09353SVW-AFM
(Assigned for all purposes
to Hon. Stephen Wilson)
DECLARATION OF
BEATRIZ BOTHA
Complaint Filed:
December 12, 2016
Trial Date:
October 10, 2017

JA 69
[ER 255]
DECLARATION OF BEATRIZ BOTHA
I, Beatriz Botha, do hereby declare that if called
upon as a witness, I could and would testify truthfully
to the following matters of which I have personal
knowledge.
1. I am an individual and resident of Redondo
Beach, California. I am in the process of moving to
New Harmony, Utah.
2. My children attended Our Lady of Guadalupe
Catholic School from kindergarten to 6th grade.
3. During the spring of 2014, Jimi Hazen, the
music teacher at Our Lady of Guadalupe, came to my
home to provide guitar lessons to one of my sons. Mr.
Hazen and I would often speak after the guitar
lessons.
4. During our conversations, Mr. Hazen informed
me that he was in the process of obtaining his Master’s
degree. He also informed me on two separate occasions
that Principal April Beuder offered to have him teach
English for 5th grade the following school year and that
he was very excited about the opportunity.
5. After my conversation with Mr. Hazen, I
reached out to Mrs. Morrissey-Berru about her future
with Our Lady of Guadalupe. Mrs. Morrissey-Berru
was shocked when I told her what I learned from Mr.
Hazen.
6. April Beuder, Principal at Our Lady of
Guadalupe, is notorious for retaliating against parents
of students and employees.

JA 70
I declare under penalty of perjury under the laws
of the State of California that the foregoing is true and
correct.
Executed this 20 day of August, 2017, in Redondo
Beach, California.
/s/ Beatriz Botha
Beatriz Botha

JA 71
Excerpts from Transcript of Deposition of
Agnes Deirdre Morrissey-Berru
[ER 263]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIDRE
MORRISSEY-BERRU, AN
INDIVIDUAL,
PLAINTIFF,
VS.
OUR LADY OF
GUADALUPE SCHOOL, A
CALIFORNIA NONPROFIT CORPORATION;
AND DOES 1-50,
INCLUSIVE,
DEFENDANTS.

CASE NO. 2:16-cv09353-SVW-AFM

VIDEOTAPED DEPOSITION OF
AGNES DEIRDRE MORRISSEY-BERRU,
WEDNESDAY, APRIL 26, 2017
JOB NO. 98169
REPORTED BY: Monica T. Corley, CSR No. 8803
*

*

*

[ER 268]
A: Yes.
Q: Okay. All right. Out of the way. Have you ever sued
any other employer?
A: No.
Q: Have you ever been a party to any litigation?
A: No.

JA 72
Q: Have you ever been part of a bankruptcy?
A: No.
Q: Have you ever filed any administrative charges,
that’s a charge with the government?
A: No.
Q: Have you ever filed for Workers’ Compensation
benefits?
A: No.
Q: Have you ever filed for unemployment benefits?
A: No.
Q: What is your date of birth?
A: February 12, 1951.
Q: And where were you born?
A: Hartford, Connecticut.
Q: And I’m going to ask this, if you prefer to give it off
the record that’s fine, your Social Security number?
*

*

*

*

*

*

[ER 269]
A: No.
Q: How about e-mails or texts with current or former
employees of Our Lady of Guadalupe?
A: To the best of my knowledge, no.
Q: How about before you filed the lawsuit, did you tell
any current or former employees of Our Lady of
Guadalupe that you intended to file a lawsuit?
A: No.

JA 73
Q: How about current or former parents of students at
Our Lady of Guadalupe?
A: To the best of my knowledge, no.
Q: I want to go through a little bit of your educational
history. Do you have a high school degree?
A: Yes.
Q: From where?
A: Mount St. Joseph Academy in West Hartford,
Connecticut.
Q: How about college?
A: Cardinal Cushing College in Boston and Emmanuel
College in Boston, Massachusetts.
Q: And what degree did you come out with?
A: I came out with a Bachelor of Arts in [ER 270]
English language arts and a minor in secondary
education.
Q: And what year was that?
A: 1973.
Q: And did you have any further education?
A: I had a California credential education, which was
about a year and a half, at Chapman University in
Manhattan Beach, California.
Q: And the date of that?
A: Approximately 2006. Finished in 2007.
Q: Any—
A: Approximately.

JA 74
Q: Sorry. Any other licenses, certifications, special
training?
A: CPR training for the school.
Q: Anything else?
A: Not to my knowledge.
Q: All right. And just in brief, what was the last job
that you had before you began at Our Lady of
Guadalupe?
A: I worked for the Los Angeles Times for 20 years.
Q: And your role?
A: I was a copywriter and advertising salesperson.
[ER 271]
Q: Okay.
A: For major accounts.
Q: Sorry, I keep doing that. And then what year did
you start at Our Lady of Guadalupe?
A: I started subbing in 1998 sporadically and in 1999
was offered a maternity leave position for
approximately eight weeks.
Q: You said that was in ‘99?
A: Yes.
Q: All right. And then what came next?
A: In the fall of 1999 I was offered a 6th grade position.
Q: Full time?
A: Yes.
Q: And I know we’re going way back here, but what
did that position entail? What subjects did you teach?

JA 75
A: I was a 6th grade teacher, self-contained. I taught
reading, writing, grammar, vocabulary, science, social
studies, religion.
Q: And how long did you hold that role?
A: Approximately 10 years.
Q: Okay. And then what was your next role?
A: My next role, I was the 5th grade teacher.
[ER 272]
Q: So are we looking at around 2009 here?
A: Approximately.
Q: Okay. And what did that role entail?
A: The 5th grade role entailed teaching math, science,
social studies, reading, writing, grammar, vocabulary,
and religion.
Q: I’m sorry if you already said this: When you were
teaching the 6th grade role, were you teaching religion
as well?
A: Yes.
Q: So your entire time at Our Lady of Guadalupe, from
start to finish, you taught religion?
A: Yes.
Q: Okay. And so you held this 5th grade teacher role
from 2009 until what date?
A: 2015, at a part-time capacity for that last year.
Q: Okay. So I’m going to mark as Exhibit 2 a document
entitled
“Teacher
Employment
AgreementElementary,” academic year 2014 to 2015, and this
document is Bates stamped OLG 1 through 6.

JA 76
(Whereupon, Deposition Exhibit 2 was marked for
identification by the Court Reporter.)
*

*

*

[ER 275]
Q: And did you undergo any religious training in order
to teach religion?
A: Yes.
Q: Can you describe that to me.
A: It was the history of the Catholic Church.
Q: And where did you learn about this?
A: It was at St. Catherine Laboure Church—
Q: So you—
A: —in Torrance.
Q: Sorry. So you had to like go to a special separate
class training on the history of the Catholic Church?
A: Yes.
Q: And how many courses did you take?
A: It was one course.
Q: And when did you take it?
A: I took it approximately in the year 2012.
Q: Any other years?
A: I’m not sure.
Q: Okay. So I’m going to mark as Exhibit 4 a document
Bates stamped OLG 117 to 122.
(Whereupon, Deposition Exhibit 4 was marked for
identification by the Court Reporter.)

JA 77
[ER 276]
BY MS. KANTOR:
Q: Please take a look at this, and let me know if you
recognize these documents.
A: Yes.
Q: Okay. Let’s start with the first page Bates stamped
OLG 117. What is this document?
A: This certified that I took the course.
Q: And is this the course you were just telling me
about?
A: Yes.
Q: Sorry, like—excuse my lack of knowledge about
this, but what is—what does a Catechist Certification
mean?
A: Catechist? It means that I am knowledgeable in the
Catholic religion.
Q: All right. And then if you look at the third page, it’s
Bates stamped OLG 119, what is this document?
A: This document is the VIRTUS training for
Abuse—
Q: Okay.
A: —of children.
Q: And then if you look at the next page Bates stamped
OLG 120, what is this document?
A: This is the same course at a different
*
[ER 277]

*

*

JA 78
Q: How about for Reconciliation?
A: Yes.
Q: Stations of the cross?
A: Yes.
Q: Lenten services?
A: Yes.
Q: Am I forgetting any?
A: Christmas maybe.
Q: That’s a big one. Okay. Did you ever personally lead
school-wide religious service?
A: Not that I recall.
Q: When you were responsible for mass or your class
was, did you have any input into selecting the hymns?
A: No.
Q: Did you ever personally deliver a message during
the service?
A: Not that I recall.
Q: Did your students?
A: Not that I recall.
Q: Did you have to prepare your students to altar serve
during weekly mass?
A: No.
Q: How about to read during weekly mass?
[ER 278]
A: Yes.
Q: And also for the school mass?

JA 79
A: Yes.
Q: Did you lead your students in any devotional
exercises?
A: Not that I can recall.
Q: Were you expected to provide students with an
opportunity to prayerfully reflect on their faith and
spiritual growth?
MS. FUND: I’m just going to object to the extent it’s
vague and ambiguous.
THE WITNESS: Not that I recall.
BY MS. KANTOR:
Q: So devotional exercises weren’t part of your
teaching?
A: I don’t understand what that means.
Q: Okay. That’s fine. Did you as a religion teacher, did
you conduct daily religion—religion instruction?
A: Yes.
Q: All right. And what was the textbook you were
responsible for using?
A: I believe it was “Blest Are We.”
Q: Okay. So I’m going to mark as Exhibits 5 a
document Bates stamped OLG 577 through 596.
[ER 279]
(Whereupon, Deposition Exhibit 5 was marked for
identification by the Court Reporter.)
BY MS. KANTOR:

JA 80
Q: And, Ms. Morrissey-Berru, I would just ask you to
take a look at this and tell me if it looks familiar to
you.
A: Yes.
Q: Can you tell me what this—I mean, I know it’s a
xerox, but can you tell me what this is?
A: This is our religion book, “Blest Are We.”
Q: So the textbook you were responsible for using; is
that correct?
A: Yes.
Q: Okay. And I’ll represent that in this exhibit it’s the
table of contents of the book. And how did you use this
textbook in your religion course?
A: We would read the book every day.
Q: And so what kind of lessons were you teaching?
Let’s just focus on your last year at Our Lady of
Guadalupe in your religion class. What were some of
the lessons you were responsible for teaching
students?
*

*

*

[ER 282]
A. That I was losing my job and getting moved on.
Q: Uh-huh. And with regard to this you being old, what
was supposedly said or do you not know what was
said?
A: I do not know what was said.
Q: Okay. And then they said something about you
losing your job; is that right?
A: Yes.

JA 81
Q: Or we don’t know if that’s right—
A: Something to that effect.
Q: -- that’s what Ms. Bosch told you was supposedly
said. And being given to a 30-year-old music teacher.
Was your job ever given to a 30-year-old musical—
music teacher?
A: Originally the music teacher would be taking my
job of reading and writing, but it didn’t happen.
Another teacher had to be hired to teach reading and
writing.
Q: Who told you that your job would be given to that
teacher?
A: I received a call in March from a parent who said
the music teacher told her I was being moved along
and losing my job.
*

*

*

[ER 290]
A: Yes.
Q: All right. And now I’d like to mark as Exhibit 12 a
document I’m going to Bates stamp—sorry, a
document Bates stamped OLG 8 through 12.
MS. FUND: I was wondering what kind of device you
had over there that Bates stamped.
MS. KANTOR: What do you mean?
MS. FUND: You said you were—never mind. You said
“I’m going to Bates stamp this.”
MS. KANTOR: I misspoke.
MS. FUND: Okay.

JA 82
MS. KANTOR: Marking as Exhibit 12 this document
Bates stamped, not doing my own Bates stamping—
MS. FUND: I was impressed.
(Whereupon, Deposition Exhibit 12 was marked for
identification by the Court Reporter.)
BY MS. KANTOR:
Q: All right. Please just take a look at it and tell me if
you recognize it.
A: Yes.
Q: What is this document?
A: Teacher Employment Agreement.
Q: Is this your agreement for term date—
[ER 291]
A: Yes.
Q: —2013 to 2014?
A: Yes.
Q: July 2013 to June 2014?
A: Yes.
Q: Sorry. Okay. And if you look at the last page, Bates
stamped OLG 12—
A: Uh-huh.
Q: —is that your signature?
A: Yes.
Q: On June 4, 2013?
A: Yes.

JA 83
Q: All right. And then go to the page before, Bates
stamped OLG 11. At the bottom, section 18 where it
talks about “Education and Professional Growth
Requirements,” it says under “Other Requirements,”
“Fully implement Readers/Writers Workshop.”
A: Uh-huh.
Q: Mrs. Morrissey-Berru, is it your understanding that
it was part of your contract and employment
agreement for the year 2013-2014 that you were to
implement the Readers and Writers Workshop?
[ER 292]
A: Yes, within three years.
Q: Can you go back to the previous exhibit, Exhibit 11,
second page at the bottom where it said a goal for
2013-14 is full implementation of Readers/Writers
Workshop?
A: Yes.
Q: Did you not understand that it was your goal to
implement it in 2013-14?
A: Well, the program hadn’t ended yet. It was a threeyear program.
Q: Okay. So it was—
A: It was only the second year.
Q: You did not think you were responsible for
implementing it; is that what you’re saying?
MS. FUND: It misstates her testimony.
BY MS. KANTOR:
Q: Mrs. Morrissey-Berru -A: Yes.

JA 84
Q: —did you believe that you were responsible for fully
implementing Readers and Writers Workshop in 201314 calendar year?
A: Yes.
Q: You—you thought you were responsible for full
implementation?
A: Yes, but the program hadn’t finished yet.
*

*

*

[ER 295]
Q: Did she seem upset about it?
A: I’m not sure.
Q: And how many weeks in advance of this evaluation
had you been provided with notice of the date it would
occur on?
A: I think a month.
Q: Possibly more?
A: It’s possible. I’m not sure.
Q: Okay. And then at some point after this
conversation, did you have another conversation with
Mrs. Beuder about your not implementing Readers
and Writers Workshop?
A: I’m not sure.
Q: In May of 2014 did you—or April or May, towards
the end of the school year 2014, did you meet with Mrs.
Beuder about what would be happening the following
year?
A: Yes.
Q: Do you remember when this conversation was?

JA 85
A: Mid-May 2014.
Q: Okay. And what happened in this conversation?
A: Mrs. Beuder asked if I wanted to retire, and I said
no.
[ER 296]
Q: What else happened in this conversation?
A: She said I didn’t do it like everybody else and that
she—
MS. FUND: Didn’t do what?
THE WITNESS: Do reading and writing, I’m
assuming, and that she didn’t have a full-time position
for me for next year.
BY MS. KANTOR:
Q: Did Mrs. Beuder say that you were not
implementing Readers and Writers Workshop?
A: She said—I’m not sure. I can’t remember.
Q: Did she say anything about your reading and
writing instruction?
A: She said I didn’t do it right.
Q: Your reading and writing instruction?
A: Yes.
Q: Anything else about your reading and writing
instruction?
A: Not that I recall.
Q: What did you say in response to that?
A: I said “Well, I’ll accept the part-time job.”

JA 86
Q: What did you say in response to what Mrs. Beuder
said about your failing to implement [ER 297]
reading—reading and—I don’t want to put words in
your mouth.
A: Uh-huh.
Q: What did you say in response to her comment about
your reading and writing instruction?
A: Well, I said I thought I was implementing it.
Q: And what did she say in response to that?
A: She said I didn’t do it like the others.
Q: And did you say anything in response to that?
A: I knew the other person had my job anyway, so I
just accepted it.
Q: What other person?
A: Mr. Hazen.
Q: At the time you thought it -A: Yes. At the time he did, until the parents
complained.
Q: Mrs. Morrissey-Berru -A: Yes.
Q: —I don’t know why I keep wanting to argue with
you about this, but I believe—I’m going to ask the
question and just going to say for the record I believe
it’s been established that nobody from the
administration and leadership of [ER 298] the school
ever said that Mr. Hazen would have this role and in
fact he never did. I’m going to move on.
A: Okay. All right.

JA 87
Q: That was—that was argumentative by me.
Sorry. Sorry. Okay. So did you—before Mrs. Beuder
offered you a part-time position, did you advocate for
your job in any way?
MS. FUND: I’m just going to object to the extent it’s
vague and ambiguous.
BY MS. KANTOR:
Q: If you understand my question. I can ask you a
better one.
A: She didn’t offer me anything else but part-time.
Q: Did you say anything to Mrs. Beuder to the effect
that you just wanted one more year?
A: No.
Q: At any point did you ever tell Mrs. Beuder that you
just wanted one more year?
A: I never want to retire. I told her that.
Q: Did you tell anybody at the school that you wanted
one more year?
A: Never.
[ER 299]
Q: And you understand you’re under oath?
A: Yes.
Q: So you never said anything about wanting one more
year?
MS. FUND: Asked and answered. You can answer it
again.
THE WITNESS: No.

JA 88
BY MS. KANTOR:
Q: Okay. And was it explained to you why you would
be getting a part-time position?
A: Yes.
Q: What was explained?
A: Because she said I didn’t do Readers and Writers
like the others.
Q: So your part-time position would not include
reading and writing?
A: Yes.
Q: Okay. And so what courses were you to teach in the
part-time position?
A: Religion to 5th grade, social studies to 5th grade,
social studies to 6th grade, social studies to 7th grade.
Q: When Mrs. Beuder offered you the part-time
position, did you express that you were grateful for the
position?
[ER 300]
A: Yes, because I thought I wouldn’t have a job.
Q: And why did you think that?
A: Because I thought I was going to be terminated.
Q: Why did you think that?
A: Because the parent called up—called me up and
said that somebody else got my job.
Q: Any other reason?
A: That I was being moved along. I thought I was fired.

JA 89
Q: Because of that rumor that had been reported to
you?
A: Yes.
Q: Before you had this conversation with Mrs. Beuder
in mid-May of 2014, did you apply for any other jobs?
A: Yes.
Q: Where did you apply?
A: I applied to visit—oh, I’m sorry.
MS. FUND: No, you’re fine.
THE WITNESS: Okay.
MS. FUND: Sorry, can you just repeat the time period
you’re asking for, that you asked.
(Record read Lines 15-17.)
*

*

*

[ER 301]
position teaching the courses you just described, had
anybody else held that position?
A: No.
Q: Was it an entirely new position?
A: Yes.
Q: Do you understand that the position was created
just for you?
A: Apparently.
Q: Why do you say that?
A: Because it had never been before.
Q: Okay. And then who is your understanding taught
5th grade reading and writing the next year?

JA 90
A: Mrs. Beuder hired Mrs. Ruma.
Q: All right. And her full name?
A: Mrs. Andrea Ruma-Harrington.
Q: All right. And do you know how old Mrs. Harrington
was at the time?
A: Thirty-nine years old.
Q: At the time she was hired?
A: Yes.
Q: And how do you know that?
A: Because I asked her.
Q: And do you know what her experience was before
coming to OLG?
A: She was a teacher.

JA 91
[ER 342]
TEACHER EMPLOYMENT AGREEMENT –
ELEMENTARY
Exempt
Department of Catholic Schools
Archdiocese of Los Angeles
Name of School: Our Lady of Guadalupe School
Name of Teacher: Deirdre Morrissey-Berru
Start Date: July 1, 2013 End Date: June 30, 2014
1. Term. The School (“School”) and you (the “Teacher”)
make this Employment Agreement (“Agreement”),
effective on the date below, for the period shown above
(the “Term”), for you to serve as a member of our
faculty.
2. Philosophy. The mission of the School is to develop
and promote a Catholic School Faith Community
within the philosophy of the Catholic education as
implemented at the School, and the doctrines, laws
and norms of the Roman Catholic Church. All your
duties and responsibilities as a Teacher shall be
performed within this overriding commitment. If you
are Roman Catholic you must be in good standing with
the Church.
3. Duties. Your position will be that of a Teacher. You
shall use your best professional efforts and skills to
perform your duties in a diligent, energetic,
competent, and ethical manner, consistent with the
School’s established policies, directives and expected
practices. You acknowledge that the School operates
within the philosophy of Catholic education and
retains the right to employ individuals who

JA 92
demonstrate an ability to teach in accordance with this
philosophy. You understand and accept that the
values of Christian charity, temperance and tolerance
apply to your interactions with your supervisors,
colleagues, students, parents, staff and all others with
whom you come in contact at or on behalf of the School.
In both your professional and private life you are
expected to model and promote behavior in conformity
with the teaching of the Roman Catholic Church in
matters of faith and morals. Your duties shall include
careful preparation and planning for each class
consistent with School and departmental curriculum;
diligent review and evaluation of student work and
related communication to students and parents; and,
as
needed,
conferring
with
students,
the
administration, and parents regarding each student’s
progress and development. You also shall attend
faculty/staff meetings and conferences, including
those prior to and following the School’s regular
academic year, participate in School activities
including School liturgical activities, as requested, and
complete other duties as assigned. You agree to
maintain the levels of competency in subject matter,
teaching methods, classroom management, and
student supervision required by the School whether on
your own initiative or at the direction of the School.
Your duties and job assignment may be revised during
the Term to meet the School’s needs. In the event the
School’s operations are extended by reason of fire,
disaster, act of God, act of public authority or any other
necessity or emergency cause, your services may be
suspended for the time period and rescheduled as
needed to complete the full School year.
4. Policies. You shall be familiar with, and comply
with the School’s personnel policies and procedures as

JA 93
they may be adopted or amended from time-to-time,
including policies in the faculty handbook. You should
refer to such documents for information relating to
your employment, duties, and benefits. You shall be
familiar with, abide by, and assist and cooperate with
School administration in enforcing the School’s
policies for students and families whether outlined in
our handbook(s), our School [ER 343] policies, or other
directives and expected practices (together “Policies”).
You acknowledge that a copy of the faculty handbook
has been made available to you. You understand and
acknowledge that the policies do not constitute a
contractual agreement with you.
5. Introductory Period. The first six (6) months of
your employment as a new teacher at this School are
considered your Introductory Period. You may be
terminated at any point, with or without notice, with
or without reason, during the Introductory Period. The
Principal shall complete a performance appraisal at
the end of your Introductory Period. The Principal
shall complete a performance appraisal at the end of
your Introductory Period. Upon satisfactory
completion of the Introductory Period, your
employment will be continued through the Term of
this Agreement except as noted under “Termination.”
6. Termination. Your employment, and this
Agreement, may be terminated during the Term
without payment of salary or benefits beyond such
date of termination, for any of the following reasons:
I. The School may terminate for “cause,”
without any prior notice. Such “cause” shall be
determined by the School within its reasonable
judgment and shall include but not be limited
to:

JA 94
a) Failure to meet any of your duties as
described in Paragraphs 3 and 4 above.
b) Inappropriate physical or social contact
with students during school or otherwise.
c) Unprofessional or unethical conduct,
insubordination, unauthorized disclosure
of confidential information, or habitual or
unreasonable tardiness or absence from
duties.
d) Any criminal, immoral or unethical
conduct that brings discredit upon the
School or the Roman Catholic Church.
e) Unauthorized possession, sale, or working
under the influence of controlled
substances (except prescription medication
taken as prescribed), intoxicants, or
alcohol.
f) Threatening or causing bodily harm to
others or other coercive and or
intimidating acts, or any verbal or physical
harassment.
g) Having a diploma, credential, permit,
license or certificate denied, revoked or
suspended.
h) Falsification of documents, false or
misleading information on an application,
resume, personnel record, professional or
character reference, academic transcript,
degree, or credential.
i) Any other breach of the terms of this
Agreement.

JA 95
II. Either you or the School may terminate this
Agreement without cause, for any reason within
the sole discretion of the terminating party,
upon 30 calendar days’ prior written notice to
the other party in a manner that is consistent
with applicable law and on a time frame that is
mutually agreeable to you and the Principal.
However, you may not terminate employment
under this Agreement if the termination is
effective during the 30 days immediately prior
to the beginning of the school year except by
mutual agreement with the Principal. You
acknowledge that a breach by you of this
provision is a grave ethical violation, may harm
the educational program for the students and
may cause expenses and damages to the School.
III. The School may terminate your employment
if you are unable to perform the essential
functions of your position and reasonable
accommodation is not available or required
under applicable laws.
The School’s failure to invoke its right of termination
on one occasion for the occurrence of a matter
constituting a basis for discharge shall not affect the
right of the School to invoke discharge when the same
or a different basis for termination arises at a later
date.
[ER 344]
7. Renewal. Future employment will be determined
on a year-to-year basis. You agree to give written
notice to the School, on or before April 1, 2014, stating
whether or not you wish to renew the Agreement. The
School will give you written notice, on or before May

JA 96
15, 2014, stating whether or not it intends to renew
the Agreement for the following year or enter into any
other type of employment relationship. In the absence
of a notice by either party, this Agreement will lapse
under its own terms. The Principal alone, with the
approval of the Pastor, has the final and sole authority
with respect to offering contracts. This Agreement is
contingent upon sufficient School enrollment and the
School’s financial condition. If the enrollment or the
School’s financial condition does not justify the
staffing, the Principal has discretionary power to
make decisions regarding personnel reduction
including, but not limited to, modification or
cancellation of this Agreement. If the School closes for
any reason, this Agreement will be considered
terminated on the date of the closure. If this
Agreement is cancelled due to lack of enrollment or the
School’s financial condition or is terminated because of
School closure, you will be paid through the date of
cancellation or closure; no further payments will be
due to you. You understand that tenure is not granted
by Archdiocesan Schools and upon expiration or
termination of the Agreement for any reason you shall
have no right to employment or preferential treatment
regarding employment at any other Archdiocesan
School. There is no implied duty by you or the School
to renew this Agreement, and no cause whatsoever is
required by either party for non-renewal. Any other
arrangement with respect to renewal, extension or
duration of employment is valid only if in writing,
executed by you and the Principal, with the approval
of the Pastor.
8. Severability. If, for any reason, any one or more of
the provisions of this Agreement shall be held or
deemed to be legally invalid or unenforceable, that

JA 97
shall not have any effect on any of the other provisions
of this Agreement, all of which shall remain in full
force and effect.
9. Entire Agreement. This Agreement contains the
complete and entire agreement between you and the
School, and it supersedes all prior offers, agreements,
commitments, understandings, whether oral or
written. No changes to this Agreement may be made
except by a document signed by you and the Principal,
with approval of the Pastor.
10. Applicable Law. This Agreement is entered into
under, and governed by, the laws of the State of
California.
11. Dispute Resolution and Grievances. You and
the School agree to attempt to resolve any disputes in
good faith. Any unresolved dispute between you and
the School arising out of or in any way related to your
employment or termination, shall be subject to the
Grievance
Procedures
promulgated
by
the
Archdiocesan Department of Catholic Schools and no
legal actions may be taken until all procedures have
bene fully discharged. This clause is intended to
provide a speedy, economical and exclusive forum for
resolving claims; its existence shall not imply any
limitations upon the School’s right to manage its
affairs or terminate any employment.
12. Condition Precedent. You understand and
agree that condition precedents of this Agreement are
the receipt of the Criminal Record Summary report
from the California Department of Justice and the
Federal Bureau of Investigation, the completion of the
I-9 Form from the Immigration and Naturalization

JA 98
Service, and the completion of the other relevant
health and document requirements of the School.
[ER 345]
13. School Day and Work Schedule
Full time Teacher
As a full time Teacher, you understand that a regular
class day at the School requires approximately 8 hours
of work. You will also devote additional time to other
assigned school responsibilities and in preparation
and assessment activities at hours not during the
regular class day. The School’s regular class day is
from 7:30 a.m. to 3:30 p.m.
14. Base Compensation.
Base Salary: $ 46, 558
15. Additional Compensation For Designated
Responsibility (If Any):
Note: Calculations and Additional Compensation for
designated responsibility are based on anticipated
time commitment and skills.
Responsibility

Additional Compensation

______________________________________ $_________
______________________________________ $_________
______________________________________ $_________
Total Additional Compensation: $_________
16. Payment Schedule
Compensation for all teachers will be distributed on a
semi-monthly bi-weekly schedule
Date of first payday: 8/30/13

JA 99
Date of last payday: 6/30/14
17. Available Benefits.
See Archdiocese of Los Angeles Lay
Employees Benefit Guide
Full-time Faculty sick days: 10 days per
school year.
18. Education
Requirements:

And

Professional

Growth

In accordance with the regulations for salary
placement and professional growth requirements, you
agree that you will complete the following
requirements to be eligible to be offered an
employment agreement for the next school year.
 Enroll in California Teaching Credential program.
 Complete at least ____ units toward a California
Teaching Credential.
 California Teaching Credential program must be
completed by July 1, 20___ for an Elementary School
Faculty Employment Agreement to be offered for the
20__ - 20__ academic year.

Other
Requirements:
Readers/Writers Workshop

Fully

implement

[ER 346]
By: /s/ April Beuder
(Principal’s Signature)
Date: 6/4/13
I accept a position as Teacher at O.L.G. School on each
and all of the terms and conditions set forth in the
above Agreement.

JA 100
By: /s/ A. Deirdre Morrissey-Berru
(Teacher’s Signature)
Date: 6/4/13
Approval by Pastor required (this Agreement is not
binding until executed by Pastor)
Pastor’s Signature: _______________
Date: ____________

JA 101
[ER 353]
Agnes Deirdre Morrissey-Berru
1602 Spreckels Lane,
Redondo Beach, CA 90278
April 7, 2016
U.S. Equal Employment Opportunity Commission
Los Angeles District Office
255 E. Temple Street, 4th Floor
Los Angeles, CA 90012
Attn: Ms. Ramos
Re: Age Discrimination Demotion/Firing
Dear Ms. Ramos,
I am currently 65 years old, and contrary to Ms.
Beuder’s claim of receiving employment benefits,
Catholic schools do not pay into employment
insurance and I have never been eligible to collect, as
she indicated in her letter to you. I was employed by
Our Lady of Guadalupe School for 16 years as a stellar
employee. I had no apparent troubles until Mrs.
Beuder was named as the new principal of my school,
at which time I was 61 years old. I questioned why she
fired me at that time and made me re-apply for the job
that I had for 13 years. I re-applied for my same job,
and was rehired, most likely because I possessed a
single-subject California credential to teach K-12
grades.
The implementation of the new reading/writing
program was designed as a continuing learning
process for teachers. All English Language Arts
teachers were all learning the new teaching format at
the same time. The year of the writing portion was not
even concluded when the principal reprimanded me

JA 102
because I talked for 30 minutes/student writing 10
minutes. Ms. Beuder told me I was supposed to talk
for 10 minutes/students writing 30 minutes. When I
asked Ms. Beuder to re-do the lesson to talk for 10
minutes/student writing 30 minutes, Ms. Beuder
REFUSED and told me she was TOO BUSY. Since
when do teachers get reprimanded because they talk
for 30 minutes to students to explain a lesson, get
demoted, and fired? At that time Ms. Beuder had
already told the part time music teacher, Mr. Jimi
Hazen, approx. 30 years old, unbeknownst to me, that
he could have my job next year because Principal
Beuder was “moving me along”. Mr. Hazen told
Beuder he wanted to apply to Loyola to get a teaching
credential, but because he was only part time, the
school would not loan him the money. At that time, I
believe Beuder hatched a plan to demote me, to make
room for Mr. Hazen to become full time. Mr. Hazen,
apparently excited about his new prospects of
[ER 354] getting a teaching credential, inexplicably
told parent Beatriz Botha about the principal’s new
plan in March to “move me along” so he could become
full time. Mr. Hazen should not have told a parent that
I was getting moved along, as told by the principal, to
a parent. The parent, Beatiz Botha called me and told
me to sit down, that the principal was planning to
move me along and give my job to Mr. Hazen.
Concurrently in March, a fellow employee, After
School Care Director, Silvia Bosch, notified me that
she heard teachers in the teacher lounge talking about
the reading/writing program and that I was getting
“moved along.” At that point, I began to document
inconsistencies in being treated unfairly by Ms.
Beuder compared to the other, younger teachers, at
my job. Apparently everyone but me, knew I was

JA 103
getting moved along. This is perhaps why Principal
Beuder refused to let me re-do the lesson: she had
already planned to move me out and promised my
reading/writing duties as teacher to Mr. Hazen.
The 3rd grade reading/writing teacher, Mrs. Erika
Melendez (30-ish) and the 4th grade reading teacher
Ms. Amy Hendry (30-ish) were also struggling to
implement the writing program. In May, 2014, Erika
and Amy both went to complaint to Ms. Beuder, that
they could not implement the writing program because
they did not have enough training, no resources, and
no books. Mrs. Beuder accommodated Erika and Amy
by purchasing new books and resources for them for
the next school year. Erika and Amy did not get
demoted, as did I, when they told the principal the
writing program was not working out. This is unfair
treatment. Why was I demoted when we were all
having the same challenges? Several of the other
teachers at Mary Star Catholic school, with whom we
were trained at the same time, remarked that the new
writing program was so inept, that they “did not know
what they were doing, and at the end of the school year
May, 2014, the teachers were “making it up as they
went along”. Those teachers were not demoted either,
most of whom were young, except for one 5th grade
teacher, who was not demoted.
At contract signing in May, 2014, Mrs. Beuder brought
up the fact about my retiring. I told her I did not want
to retire then, maybe in the future, but certainly not
now. I never brought up the idea of retirement – she
was the one who mentioned it. Beuder told me she was
not going to re-hire me as a full time employee next
year. Asked why, Beuder complained that I did not
perform two lessons in the right format. I argued my

JA 104
viewpoint, and how hard I was working on this new
format, verified by my husband who saw me reading
1200 pages of the new program each night, to no avail.
Beuder only offered me a part time position for the
next year. Gladly I accepted the demotion because I
figured that some money coming in to the household
was better than no money coming in to the household.
I was relieved that I was not getting fired from my job.
I immediately looked for a new job.
[ER 355]
I began applying for new teaching positions in the
Southbay area, both public and Catholic schools. In
August 2014, I applied for a 5th grade teaching position
at St. James Catholic school two miles down the street.
Principal Sister Margaret set up an interview. Sister
Margaret called back and cancelled the interview. I
asked her why. Principal Sr. Margaret said that when
she asked about my abilities, that Principal Beuder
said “good things about you but this was your last year
because you were retiring”. Principal Sister Margaret
cancelled my interview because she just hired
someone else. Ms. Beuder had no business implying I
was old and retiring. I told Principal Sister Margaret
that I didn’t know it was my last year? How did she,
Sister Margaret know it was my last year of teaching,
if I didn’t (?) I never agreed with Ms. Beuder that it
was my last year. I had hoped to continue part time
unless I got a full time position. Later in August, upon
complaining to Ms. Beuder about what she said to
Principal Sister Margaret about this being my last
year, Beuder said she was furious that I would be
trying to get a full time job inasmuch as the new school
year was beginning in two weeks. I told her she
demoted me and I had every right to look for a new job.

JA 105
In late August, Mrs. Beuder hired her friend, Andrea
Ruma Harrington, to fulfill my reading/writing duties
because in-coming 5th grade parents objected at the
part time music teacher, Mr. Jimi Hazen, teaching
reading/writing skills to their children. Beuder told
the parents she would “fix it” and hired her friend. Ms.
Beuder now had three people, including myself,
assigned to the 5th grade.
At the end of school year 2015, I gave my intent to
return next year, albeit part time, and I was told by
Ms. Beuder that my job had been eliminated and I was
not welcome back. I told Ms. Beuder that I had yard
duty on the playground and excused myself. She
marched down the stairs after me and threatened me
on the playground in front of students and the 8th
grade teacher, Mr. Jack Moore. Beuder was worried
that a riot would ensue, at my being fired since I was
a favorite teacher at the school. Beuder told me if I
“couldn’t handle it, or if I told anyone that I was fired,
that she would not give me a good recommendation for
a new job elsewhere. I reminded Beuder I have never
acted unprofessional. Beuder repeated the threat
about never giving me a good job recommendation for
another job. I immediately reported her to the
downtown
Catholic
archdiocese
personnel
representative, Sister Jill. I waited for one week for
Sister Jill to respond to my being threatened by a
Catholic school principal, Beuder. Sister Jill said yes,
indeed I had “issues” and to talk to the new pastor,
Father Joe (30-ish). Father Joe said he knew about my
situation because he discussed the next school year
with Beuder during contract time. Father Joe told me
(documented) he asked Beuder if she needed any more
money for next year (?)and if she needed any more
money for raises for the teachers next year (?)”. For

JA 106
Principal Beuder to [ER 356] imply the school was
short on money contradicts the pastor asking if she
needed any more money.
I have two notebooks filled with evidence that I was
implementing the writing program. I have a copy of
the lesson in question, that supposedly I taught
“wrong.” Beuder said it was a compelling lesson, but
in the wrong format, and refused to let me re-do the
lesson in the right format. What kind of a principal
would not let her teacher re-do a lesson? I have taught
over 3200 English reading/writing lessons in my
career, and one lesson finished my career… when
other younger teachers were learning the new format
as well.
Allegations to investigate:
1) Erika Melendez, Amy Hendry, reading/writing
teachers
not
demoted/fired.
(email
documentation to self)
2) A) Witness to conversation about my demotion:
Part time music teacher, Mr. Jimi Hazen, who
told about the new arrangement to parent,
Beatiz Botha, that he was going to be getting
my job next year.
B) Witness: Faculty member Silvia Bosch, who
told me teachers in the teachers’ lounge, were
talking about getting rid of me because of the
reading/writing program, that I was being
moved along. Why is Principal Beuder talking
to other teachers about me getting moved along
because I didn’t teach writing correctly? (email
documentation to self.) This claim is
preposterous considering the fact that I was
employed for twenty years at the Los Angeles

JA 107
Times newspaper as a copy writer/ad sales
account executive.
3) Beuder thwarted me from getting a new full
time job at St. James Catholic school? (email
documentation to self)
Please advise.
Sincerely,
A. Deirdre Morrissey-Berru

JA 108
Excerpts from Transcript of Deposition of
April L. Beuder
[ER 359]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIDRE
MORRISSEY-BERRU,
an individual,
Plaintiff,
vs.
OUR LADY OF
GUADALUPE
CATHOLIC SCHOOL, a
California non-profit
corporation; and DOES
1-50, inclusive,
Defendants.

Case No. 2:16-cv-09353SVW-AFM
Volume I

VIDEOTAPED DEPOSITION OF APRIL L.
BEUDER, taken on behalf of the Plaintiff, at 21052
Oxnard
Street,
Woodland
Hills,
California,
commencing at 10:16 a.m. and ending at 5:33 p.m., on
Thursday, May 4, 2017, before Alta Ponto, Certified
Shorthand Reporter Number 11046.
*

*

*

[ER 365]
of 2014. That is my estimate. There was an overlap
between the pastors.
Q: What is your understanding—the reason for that
overlap?

JA 109
MS. KANTOR: Calls for speculation; lacks foundation;
irrelevant and not reasonably likely to lead to
admissible evidence.
THE WITNESS: I don’t know.
BY MS. FUND:
Q: When you were hired in—officially July 1st, 2012,
what position were you hired for?
A: Principal.
Q: Have you held any other position at OLG School?
A: No.
Q: Understanding that you are the principal at this
school, do you have someone that you report to that is
above you?
MS. KANTOR: Vague.
THE WITNESS: Yes.
BY MS. FUND:
Q: And who is that?
A: I am duly accountable to my pastor and to the
department of Catholic schools.
Q: And what are your—just in the most
*

*

*

[ER 366]
Guadalupe School is to provide our families with
opportunities to grow in their faith and to live their
faith through service to others.
Q.: And how does the faith formation mission—how
does that involve the teachers? In what way?

JA 110
MS. KANTOR: Vague.
THE WITNESS: Each teacher is considered a
catechist and responsible for the faith formation of the
students in their charge each day.
BY MS. FUND:
Q: Is it a requirement that a teacher be Catholic in
order to teach at the school?
A: The ideal candidate is an actively practicing
Catholic.
Q: Is it a requirement?
MS. KANTOR: Vague.
THE WITNESS: It is preferred.
BY MS. FUND:
Q: My question is whether it’s required.
MS. KANTOR: Argumentative; asked and answered.
THE WITNESS: If you—to teach religion at the school,
you need to be a Catholic.
BY MS. FUND:
Q: My question is just whether you need to be [ER
367] Catholic in order to be a teacher at the school.
MS. KANTOR: Asked and answered.
THE WITNESS: It is acceptable to hire someone who
is not a Catholic if they are actively practicing their
Christian faith, Christian versus Catholic.
BY MS. FUND:
Q: They are not required to be Catholic; is that correct?

JA 111
MS. KANTOR: Argumentative; misrepresents prior
testimony.
THE WITNESS: In order to teach religion –
BY MS. FUND:
Q: I’m really just asking a “yes” or “no.”
MS. KANTOR: You interrupted her answer, Counsel.
And if she doesn’t –
THE WITNESS: In order to be a teacher of religion
and the specific faith formation of our students, you
need to be an actively practicing Catholic and
participate in catechetical formation. An exception
could be made if a person is in the process of becoming
a Catholic or a Christian.
BY MS. FUND:
Q: Any type of Christian?
A: Christianity. Yes.
[ER 368]
Q. Any different sect of Christianity?
MS. KANTOR: Vague; calls for speculation; lacks
foundation; argumentative.
THE WITNESS: I don’t understand the question.
BY MS. FUND:
Q: What other—can you give me an example of a
Christian that is not Catholic?
MS. KANTOR: Argumentative.
MS. FUND: I couldn’t be farther from being
argumentative.
THE WITNESS: Lutheran.

JA 112
BY MS. FUND:
Q: Okay.
A: That is an example.
Q: Can you give me one more example?
A: Methodist.
Q: So a Lutheran or a Methodist teacher, if they had
the proper qualifications, could potentially be hired at
the school? They are not barred from teaching at OLG
for the sole reason that they are not Catholic; is that
correct?
MS. KANTOR: Misrepresents prior testimony.
THE WITNESS: I do feel that misrepresents what I
am trying to say.
[ER 369]
BY MS. FUND:
Q: Could a Lutheran work as a teacher at OLG School?
A: That would have to be determined on a case-by-case
basis.
Q: If you could just answer my one question, I would
be happy to move on. Is a teacher—your counsel can
make—state her objections. I haven’t gotten a clear
answer yet. That’s all I’m looking for so we can move
on to the next set of questions. Is it a requirement that
a teacher be Catholic in order to teach at OLG School?
Yes or no?
MS. KANTOR: I’m going to object. First of all, that’s
not a yes-or-no question, and the witness does not have
to answer “yes” or “no.”

JA 113
MS. FUND: Please state your objections. Coaching her
is not proper.
MS. KANTOR: I’m stating my objections.
Misrepresents prior testimony; asked and answered;
vague; argumentative. You can take as much time as
you need.
BY MS. FUND:
Q: Do you need the question read back?
[ER 370]
A: I heard several questions just now. So, yes, please,
would you read the pending question. (The previous
question was read back by the court reporter as
follows: “QUESTION: Is it a requirement that a
teacher be Catholic in order to teach at OLG School?
Yes or no?”)
THE WITNESS: Yes.
BY MS. FUND:
Q: It’s a requirement?
MS. KANTOR: Asked and answered.
THE WITNESS: Exceptions can be made, as I
previously stated.
BY MS. FUND:
Q: I just need to lay a little bit of a foundation; so my
first question is going to be a little bit overbroad. If you
don’t understand my question, please just let me
know. At the time of your hiring and you signed your
contract in July of 2012, were you provided with any
set of objectives from either the pastor or the
Department of Catholic Schools that you were to
accomplish as principal at the school?

JA 114
A: Yes.
Q: Okay. And what were those objectives?
*

*

*

[ER 371]
A: We also were opening a preschool. So I was charged
with making sure that that rollout was successful.
Q: Was that at the physical OLG School?
A: Yes.
Q: Any other objectives?
A: That’s all I recall at this time, but I had quite a few.
Q: Were these objectives that were asked of you when
you started or that you proposed to the school?
A: They were given to me by the pastor and
accreditation team via the current principal.
Q: And who was the principal at the time you were—
just before you were hired?
A: Sheryl Hunt, H-u-n-t.
Q: Are students required to be Catholic to attend the
school?
A: No.
Q: Are the majority of the students that attend the
school Catholic?
A: Yes.
Q: And presently what grades does OLG School teach?
A: Transitional kindergarten through 8th
*

*

*

JA 115
[ER 372]
BY MS. FUND:
Q: Was she—to your knowledge, was she employed at
the school prior to you starting in 2012?
A: Yes.
Q: Do you have any knowledge as to whether she had
worked at the school for over ten years prior to you
starting?
A: I don’t recall exactly. I don’t recall exactly. I would
suspect around ten years.
Q: If I showed you an employment contract for Ms.
Morrissey-Berru to begin September 1st, 1999, do you
have any reason to believe that that would not be
accurate?
MS. KANTOR: Lacks foundation; calls for speculation.
THE WITNESS: No. I would know it was accurate if I
saw it.
MS. FUND: Sure. Let’s mark this document Bates
stamped OLG 0111 to OLG 0112 as Exhibit 3.
(Plaintiff’s Exhibit 3 was marked for identification by
the court reporter and is attached hereto.)
BY MS. FUND:
Q: I want you to take a look at that document [ER 373]
that was produced by your counsel on the school’s
behalf, and let me know if you have any reason to
believe that document is not accurate.
MS. KANTOR: Counsel, do I get a copy?
MS. FUND: That’s the only one I have. You can take a
look, though.

JA 116
THE WITNESS: I don’t have any reason, no.
BY MS. FUND:
Q: What does that document represent?
MS. KANTOR: Calls for speculation; lacks foundation.
THE WITNESS: The title of this document is an
employment agreement.
BY MS. FUND:
Q: For what period of time?
A: Between 19—September 1st, 1999, and June 30th,
2000.
Q: For what employee?
A: Deirdre Morrissey.
Q: Is that with OLG School?
A: Yes, it is.
Q: Okay. Thank you. At the time you started at OLG
in July 2012, I understand that you interviewed
beforehand, but your contract was signed July 1st,
*

*

*

[ER 374]
MS. FUND: Let’s mark as Exhibit 4 the documents
that are Bates stamped OLG 0013 through OLG 0018.
(Plaintiff’s Exhibit 4 was marked for identification by
the court reporter and is attached hereto.)
BY MS. FUND:
Q: Can you let me know if you have ever seen this
document before?
A: Yes.

JA 117
Q: What is this document?
A: This is an employment agreement.
Q: Between who?
A: Between Deirdre Morrissey-Berru and Our Lady of
Guadalupe School.
Q: For what period of time?
A: July 1, 2012, through June 30th, 2013.
Q: What was your role with this contract?
MS. KANTOR: Vague.
THE WITNESS: Can you be more specific?
BY MS. FUND:
Q: Sure. You testified previously that you played a role
in this contract, and I just want to know what you
meant by that.
[ER 375]
A: So I was the one who offered Mrs. Morrissey-Berru
this contract.
Q: And what was—what position was this contract for?
A: The same position, Grade 5, self-contained.
Q: Teacher?
A: Teacher, yes.
Q: Can you please turn to what is marked OLG 0015.
And is that your signature at the bottom of the page?
A: Yes.
Q: And can you read the line directly underneath your
signature?

JA 118
A: Yes. “I accept the position as elementary teacher at
OLG School on each and all of the terms and
conditions set forth in the above agreement in the
attached compensation benefit supplement.”
Q: Did you write in the word “elementary teacher”?
A: Uh-huh, yes.
Q: And “OLG”?
[ER 376]
A: Yes.
Q: And that’s your understanding as to the position
that you were offering to Ms. Morrissey-Berru?
MS. KANTOR: Vague.
THE WITNESS: Yes.
BY MS. FUND:
Q: Do you see—a little bit higher up in the page,
Paragraph 9, which is entitled, “Entire agreement”?
A: Uh-huh.
Q: Yes?
A: Yes.
Q: Is it your understanding that this contract and the
attached compensation and benefits supplement
contain the entire agreement between OLG School and
Ms. Morrissey-Berru for this time period?
MS. KANTOR: Objection to the extent it calls for a
legal conclusion; vague.
THE WITNESS: This is the entire agreement that was
offered to Ms. Morrissey-Berru.
BY MS. FUND:

JA 119
Q: Okay. Can you please turn to OLG 0017. Is the
handwriting—all of the handwriting on this page your
handwriting?
*

*

*

[ER 377]
MS. KANTOR: Vague.
THE WITNESS: Not that I am aware of at this time.
MS. FUND: Let’s mark this next exhibit as Exhibit 5.
(Plaintiff’s Exhibit 5 was marked for identification by
the court reporter and is attached hereto.)
BY MS. FUND:
Q: I just want you to take a look and let me know if
you have ever seen this document before.
A: Yes.
Q: What is this document?
A: This is an employee employment agreement
between Mrs. Morrissey-Berru and Our Lady of
Guadalupe School.
Q: For what term?
A: From July 1, 2013, through June 30th, 2014.
Q: Before I get into that exhibit, I just have a really
quick question back on Exhibit 4. You signed your
employment agreement on July 1, 2012; correct? Or
effective—sorry. It was effective July 1st?
A: Yes.
Q: I’m just a little bit confused because this
*

*

*

JA 120
[ER 378]
Mrs. Morrissey-Berru understood the expectations for
the 2013/14 school year.
BY MS. FUND:
Q: Did you write that into any other teachers’
employment contracts?
A: I don’t recall at this time if it was necessary.
Q: So you don’t recall one way or another whether you
did?
A: I don’t recall one way or the other.
Q: At the time, had Ms. Morrissey-Berru given you any
reason to think that she didn’t understand the
expectations for the 2013/2014 school year?
A: No.
Clarification: At the time of the signing of this
contract?
Q: Correct.
A: No. She was clear.
Q: Let’s just turn to the last page, OLG 0012. In the
middle of the page, it says, “I accept a position as
teacher at OLG School”; correct?
A: Yes.
Q: Did you write in “OLG”?
A: That’s not my writing.
Q: But, again, the position she was hired for [ER 379]
was a teacher?
A: It was, yes.

JA 121
Q: And did you provide this employment contract to
the pastor at the time?
A: I—yes, I would have asked him to come and sign the
contracts, please.
Q: Do you know why this contract isn’t signed by a
pastor?
MS. KANTOR: Calls for speculation; lacks foundation.
THE WITNESS: I don’t know why Father Ray and/or
Father Joe did not sign this particular piece of paper.
MS. FUND: We’ll mark the next document— I can
take that for you—as Exhibit No. 6. (Plaintiff’s Exhibit
6 was marked for identification by the court reporter
and is attached hereto.)
BY MS. FUND:
Q: Again, if you could take a look through this
document and let me know if you have ever seen it
before.
A: I’ve seen it, yes.
Q: Okay. And what is this document?
A: This is the employment agreement between
[ER 380] Mrs. Morrissey-Berru and Our Lady of
Guadalupe School for the 2014/15 school year.
Q: What position is it for?
A: It is a part-time position in the 5th grade classroom.
Q: As a teacher?
A: As a part-time teacher.
Q: Can you turn to Page OLG 0004 for me. You see
how there’s some lines and then there’s typed up
numbers throughout that page?

JA 122
MS. KANTOR: Vague.
BY MS. FUND:
Q: Do you know what I am referring to?
MS. KANTOR: Vague.
THE WITNESS: Can you be more specific with the
section?
BY MS. FUND:
Q: Sure. So, for example, where it says—the
paragraph, the section that says “Part-time teacher”?
A: Yes.
Q: Do you see how there’s—looks like there’s four
different dashes, and then there’s the zeros filled in on
each of those lines?
A: Yes.
*

*

*

[ER 381]
BY MS. FUND:
Q: Did anyone else at the school complete evaluation
reports for the teachers other than yourself?
MS. KANTOR:
foundation.

Vague

and

overbroad;

lacks

THE WITNESS: Again, it’s not clear to me that we’re
talking about the same type of form, what form we’re
talking about.
MS. FUND: Sure. Let’s mark this next document as
Exhibit No. 9. (Plaintiff’s Exhibit 9 was marked for
identification by the court reporter and is attached
hereto.)

JA 123
BY MS. FUND:
Q: If you can take a look at that document, and let me
know if you have ever seen it before.
A: Yes.
Q: What is this?
A: This is one type of feedback form used after a
classroom visit.
Q: Why don’t you give me the title of this document?
A: Elementary school classroom observation [ER 382]
report.
Q: Did you personally fill out this report?
A: Yes, I did.
Q: Other than Ms. Morrissey-Berru’s signature and
the date written underneath her signature, is all of the
handwriting on this document yours?
A: Yes, it is.
Q: And what is the date of this document?
A: November 6, 2012.
Q: Would that have been the date that you observed
her class?
A: Yes.
Q: Now, on the last page—is that your signature on
the last page?
A: Yes.
Q: It’s dated November 14, 2012?
A: Yes.

JA 124
Q: Now, would that reflect the date that you reviewed
this report with Ms. Morrissey-Berru?
A: That would be our post-observation conference
room time. Yes.
Q: Would you actually communicate about any of the
information in this report on the day of the actual
observation, or would you wait for this meeting that
took place approximately a week later?
[ER 383]
MS. KANTOR: Overbroad.
THE WITNESS: It was—state that question again.
BY MS. FUND:
Q: Sure. Did you have a conversation about any of the
contents of this observation report with Ms.
Morrissey-Berru on the date of the observation, or did
you wait to discuss the contents until your meeting on
November 14th?
A: We discussed this during our conference time, and
we completed it together.
Q: Again, the conference time is November 14th?
A: Yes.
Q: So you wouldn’t have any conversation with her on
the date of the observation about the contents?
A: I wouldn’t interrupt her teaching.
Q: Okay. And it indicates “10:40,” next to the date. Do
you see that?
A: Yes.
Q: Is that—what does that number represent?

JA 125
A: Most likely it represents the time on the [ER 384]
lesson.
Q: That it started?
A: That it started.
Q: Would you stay for the entire lesson?
A: Yes.
Q: And, again, I see it’s indicated on the top of this
page that the subject was science?
A: Yes.
Q: And typically how long are each class?
A: So to understand the timing, the teachers choose
the block of time; so—and they tell me: 30 minutes, 40
minutes, 50 minutes. So I don’t know off the top of my
head, but a typical lesson would be anywhere from 30
to 50 minutes at this grade.
Q: Is there anything else on this document that would
reflect how long this specific class was?
A: No. It would have been on the sign-up sheet.
Q: Was this observation prescheduled?
A: Absolutely.
Q: And how much advance notice, generally, do you
give teachers before an observation like this?
A: It’s standard procedure that there is going to be an
observation. I typically give them two to four weeks,
sometimes longer, and they sign up at a [ER 385] time
of their own choosing within a window. I give them
blocks of time. And that is how we handle the postobservation conference times as well. They sign up for
a time that suits their schedule.

JA 126
Q: Would Ms. Morrissey-Berru have selected this
November 6th, 2012, science class for you to observe?
A: Yes.
Q: So going back to my question a few minutes ago,
would anyone else at the school have the responsibility
of filling out an elementary school classroom
observation report like this one we have in front of us
marked as Exhibit 9?
A: In some cases, vice principals do; however, Mrs.
Barns does not do that at our school site.
Q: At your school, no one else is responsible for filling
out these forms other than yourself?
MS. KANTOR: Asked and answered.
THE WITNESS: Not this particular feedback form.
BY MS. FUND:
Q: How many different types of feedback forms do you
have at the school?
A: The archdiocese provides us many different types of
feedback forms, encouraging us to use them

JA 127
[ER 395]

ARCHDIOCESE OF LOS ANGELES
TEACHER EMPLOYMENT AGREEMENT
ELEMENTARY SCHOOLS
THIS AGREEMENT, by and between Our Lady of
Guadalupe Elementary School (hereinafter referred to
as the School) and Deidre Morrissey (hereinafter
referred to as the Teacher) is entered into as follows:
WITNESSETH
TERMS
1. The School hereby employs the Teacher for the
school year beginning on Sept. 1, 1999 and ending
on June 30, 2000. The School agrees to pay the
Teacher for such services this yearly sum of
$24,500 subject to deductions required by law. The
salary shall be divided into 20 equal installments
paid on the 15th + 30th of each month.
RESPONSIBILITIES
2. The Teacher agrees to perform all duties faithfully
and satisfactorily as described in the Teacher
Evaluation Report published by the Archdiocesan
Department of Catholic Schools; to comply with all
rules and regulations promulgated by the School
and the Archdiocese; to comply with and abide by
all pertinent statutes of the State of California and
the United States; and to attend all teacher
meetings, inservice programs and other events as
specified by the Archdiocesan Department of
Catholic Schools.
3. The Teacher agrees to submit to the School
evidence of degrees, credentials, and experience

JA 128
claimed, as well as current documentation of
freedom from active tuberculosis.
4. The School agrees that it will cause administrative
personnel to be available at reasonable times
during normal business hours to discuss with the
Teacher school problems and other professional
matters of particular or special interest to the
Teacher.
5. A Teacher who regularly performs (30) or more
paid hours of service per week shall be eligible for
participation in the official Archdiocesan medical
plan. After one year of employment, the teacher
shall be eligible for participation in the
Archdiocesan Retirement Plan if the Teacher is 25
years of age and has worked a minimum of 1,000
hours in a calendar year.
6. A Teacher shall maintain a professional
relationship with students both on and off campus.
A Teacher shall not associate or be present with
students or be a party to activities where civil law
and/or school rules are violated. A Teacher shall
not date a student.
7. Performance of the Teacher’s duties under this
Agreement shall be subject to the supervision of the
School over all phases of the work and subject to
the advice and direction of its administrative
personnel.

JA 129
SCHEDULE
8. The Teacher agrees not to enter a contract or
agreement with any school or district which will in
any way conflict with this Agreement.
9. The Teacher agrees to devote his/her full time to
performing the duties of teacher and to enter upon
and perform such duties at the times, places and
for the periods prescribed by the School. The hours
of employment on class days shall be from thirty
minutes before the start of the first class bell to
thirty minutes after the last class bell.
10. Full-time Teachers are permitted ten days paid
leave each year for personal illness. Absence in
excess of this limit may, at the discretion of the
principal, be a basis for proportionate reduction in
the amount of compensation. Likewise, it is
expected that the Teacher will assume financial
responsibility for absences for reasons other than
those stated above.
11. A Teacher may be entitled to or granted leaves as
specified in Archdiocesan policies. The school
retains the option to require the Teacher to resume
his/her duties at the beginning of a Quarter.
RE-EMPLOYMENT
12. It is agreed that the Teacher will give written
notice to the School on or before April 1 stating
whether or not he/she wishes to renew the
Agreement, and that the School will give written
notice to the Teacher on or before May 1 whether
or not it intends to renew the Agreement for the
following year.

JA 130
[ER 396]
13. It is agreed that the Teacher has no tenure rights
or other property rights in employment at the
school. It is further agreed that the School has no
obligation, expressed or implied, to extend or renew
this contract, to re-employ the Teacher or to
continue to operate beyond the terms of the
Agreement.
14. It is agreed that, upon expiration or termination of
this Agreement for any reason, the Teacher shall
have no right to employment or preferential
treatment regarding employment at any other
school located in the Archdiocese of Los Angeles, or
any other Catholic school. It is further agreed that,
if the School closes for any reason, this Agreement
will be considered terminated for cause on the
official date of closure.
TERMINATION
15. The Teacher shall be subject to discharge for just
cause, including, but not limited to, the following:
a. Immorality relating to duties or impairing
his/her effectiveness as a Teacher.
b. Conviction of a felony or any crime involving
moral turpitude.
c. Incompetency or inadequacy in carrying out the
responsibilities of a Teacher.
d. Lack of daily preparation.
e. Lack of classroom discipline consistent with the
philosophy of the school.

JA 131
f. Failure to implement school disciplinary
regulations as they apply either to teachers or
students.
g. Noted inability to deal amicably with students,
parents, faculty, and administrators.
h. Serious violations of professional ethics.
i. Failure to respond to correction and admonition
as given by the School.
j. Habitual or excessive tardiness or absence from
work or from the work area.
k. Insubordination to superiors.
l. Maintaining by word or action a position
contrary to the teaching of the Roman Catholic
Church as interpreted by the Archdiocese of Los
Angeles.
m. Dishonesty or personal conduct constituting
bad example to pupils according to standards of
the Roman Catholic Church as interpreted by
the Archdiocese of Los Angeles.
n. Breach of the terms of this Agreement,
including refusal to discharge responsibilities
or voluntary abandonment of responsibilities.
o. Falsification of documents, such as providing
false or misleading information on a teaching
application, personnel record, professional or
character reference, academic transcript,
degrees, or credentials.
16. Failure by the School to Invoke discharge on one
occasion for the commission of an offense
constituting a cause for discharge shall not affect

JA 132
the right of the School to invoke discharge for a
later or different commission of the same offense.
17. The Teacher may not terminate employment
during the term of this Agreement and for a period
of thirty (30) days prior to the beginning of the
school year except by mutual agreement of the
Principal and the Teacher. Teacher acknowledges
that a breach by the Teacher of this provision will
cause expenses and damages to the School. If
Teacher breaches this provision, Teacher agrees to
pay to School all costs, expenses and damages
incurred by School by reason of Teacher’s breach,
including but not limited to costs and expenses
incurred by School to obtain the services of a
substitute teacher until a new full time teacher is
hired, in an amount not to exceed $5,000.00. Said
sums are due and payable by Teacher to School
within thirty (30) days of the date said sums are
incurred by School, unless other arrangements are
made between Teacher and Principal.
CLAIMS
18. It is agreed that a condition of this agreement is
the receipt of the Criminal Records Summary
Clearance from the Department of Justice, if such
a clearance is required, and the completion of the
I-9 Form from the Immigration and Naturalization
Service.
19. It is agreed that the Teacher shall have no claim or
right of action for breach of this Agreement unless
all rights for administrative relief provided in the
Grievance Procedure promulgated by the
Archdiocesan Department of Catholic Schools have
been fully pursued.

JA 133
ADDITIONAL TERMS (as discussed prior to School’s
“intent to renew”)
_________________________________________________
_________________________________________________
IN WITNESS WHEREOF, the parties have hereunto
executed this Agreement on August 23, 1999, at
Hermosa Beach, California.
/s/ A. Deirdre Morrissey
(Teacher)
Our Lady of Guadalupe
Elementary School
by /s/ Cheryl L. Hunt
Principal

JA 134
[ER 397]
FACULTY EMPLOYMENT AGREEMENT –
ELEMENTARY
Exempt Full Time
Department of Catholic Schools
Archdiocese of Los Angeles
Name of School: Our Lady of Guadalupe Catholic
School
Name of Teacher: Deirdre Morrissey-Berru
Start Date: July 1, 2012
End Date: June 30, 2013
1. Term. The School (“School”) and you (the “Teacher”)
make this Employment Agreement (“Agreement”),
effective on the date below, for the work period shown
above (the “Term”), for you to serve as a member of our
faculty.
2. Philosophy. It is understood that the mission of
the School is to develop and promote a Catholic School
Faith Community within the philosophy of the
Catholic education as implemented at the School, and
the doctrines, laws and norms of the Catholic Church.
All duties and responsibilities of the Teacher shall be
performed within this overriding commitment.
3. Duties. Your duties shall be those of a full-time or
part-time faculty member as specified in the
Compensation and Benefits Supplement which is an
integral part of this Agreement. You shall use your
best professional efforts and skills to perform your
duties in a diligent, energetic, competent, and ethical
manner, consistent with the School’s established
philosophy and its policies, directives, and expected
practices. You acknowledge and agree that the School

JA 135
retains the right to operate within the philosophy of
Catholic education and to retain teachers who
demonstrate an ability to develop and maintain a
Catholic School Faith Community. You understand
and accept that the values of Christian charity,
temperance and tolerance apply to your interactions
with your supervisors, colleagues, students, parents,
staff and all others with whom you come in contact at
or on behalf of the School. Accordingly, you are
expected to model, teach, and promote behavior in
conformity to the teaching of the Roman Catholic
Church. Your duties shall include careful preparation
and planning for each class consistent with School and
departmental curriculum; diligent review and
evaluation
of
student
work
and
related
communication to students and parents; and
conferring with students, the administration, and
parents as needed regarding each student’s progress
and development. You also shall attend faculty/staff
meetings and conferences, including those prior to and
following the School’s regular academic year,
participate in School activities including School
liturgical activities, as requested, and complete other
duties as assigned. You agree to maintain the levels of
competency in subject matter, teaching methods,
classroom management, and student supervision
required by the School whether on your own initiative
or at the direction of the School. Your duties and job
assignment may be revised during the Term to meet
the School’s needs. In the event the School’s operations
are extended by reason of fire, disaster, act of God, act
of public authority or any other necessity or emergency
cause, your services may be suspended for the time
period and rescheduled as needed to complete the full
School year.

JA 136
4. Policies. You shall be familiar with, and comply
with the School’s personnel policies and procedures as
they may be adopted or amended from time-to-time,
including policies in the faculty handbook. You should
refer to such documents for information relating to
your employment, duties, and benefits. You shall be
familiar with, abide by, and assist and cooperate with
School administration in enforcing, the School’s
policies for students and families whether outlined in
our handbook(s), our School policies, or other
directives and expected practices (together “Policies”).
You acknowledge that a copy of the faculty handbook
has been made available to you. You understand and
acknowledge that the policies do not constitute a
contractual agreement with you.
[ER 398]
5. Introductory Period. There is an introductory
period for a newly hired or transferred teacher. The
introductory period is a minimum of 90 calendar days,
and may be extended, in writing, for up to another 90
calendar days at the discretion of the principal. During
the introductory period this Agreement is at will;
therefore, it can be terminated at any time, for any
reason, without any notice. The Principal shall
complete a performance appraisal at the end of the
introductory period. Upon satisfactory completion of
the introductory period, employment will be continued
through any remaining term of this Agreement except
as noted under “Termination.”
6. Termination. Your employment, and this
Agreement, may be terminated during the Term
without payment of salary or benefits beyond such
date of termination, for any of the following reasons:

JA 137
I. The School may terminate for “cause,”
without any prior notice. Such “cause” shall be
determined by the School within its reasonable
judgment and shall include but not be limited
to:
a) Failure to meet any of your duties as
described in Paragraphs 3 and 4 above.
b) Inappropriate physical or social contact
with students during school or otherwise.
c) Unprofessional or unethical conduct,
insubordination, unauthorized disclosure
of confidential information, or habitual or
unreasonable tardiness or absence from
duties.
d) Any criminal, immoral or unethical conduct
that relates to your duties as a teacher or
brings discredit upon the school or the
Roman Catholic Church.
e) Unauthorized possession of, or working
under the influence of, illegal drugs,
intoxicants, or alcohol.
f) Threatening or causing bodily harm to
others or other coercive and or
intimidating acts, or any verbal or physical
harassment.
g) Having a diploma, credential, permit,
license or certificate denied, revoked or
suspended.
h) Falsification of documents, false or
misleading information on an application,
resume, personnel record, professional or

JA 138
character reference, academic transcript,
degree, or credential.
i) Any other breach of the terms of this
Agreement
II. Either you or the School may terminate this
Agreement without cause, for any reason within
the sole discretion of the terminating party,
upon 30 calendar days’ prior written notice to
the other party in a manner that is consistent
with applicable law and on a time frame that is
mutually agreeable to you and the Principal.
However, you may not terminate employment
under this Agreement if the termination is
effective during the 30 days immediately prior
to the beginning of the school year except by
mutual agreement with the Principal. You
acknowledge that a breach by you of this
provision is a grave ethical violation, may harm
the educational program for the students and
may cause expenses and damages to the School.
III. The School may terminate your employment
if you are unable to perform the essential
functions of your position and reasonable
accommodation is not available or required
under applicable laws.
The School’s failure to invoke its right of termination
on one occasion for the occurrence of a matter
constituting a basis for discharge shall not affect the
right of the School to invoke discharge when the same
or a different basis for termination arises at a later
date.
7. Renewal. Future employment will be determined
on a year-to-year basis. It is agreed that you will give

JA 139
written notice to the School, on or before April 1, 2013,
stating whether or not you wish to renew the
Agreement. The School will give you written notice, on
or before May 15, 2013, stating whether or not it [ER
399] intends to renew the Agreement for the following
year. In the absence of a notice by either party, this
agreement will lapse under its own terms. The
Principal alone, with the approval of the Pastor, has
the final and sole authority with respect to offering
contracts. This Agreement is contingent upon
sufficient School enrollment and the School’s financial
condition. If the enrollment or the School’s financial
condition does not justify the staffing, the Principal
has discretionary power to make decisions regarding
personnel reduction including, but not limited to,
modification or cancellation of this Agreement.
Notwithstanding this, if the School closes for any
reason, this Agreement will be considered terminated
on the date of the closure. You understand that tenure
is not granted by Archdiocesan Schools and upon
expiration or termination of the Agreement for any
reason you shall have no right to employment or
preferential treatment regarding employment at any
other Archdiocesan School. There is no implied duty
by you or the School to renew this Agreement, and no
cause whatsoever is required by either party for nonrenewal Any other arrangement with respect to
renewal, extension or duration of employment is valid
only if in writing, executed by you and the Principal,
with the approval of the Pastor.
8. Severability. If, for any reason, any one or more of
the provisions of this Agreement shall be held or
deemed to be legally invalid or unenforceable, that
shall not have any effect on any of the other provisions

JA 140
of this Agreement, all of which shall remain in full
force and effect.
9. Entire Agreement. This Agreement and the
attached Compensation and Benefits Supplement
contain the complete and entire agreement between
you and the School, and it supersedes all prior offers,
agreements, commitments, understandings, whether
oral or written. No changes to this Agreement may be
made except by a document signed by you and the
Principal, with approval of the Pastor.
10. Applicable Law. This Agreement is entered into
under, and governed by, the laws of the State of
California.
11. Dispute Resolution and Grievances. You and
the School agree to attempt to resolve any disputes in
good faith. Any unresolved dispute between you and
the School arising out of or in any way related to your
employment or the termination thereof, shall be
subject to the Grievance Procedures promulgated by
the Archdiocesan Department of Catholic Schools and
no legal actions may be taken until all procedures have
been fully discharged. This clause is intended to
provide a speedy, economical and exclusive forum for
resolving claims; its existence shall not imply any
limitations upon the School’s right to manage its
affairs or terminate any employment.
12. Condition Precedent. It is agreed that a
condition precedent of this Agreement is the receipt of
the Criminal Record Summary report from the
California Department of Justice and the Federal
Bureau of Investigation, the completion of the I-9
Form from the Immigration and Naturalization

JA 141
Service, and the completion of the other relevant
health and document requirements of the school.
By: /s/ April Beuder
(Principal’s Signature)
Date: 5/21/12
I accept a position as Elementary Teacher at OLG
School on each and all of the terms and conditions set
forth in the above Agreement and the attached
Compensation and Benefits Supplement.
By: /s/ A. Deirdre Morrissey-Berru
(Teacher’s Signature)
Date: 5/21/12
Approval by Pastor required: /s/ F.R. (illegible)
[ER 400]
Pastor’s Signature
Print Name
Date
[ER 401]
FACULTY COMPENSATION AND BENEFITS
SUPPLEMENT
Elementary – Exempt Full Time
Department of Catholic Schools
Archdiocese of Los Angeles
13. School Day and Work Schedule
Full Time Faculty
As a full time teacher, you understand that there will
be approximately 8 hours of work at the School each
regular class day. You will also devote additional time

JA 142
to other assigned school responsibilities and in
preparation and assessment activities at hours not
during the regular class day. The School’s regular
class day is from 7:30 a.m. to 3:30 p.m.
14. Base Compensation
Base Salary: $ 45,858
15. Additional Compensation For Designated
Responsibility (If Any):
Note: Calculations and Additional Compensation for
designated responsibility are based on anticipated
time commitment and skills.
Responsibility

Additional Compensation

___________________

$ ______________________

___________________

$ ______________________

___________________

$ ______________________

___________________

$ ______________________

Total Additional Compensation: $ __________________
16. Payment Schedule.
Compensation for all faculty will be distributed on a
 semi-monthly  bi-weekly schedule beginning
August 1, 2012 and ending June 30, 2013.
17. Education
Requirements:

And

Professional

Growth

In accordance with the regulations for salary
placement and professional growth requirements, you
agree that you will complete the following
requirements to be eligible to be offered an
employment agreement for the next school year.
 ______________________________________

JA 143
 Enroll in California Teaching Credential program.
 Complete at least ___ units toward a California
Teaching Credential.
 California Teaching Credential program must be
completed by July 1, 20___ for an Elementary School
Faculty Employment Agreement to be offered for the
20___ - 20___ academic year.
[ER 402]
18. Available Benefits.
See Department of Catholic Schools Lay Employees
Benefit Guide
Sick Days: Full-time Faculty: 10 days per school year.
By: /s/ April Beuder
(Principal’s Signature)
Date: 5/21/12
By: /s/ A. Deirdre Morrissey-Berru
(Teacher’s Signature)
Date: 5/21/12
Approval by Pastor required: /s/ F.R. (illegible)

JA 144
[ER 403]
TEACHER EMPLOYMENT AGREEMENT –
ELEMENTARY
Exempt
Department of Catholic Schools
Archdiocese of Los Angeles
Name of School: Our Lady of Guadalupe School
Name of Teacher: Deirdre Morrissey-Berru
Start Date: July 1, 2013
End Date: June 30, 2014
1. Term. The School (“School”) and you (the “Teacher”)
make this Employment Agreement (“Agreement”),
effective on the date below, for the work period shown
above (the “Term”), for you to serve as a member of our
faculty.
2. Philosophy. The mission of the School is to develop
and promote a Catholic School Faith Community
within the philosophy of Catholic education as
implemented at the School, and the doctrines, laws
and norms of the Roman Catholic Church. All your
duties and responsibilities as a Teacher shall be
performed within this overriding commitment. If you
are Roman Catholic you must be in good standing with
the Church.
3. Duties. Your position will be that of a Teacher. You
shall use your best professional efforts and skills to
perform your duties in a diligent, energetic,
competent, and ethical manner, consistent with the
School’s established policies, directives and expected
practices. You acknowledge that the School operates
within the philosophy of Catholic education and
retains the right to employ individuals who

JA 145
demonstrate an ability to teach in accordance with the
philosophy. You understand and accept that the
values of Christian charity, temperance and tolerance
apply to your interactions with your supervisors,
colleagues, students, parents, staff and all others with
whom you come in contact at or on behalf of the School.
In both your professional and private life you are
expected to model and promote behavior in conformity
to the teaching of the Roman Catholic Church in
matters of faith and morals. Your duties shall include
careful preparation and planning for each class
consistent with School and departmental curriculum;
diligent review and evaluation of student work and
related communication to students and parents; and,
as
needed,
conferring
with
students,
the
administration, and parents regarding each student’s
progress and development. You also shall attend
faculty/staff meetings and conferences, including
those prior to and following the School’s regular
academic year, participate in School activities
including School liturgical activities, as requested, and
complete other duties as assigned. You agree to
maintain the levels of competency in subject matter,
teaching methods, classroom management, and
student supervision required by the School whether on
your own initiative or at the direction of the School.
Your duties and job assignment may be revised during
the Term to meet the School’s needs. In the event the
School’s operations are extended by reason of fire,
disaster, act of God, act of public authority or any other
necessity or emergency cause, your service may be
suspended for the time period and rescheduled as
needed to complete the full School year.
4. Policies. You shall be familiar with, and comply
with the School’s personnel policies and procedures as

JA 146
they may be adopted or amended from time-to-time,
including policies in the faculty handbook. You should
refer to such documents for information relating to
your employment, duties, and benefits. You shall be
familiar with, abide by, and assist and cooperate with
School administration in enforcing the School’s
policies for students and families whether outlined in
our handbooks(s), our School [ER 404] policies, or
other directives and expected practices (together
“Policies”). You acknowledge that a copy of the faculty
handbook has been made available to you. You
understand and acknowledge that the policies do not
constitute a contractual agreement with you.
5. Introductory Period. The first six (6) months of
your employment as a new teacher at this School are
considered your Introductory Period. You may be
terminated at any point, with or without notice, with
or without reason, during the Introductory Period. The
Principal shall complete a performance appraisal at
the end of your Introductory Period. Upon satisfactory
completion of the Introductory Period, your
employment will be continued through the Term of
this Agreement except as noted under “Termination.”
6. Termination. Your employment, and this
Agreement, may be terminated during the Term
without payment of salary or benefits beyond such
date of termination, for any of the following reasons:
I. The School may terminate for “cause,”
without any prior notice. Such “cause” shall be
determined by the School within its reasonable
judgment and shall include but not be limited
to:

JA 147
a) Failure to meet any of your duties as
described in Paragraphs 3 and 4 above.
b) Inappropriate physical or social contact
with students during school or otherwise.
c) Unprofessional or unethical conduct,
insubordination, unauthorized disclosure
of confidential information, or habitual or
unreasonable tardiness or absence from
duties.
d) Any criminal, immoral or unethical conduct
that relates to your duties as a teacher or
brings discredit upon the school or the
Roman Catholic Church.
e) Unauthorized possession, sale, or working
under the influences of controlled
substances
(except
prescription
medications
taken
as
prescribed),
intoxicants, or alcohol.
f) Threatening or causing bodily harm to
others or other coercive or intimidating
acts, or any verbal or physical harassment.
g) Having a diploma, credential, permit,
license or certificate denied, revoked or
suspended.
h) Falsification of documents, false or
misleading information on an application,
resume, personnel record, professional or
character reference, academic transcript,
degree, or credential.
i) Any other breach of the terms of this
Agreement

JA 148
II. Either you or the School may terminate this
Agreement without cause, for any reason within
the sole discretion of the terminating party,
upon 30 calendar days’ prior written notice to
the other party in a manner that is consistent
with applicable law and on a time frame that is
mutually agreeable to you and the Principal.
However, you may not terminate employment
under this Agreement if the termination is
effective during the 30 days immediately prior
to the beginning of the school year except by
mutual agreement with the Principal. You
acknowledge that a breach by you of this
provision is a grave ethical violation, may harm
the educational program for the students and
may cause expenses and damages to the School.
III. The School may terminate your employment
if you are unable to perform the essential
functions of your position and reasonable
accommodation is not available or required
under applicable laws.
The School’s failure to invoke its right of termination
on one occasion for the occurrence of a matter
constituting a basis for discharge shall not affect the
right of the School to invoke discharge when the same
or a different basis for termination arises at a later
date.
[ER 405]
7. Renewal. Future employment will be determined
on a year-to-year basis. You agree to give written
notice to the School, on or before April 1, 2014, stating
whether or not you wish to renew the Agreement. The
School will give you written notice, on or before May

JA 149
15, 2014, stating whether or not it intends to renew
the Agreement for the following year or enter into any
other type of employment relationship. In the absence
of a notice by either party, this agreement will lapse
under its own terms. The Principal alone, with the
approval of the Pastor, has the final and sole authority
with respect to offering contracts. This Agreement is
contingent upon sufficient School enrollment and the
School’s financial condition. If the enrollment or the
School’s financial condition does not justify the
staffing, the Principal has discretionary power to
make decisions regarding personnel reduction
including, but not limited to, modification or
cancellation of this Agreement. If the School closes for
any reason, this Agreement will be considered
terminated on the date of the closure. If this
Agreement is cancelled due to lack of enrollment or the
School’s financial condition or is terminated because of
School closure, you will be paid through the date of
cancellation or closure; no further payments will be
due to you. You understand that tenure is not granted
by Archdiocesan Schools and upon expiration or
termination of the Agreement for any reason you shall
have no right to employment or preferential treatment
regarding employment at any other Archdiocesan
School. There is no implied duty by you or the School
to renew this Agreement, and no cause whatsoever is
required by either party for non-renewal. Any other
arrangement with respect to renewal, extension or
duration of employment is valid only if in writing,
executed by you and the Principal, with the approval
of the Pastor.
8. Severability. If, for any reason, any one or more of
the provisions of this Agreement shall be held or
deemed to be legally invalid or unenforceable, that

JA 150
shall not have any effect on any of the other provisions
of this Agreement, all of which shall remain in full
force and effect.
9. Entire Agreement. This Agreement contains the
complete and entire agreement between you and the
School, and it supersedes all prior offers, agreements,
commitments, understandings, whether oral or
written. No changes to this Agreement may be made
except by a document signed by you and the Principal,
with approval of the Pastor.
10. Applicable Law. This Agreement is entered into
under, and governed by, the laws of the State of
California.
11. Dispute Resolution and Grievances. You and
the School agree to attempt to resolve any disputes in
good faith. Any unresolved dispute between you and
the School arising out of or in any way related to your
employment or termination, shall be subject to the
Grievance
Procedures
promulgated
by
the
Archdiocesan Department of Catholic Schools and no
legal actions may be taken until all procedures have
been fully discharged. This clause is intended to
provide a speedy, economical and exclusive forum for
resolving claims; its existence shall not imply any
limitations upon the School’s right to manage its
affairs or terminate any employment.
12. Condition Precedent. You understand and
agree that condition precedents of this Agreement are
the receipt of the Criminal Record Summary report
from the California Department of Justice and the
Federal Bureau of Investigation, the completion of the
I-9 Form from the Immigration and Naturalization

JA 151
Service, and the completion of the other relevant
health and document requirements of the School.
[ER 406]
13. School Day and Work Schedule
Full Time Teacher
As a full time Teacher, you understand that a regular
class day at the School requires approximately 8 hours
of work. You will also devote additional time to other
assigned school responsibilities and in preparation
and assessment activities at hours not during the
regular class day. The School’s regular class day is
from 7:30 a.m. to 3:30 p.m.
14. Base Compensation
Base Salary: $ 46,558
15. Additional Compensation For Designated
Responsibility (If Any):
Note: Calculations and Additional Compensation for
designated responsibility are based on anticipated
time commitment and skills.
Responsibility

Additional Compensation

___________________

$ ______________________

___________________

$ ______________________

___________________

$ ______________________

Total Additional Compensation: $ __________________
16. Payment Schedule.
Compensation for all teachers will be distributed on a
 semi-monthly  bi-weekly schedule beginning
8/30/13 and ending 6/30/14.

JA 152
17. Available Benefits.
See Archdiocese of Los Angeles Lay Employee Benefit
Guide
Full-time Faculty sick days: 10 days per school year.
18. Education
Requirements:

And

Professional

Growth

In accordance with the regulations for salary
placement and professional growth requirements, you
agree that you will complete the following
requirements to be eligible to be offered an
employment agreement for the next school year.
 Enroll in California Teaching Credential program.
 Complete at least ___ units toward a California
Teaching Credential.
 California Teaching Credential program must be
completed by July 1, 20___ for an Elementary School
Faculty Employment Agreement to be offered for the
20___ - 20___ academic year.

Other
Requirements:
Readers/Writers Workshop

Fully

implement

[ER 407]
By: /s/ April Beuder
(Principal’s Signature)
April Beuder
Print Name
Date: 6/14/13
I accept a position as Teacher at O.L.G. School on each
and all of the terms and conditions set forth in the
above Agreement.

JA 153
By: /s/ A. Deirdre Morrissey-Berru
(Teacher’s Signature)
A. Deirdre Morrissey-Berru
Print Name
Date: 6/4/13
Approval by Pastor required (this Agreement is not
binding until executed by Pastor)
By: [Blank]
(Pastor’s Signature)
[Blank]
Print Name
Date: [Blank]

JA 154
[ER 408]
TEACHER EMPLOYMENT AGREEMENT –
ELEMENTARY
Non-Exempt
Department of Catholic Schools
Archdiocese of Los Angeles
Name of School: Our Lady of Guadalupe School
Name of Teacher: Deirdre Morrissey-Berru
Academic Year: 2014-2015
Term. The School (“School”) and you (the “Teacher”)
make this Employment Agreement (“Agreement”),
effective on the date below, for the period shown above
(the “Term”), for you to serve as a member of our
faculty.
Philosophy. The mission of the School is to develop
and promote a Catholic School Faith Community
within the philosophy of Catholic education as
implemented at the School, and the doctrines, laws
and norms of the Roman Catholic Church. All your
duties and responsibilities as a Teachers shall be
performed within this overriding commitment. If you
are Roman Catholic you must be in good standing with
the Church.
Duties. Your position will be that of a Teacher. You
shall use your best professional efforts and skills to
perform your duties in a diligent, energetic,
competent, and ethical manner, consistent with the
School’s established policies, directives and expected
practices. You acknowledge that the School operates
within the philosophy of Catholic education and
retains the right to employ individuals who
demonstrate an ability to teach in accordance with this

JA 155
philosophy. You understand and accept that the
values of Christian charity, temperance and tolerance
apply to your interactions with your supervisors,
colleagues, students, parents, staff and all others with
whom you come in contact at or on behalf of the School.
In both your professional and private life you are
expected to model and promote behavior in conformity
to the teaching of the Roman Catholic Church in
matters of faith and morals. Your duties shall include
careful preparation and planning for each class
consistent with School and departmental curriculum;
diligent review and evaluation of student work and
related communication to students and parents; and,
as
needed,
conferring
with
students,
the
administration, and parents regarding each student’s
progress and development. You also shall attend
faculty/staff meetings and conferences, including
those prior to and following the School’s regular
academic year, participate in School activities
including School liturgical activities, as requested, and
complete other duties as assigned. You agree to
maintain the levels of competency in subject matter,
teaching methods, classroom management, and
student supervision required by the School whether on
your own initiative or at the direction of the School.
Your duties and job assignment may be revised during
the Term to meet the School’s needs. In the event the
School’s operations are extended by reason of fire,
disaster, act of God, act of public authority or any other
necessity or emergency cause, your service may be
suspended for the time period and rescheduled as
needed to complete the full School year.
Policies. You shall be familiar with, and comply with
the School’s personnel policies and procedures as they
may be adopted or amended from time-to-time,

JA 156
including policies in the faculty handbook. You should
refer to such documents for information relating to
your employment, duties, and benefits. You shall be
familiar with, abide by, and assist and cooperate with
School administration in enforcing, the School’s
policies for students and families whether outlined in
our handbook(s), our School policies, or other
directives and expected practices (together “Policies”).
You acknowledge that a copy of the faculty handbook
has been made available to you. You understand and
acknowledge that the policies do not constitute a
contractual agreement with you.
[ER 409]
Introductory Period. The first six (6) months of your
employment as a new teacher at this School are
considered your Introductory Period. You may be
terminated at any point, with or without notice, with
or without reason, during the Introductory Period. The
Principal shall complete a performance appraisal at
the end of your Introductory Period. Upon satisfactory
completion of the Introductory Period, your
employment will be continued through the Term of
this Agreement except as noted under “Termination.”
Termination.
Your
employment,
and
this
Agreement, may be terminated during the Term
without payment of salary or benefits beyond such
date of termination, for any of the following reasons:
I. The School may terminate for “cause,”
without any prior notice. Such “cause” shall be
determined by the School within its reasonable
judgment and shall include but not be limited
to:

JA 157
a) Failure to meet any of your duties as
described in Paragraphs 3 and 4 above.
b) Inappropriate physical or social contact
with students during school or otherwise.
c) Unprofessional or unethical conduct,
insubordination, unauthorized disclosure
of confidential information, or habitual or
unreasonable tardiness or absence from
duties.
d) Any criminal, immoral or unethical conduct
that brings discredit upon the School or the
Roman Catholic Church.
e) Unauthorized possession, sale, or working
under the influences of controlled
substances
(except
prescription
medications
take
as
prescribed),
intoxicants, or alcohol.
f) Threatening or causing bodily harm to
others or other coercive or intimidating
acts, or any verbal or physical harassment.
g) Having a diploma, credential, permit,
license or certificate denied, revoked or
suspended.
h) Falsification of documents, false or
misleading information on an application,
resume, personnel record, professional or
character reference, academic transcript,
degree, or credential.
i) Any other breach of the terms of this
Agreement

JA 158
II. Either you or the School may terminate this
Agreement without cause, for any reason within
the sole discretion of the terminating party,
upon 30 calendar days’ prior written notice to
the other party in a manner that is consistent
with applicable law and on a time frame that is
mutually agreeable to you and the Principal.
However, you may not terminate employment
under this Agreement if the termination is
effective during the 30 days immediately prior
to the beginning of the school year except by
mutual agreement with the Principal. You
acknowledge that a breach by you of this
provision is a grave ethical violation, may harm
the educational program for the students and
may cause expenses and damages to the School.
III. The School may terminate your employment
if you are unable to perform the essential
functions of your position and reasonable
accommodation is not available or required
under applicable laws.
[ER 410]
The School’s failure to invoke its right of termination
on one occasion for the occurrence of a matter
constituting a basis for discharge shall not affect the
right of the School to invoke discharge when the same
or a different basis for termination arises at a later
date.
Renewal. Future employment will be determined on
a year-to-year basis. You agree to give written notice
to the School, on or before April 1, 2015, stating
whether or not you wish to renew the Agreement. The
School will give you written notice, on or before May

JA 159
15, 2015, stating whether or not it intends to renew
the Agreement for the following year or enter into any
other type of employment relationship. In the absence
of a notice by either party, this agreement will lapse
under its own terms. The Principal alone, with the
approval of the Pastor, has the final and sole authority
with respect to offering agreements. This Agreement
is contingent upon sufficient School enrollment and
the School’s financial condition. If the enrollment or
the School’s financial condition does not justify the
staffing, the Principal has discretionary power to
make decisions regarding personnel reduction
including, but not limited to, modification or
cancellation of this Agreement. If the School closes for
any reason, this Agreement will be considered
terminated on the date of the closure. If this
Agreement is cancelled due to lack of enrollment or the
School’s financial condition or is terminated because of
School closure, you will be paid through the date of
cancellation or closure; no further payments will be
due to you. You understand that tenure is not granted
by Archdiocesan Schools and upon expiration or
termination of the Agreement for any reason you shall
have no right to employment or preferential treatment
regarding employment at any other Archdiocesan
School. There is no implied duty by you or the School
to renew this Agreement, and no cause whatsoever is
required by either party for non-renewal. Any other
arrangement with respect to renewal, extension or
duration of employment is valid only if in writing,
executed by you and the Principal, with the approval
of the Pastor.
Severability. If, for any reason, any one or more of
the provisions of this Agreement shall be held or
deemed to be legally invalid or unenforceable, that

JA 160
shall not have any effect on any of the other provisions
of this Agreement, all of which shall remain in full
force and effect.
Entire Agreement. This Agreement contains he
complete and entire agreement between you and the
School, and supersedes all prior offers, agreements,
commitments, understandings, whether oral or
written. No changes to this Agreement may be made
except by a document signed by you and the Principal,
with approval of the Pastor.
Applicable Law. This Agreement is entered into
under, and governed by, the laws of the State of
California.
Dispute Resolution and Grievances. You and the
School agree to attempt to resolve any disputes in good
faith. Any unresolved dispute between you and the
School arising out of or in any way related to your
employment or the termination, shall be subject to the
Grievance
Procedures
promulgated
by
the
Archdiocesan Department of Catholic Schools and no
legal actions may be taken until all procedures have
been fully discharged. This clause is intended to
provide a speedy, economical and exclusive forum for
resolving claims; its existence shall not imply any
limitations upon the School’s right to manage its
affairs or terminate any employment.
Condition Precedent. You understand and agree
that condition precedents of this Agreement are the
receipt of the Criminal Record Summary report from
the California Department of Justice and the Federal
Bureau of Investigation, the completion of the I-9
Form from the Immigration and Naturalization

JA 161
Service, and the completion of the other relevant
health and document requirements of the School.
[ER 411]
School Day and Work Schedule
Full Time Teacher
As a full time Teacher, you understand that your
duties consist of work during the regular class day
which includes instructional and non-instructional
time, other assigned school responsibilities, and
preparation and assessment activities outside the
classroom. The School’s regular instructional time is
from ______ a.m. to _______ p.m. You will be informed
of required non-instructional duties according to
schedules provided to you by the principal. The
Academic Year consists of _____ class days, ____ paid
holidays, and ______ hours worked.
The School understands that you may need to devote
a reasonable amount of time to other school
responsibilities in preparation and assessment
activities at hours not during the regular class day
(“Additional Hours Worked”). The School will
compensate you for the Additional Hours Worked if
they exceed 8 in a day or 40 in a week. You hereby
agree to comply with all the School’s policies and
procedures for permission to work beyond 8 hours in
any day or 40 hours in any week.
Part Time Teacher
As a part-time teacher, you understand that your
hours of work will be provided to you as scheduled.
(“Regular Days Worked”).
The School understands that you may need to devote
a reasonable amount of time to other school

JA 162
responsibilities and in preparation and assessment
activities at hours not during the regular class day
(Additional Hours Worked”). The School will
compensate you for the Additional Hours Worked up
to 0 hours in a day and 0 hours worked in a week. You
hereby agree to comply with all the School’s policies
and procedures for permission to work beyond 0 hours
in any day or 0 hours in any week.
Base Compensation
Total Compensation for Regular Hours Worked (not
including compensation for Additional Hours
Worked): $28,000.00 annually (based on 25 total
number of Regular Hours Worked in the Term, at the
rate of $ n/a per hour).
Full Time Teacher
Total budgeted (but not guaranteed) compensation for
Additional Hours Worked: $ ____________ (actual
amount will vary depending on actual hours worked
over 8 in a day or 40 in a week).
Part time Teacher
Total budgeted (but not guaranteed) compensation for
Additional Hours Worked: $ 0
(actual amount will
vary depending on actual hours worked over 0 in a day
0 or in a week).
[ER 412]
Additional Compensation
Responsibility (If Any):

For

Designated

In addition, for this Term only, you will assume the
additional assignment(s) listed below. Your hours of
work for the additional assignment(s) are as stated on
the attached schedule. To compensate you for the

JA 163
additional assignment(s), your compensation for this
Term will be increased for this Term only. The School
does not guarantee that you will receive this or any
other additional assignment(s) at any future time;
therefore your total compensation for this Term
should not be considered a promise that any future
compensation will be for a similar amount.
Note: Calculations and Additional Compensation for
Designated Responsibility are based on anticipated
time commitment and skills.
Responsibility

Additional Compensation

___________________

$ ______________________

___________________

$ ______________________

___________________

$ ______________________

___________________

$ ______________________

Total Additional Compensation: $ __________________
Payment Schedule.
Compensation for all teachers will be distributed on a
 semi-monthly  bi-weekly schedule beginning
8/30/14 and ending 6/30/15
Available Benefits
See Archdiocese of Los Angeles Lay Employees
Benefit Guide
Sick Days: Number of days per school year (if any):
5
Education
And
Requirements:

Professional

Growth

In accordance with the regulations for salary
placement and professional growth requirements, you

JA 164
agree that you will complete the following
requirements to be eligible to be offered an
employment agreement for the next school year.
 Enroll in California Teaching Credential program.
 Complete at least ___ units toward a California
Teaching Credential.
 California Teaching Credential program must be
completed by July 1, 20___ for an Elementary School
Faculty Employment Agreement to be offered for the
20___ - 20___ academic year.
 Other Requirements: assist with Liturgy Planning
for school masses
[ER 413]
By: /s/ April Beuder
(Principal’s Signature)
Date: 5/19/14
I accept a position as Gr5 Homerm/Rel/SocStudies
and Gr6-7 SocStudies at OLG School on each and all
of the terms and conditions set forth in the above
Agreement.
By: /s/ A. Deirdre Morrissey-Berru
(Teacher’s Signature)
Approval by Pastor required: F.R. (illegible)

JA 165
JML LAW
A Professional Law Corporation
21052 Oxnard Street
Woodland Hills, California 91367
Tel: (818) 610-8800
Fax: (818) 610-3030
JOSEPH M. LOVRETOVICH
State Bar No. 73403
jml@jmllaw.com
JARED W. BEILKE
State Bar No. 195698
jared@jmllaw.com
Attorneys for Plaintiff
AGNES DEIRDRE MORRISEEY-BERRU [sic]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIRDRE
MORRISSEY-BERRU,
an individual,
Plaintiff,

Case No.:
COMPLAINT FOR:

1.DISCRIMINATION
ON THE BASIS OF
OUR LADY OF
AGE;
GUADALUPE
2. RETALIATION IN
SCHOOL, a California VIOLATION OF THE
non-profit corporation; ADEA;
and DOES 1-50,
3. WRONGFUL
inclusive,
TERMINATION IN
Defendants. VIOLATION OF
PUBLIC POLICY.
vs.

JA 166
DEMAND FOR
JURY TRIAL
Plaintiff, AGNES DEIRDRE MORRISSEYBERRU, hereby brings her employment complaint
against the above-named Defendants and states and
alleges as follows:
JURISDICTION AND VENUE
1. This is an employment lawsuit, brought pursuant to
29 U.S.C. § 621 et. seq. to remedy violations of the Age
Discrimination in Employment Act (“ADEA”).
2. This Court has original federal question jurisdiction
over this action pursuant to 28 U.S.C. § 1331 because
Plaintiff alleges violations of the laws of the United
States of America.
3. The venue is appropriate since the actions giving
rise to this lawsuit occurred in Los Angeles County,
California, which is located within this district.
THE PARTIES
4. At all times mentioned herein, Plaintiff AGNES
DEIRDRE MORRISSEY-BERRU, age 65, was a
resident of the State of California.
5. At all times mentioned herein, Defendant OUR
LADY OF GUADALUPE SCHOOL was a California
non-profit corporation that operated a private school,
located at 340 Massey Street, Hermosa Beach, CA
90254.
6. The true names and capacities, whether individual,
corporate, associate or otherwise of DOES 1 through
50 are unknown to Plaintiff who therefore sues these

JA 167
defendants under said fictitious names. Plaintiff is
informed and believes that each of the defendants
named as Doe defendant is legally responsible in some
manner for the events referred to in this Complaint, is
either negligently, willfully, wantonly, recklessly,
tortuously, strictly liable, statutorily liable or
otherwise, for the injuries and damages described
below to this Plaintiff. Plaintiff will in the future seek
leave of this court to show the true names and
capacities of these Doe defendants when it has been
ascertained.
7. Plaintiff is informed and believes, and based
thereon alleges, that each defendant acted in all
respects pertinent to this action as the agent of the
other defendants, carried out a joint scheme, business
plan or policy in all respects pertinent hereto, and the
acts of each defendant are legally attributable to the
other defendants.
8. Hereinafter in the Complaint, unless otherwise
specified, reference to a Defendant or Defendants shall
refer to all Defendants, and each of them.
ALLEGATIONS
9. Plaintiff commenced employment with Defendant
OUR LADY OF GUADALUPE SCHOOL as a full-time
teacher in or around September 1999.
10. In the spring semester of 2014, Ms. MorrisseyBerru was told that she was not implementing the new
reading and writing program correctly.
11. In or around August 2014, Plaintiff was demoted
from a full-time teacher to a part time teacher. In or
around May 2014, Ms. Morrissey’s supervisor,
Principal Beuder, falsely accused Plaintiff of wanting

JA 168
to retire and stated that “because she wanted to retire
and because she wasn’t correctly implementing the
reading and writing program”, Plaintiff was going to
be demoted to part-time.
12. Plaintiff never stated she wanted to retire.
13. In August 2014, Principal Beuder replaced
Plaintiff with a teacher who had no English/ Writing
experience and who was much younger.
14. On or around August 2014, Plaintiff applied for a
full-time teaching position at St. James Catholic
School in Torrance. The principal of St. James spoke
to Principal Beuder and then told Plaintiff that “Ms.
Beuder said good things about you, but she remarked
that this was your last year of teaching.” Plaintiff’s job
interview with St. James Catholic School was
cancelled, and she was told that they had hired
someone else.
15. In May 2015, Plaintiff turned in her letter of intent
to work the next school year. However, on May 13,
2015, Principal Beuder called Plaintiff into the
Principal’s office and told her that she would not be
asked to return due to budget cutbacks. Principal
Beuder during this conversation again falsely accused
Plaintiff of agreeing to retire at the end of the school
year. Plaintiff denied ever agreeing to retiring and told
Principal Beuder that she needed to work. After
Plaintiff left Principal Beuder’s office, Ms. Beuder
followed her out to the playground and threatened to
give Plaintiff a bad recommendation if she told anyone
she had been fired. Another teacher, Jack Moore,
witnessed this conversation.

JA 169
16. Plaintiff immediately filed a complaint with the
Archdiocese of Los Angeles.
17. One of Plaintiff’s coworkers, Ms. Bosch, told
Plaintiff that in the summer of 2014, Principal Beuder
said “I know how to get rid of older people. You cut
their hours and make them so miserable they don’t
want to be here.”
18. Plaintiff is informed and believes, and thereon
alleges, that Defendant terminated Plaintiff’s
employment because of her age.
EXHAUSTION OF ADMINISTRATIVE
REMEDIES
19. On June 2, 2015, Plaintiff filed charges with the
Equal
Employment
Opportunity
Commission
(“EEOC”). Plaintiff received a “Right-To-Sue” letter
from the EEOC on September 19, 2016. This
Complaint is timely filed pursuant to that letter.
FIRST CAUSE OF ACTION
DISCRIMINATION ON THE BASIS OF AGE
(ADEA, 29 U.S.C. § 620 et seq.)
(Against ALL Defendants)
20. Plaintiff restates and incorporates herein
paragraphs 1 through 19, inclusive, of this Complaint
as though fully set forth herein.
21. Defendant is an employer as defined in the ADEA,
29 U.S.C. § 620 et seq.
22. At all relevant times, Plaintiff was an employee
within the meaning and definition of the ADEA, 29
U.S.C. §631.

JA 170
23. As fully alleged above, at all times mentioned
herein, Plaintiff was an experienced and qualified
teacher for Defendant. At all times mentioned herein,
Plaintiff was an exemplary employee. Despite all this,
Defendant terminated Plaintiff’s employment and
gave her position to a younger and less experienced
teacher.
24. Plaintiff is informed and believes and based
thereon alleges that she was terminated from
employment with Defendant because of her age.
25. Plaintiff’s age is a substantial motivating factor for
the discrimination against Plaintiff in the terms,
conditions or privileges of employment.
26. In terminating Plaintiff’s employment, Defendant
subjected Plaintiff to discrimination on the basis of her
age in violation of the ADEA, 29 U.S.C. § 620 et seq.
27. By the aforesaid acts and omissions of Defendant,
and each of them, Plaintiff has been directly and
legally caused to suffer actual damages including, but
not limited to, loss of future earning capacity,
attorneys’ fees, costs of suit and other pecuniary loss
not presently ascertained.
28. As a direct and proximate result of Defendant’s
willful, knowing and intentional discrimination
against her, Plaintiff has further suffered and will
continue to suffer a loss of earnings and other
employment benefits and job opportunities. Plaintiff is
therefore entitled to liquidated damages in amounts to
be proven at trial. 29 U.S.C. § 216(b).
29. As a further direct and legal result of the acts and
conduct of Defendants, and each of them, as aforesaid,
Plaintiff has been caused to and did suffer and

JA 171
continues to suffer severe emotional and mental
distress, anguish, humiliation, embarrassment,
fright, shock, pain, discomfort and anxiety.
30. Plaintiff is informed and believes, and thereon
alleges, that the Defendant, and each of them, by
engaging in the aforementioned acts and/or in
authorizing and/or ratifying such acts, engaged in
willful, malicious, intentional oppressive and
despicable conduct, and acted with willful and
conscious disregard of the rights, welfare and safety of
Plaintiff, thereby justifying the award of punitive and
exemplary damages in an amount to be determined at
trial.
31. As a further, direct and proximate result of
Defendant’s violations of The ADEA, as heretofore
described, Plaintiff has been compelled to retain the
services of counsel, and has thereby incurred, and will
continue to incur, legal fees and costs. Plaintiff
requests that attorneys’ fees be awarded pursuant to
29 U.S.C. § 216(b).
SECOND CAUSE OF ACTION
RETALIATION IN VIOLATION OF THE ADEA
(Against ALL Defendants)
32. Plaintiff restates and incorporates herein
paragraphs 1 through 31, inclusive, of this complaint
as though fully set forth herein.
33. Defendant is an employer as defined in the ADEA,
29 U.S.C. § 620 et seq.
34. At all relevant times, Plaintiff was an employee
within the meaning and definition of the ADEA, 29
U.S.C. §631.

JA 172
35. At all times herein mentioned, the ADEA was in
full force and effect and was binding on Defendants.
The ADEA prohibits retaliation against any person
based on age.
36. Plaintiff is informed and believes, and thereon
alleges, that Defendant terminated Plaintiff’s
employment because of her age.
37. Defendants’ conduct as alleged above constituted
unlawful retaliation.
38. As a proximate result of the aforesaid acts of
Defendants,
Plaintiff
has
suffered
actual,
consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her
professional reputation, all in an amount subject to
proof at the time of trial.
39. As a proximate result of the wrongful acts of
Defendants, Plaintiff has suffered and continues to
suffer emotional distress, humiliation, mental anguish
and embarrassment, as well as the manifestation of
physical symptoms. Plaintiff is informed and believes
and thereupon alleges that she will continue to
experience said physical and emotional suffering for a
period in the future not presently ascertainable, all in
an amount subject to proof at the time of trial.
40. As a proximate result of the wrongful acts of
Defendants, Plaintiff has been forced to hire attorneys
to prosecute her claims herein, and has incurred and
is expected to continue to incur attorneys’ fees and
costs in connection therewith. Plaintiff is entitled to

JA 173
recover attorneys’ fees and costs under 29 U.S.C. §
216(b).
THIRD CAUSE OF ACTION
WRONGFUL TERMINATION IN VIOLATION
OF PUBLIC POLICY
(Against ALL Defendants)
41. Plaintiff realleges and incorporates herein
paragraphs 1 through 40, inclusive, of this Complaint
as though fully set forth.
42. At all times mentioned, the public policy of the
State of California, as codified, expressed and
mandated in California Government Code § 12940 et
seq., is to prohibit employers from discriminating,
harassing and retaliating against any individual
engaging in a protected activity. This public policy of
the State of California is designed to protect all
employees and to promote the welfare and wellbeing of
the community at large.
43. Accordingly, the actions of Defendant, as described
herein, were wrongful and in contravention of the
express public policy of the State of California, to wit,
the policy set forth in California and the laws and
regulations promulgated thereunder.
44. As a proximate result of the aforesaid acts of
Defendant,
Plaintiff
has
suffered
actual,
consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to his
[sic] professional reputation, all in an amount subject
to proof at the time of trial. Plaintiff claims such
amounts as damages pursuant to California Civil

JA 174
Code § 3287 and/or § 3288 and/or any other provision
of law providing for prejudgment interest.
45. As a proximate result of the wrongful acts of
Defendants, Plaintiff has suffered and continues to
suffer emotional distress, humiliation, mental anguish
and embarrassment, as well as the manifestation of
physical symptoms. Plaintiff is informed and believes
and thereupon alleges, that she will continue to
experience said physical and emotional suffering for a
period in the future not presently ascertainable, all in
an amount subject to proof at the time of trial.
46. Defendant had in place policies and procedures
that specifically required Defendant’s managers,
officers, and agents to prevent the termination of its
employees based on the protected classes identified in
the EEOC and ADEA. Plaintiff relied on the fact that
Defendant would follow these known policies, yet
Defendant consciously chose not to follow said policies.
Therefore, Defendant’s conduct was fraudulent,
malicious, oppressive, and was done in wanton
disregard for the rights of Plaintiff and the rights and
duties owed by each Defendant to Plaintiff. Each
Defendant aided, abetted, participated in, authorized,
ratified, and/or conspired to engage in the wrongful
conduct alleged above. Plaintiff should, therefore, be
awarded exemplary and punitive damages against
each Defendant in an amount to be established that is
appropriate to punish each Defendant and deter
others from engaging in such conduct.
WHEREFORE, Plaintiff prays for judgment as
follows:
1. For general damages, according to proof;

JA 175
2. For medical expenses and related items of
expenses, according to proof;
3. For loss of earnings, according to proof;
4. For attorneys’ fees, according to proof;
5. For prejudgment interest, according to proof;
6. For costs of suit incurred herein; and
7. For such other relief and the Court may deem
just and proper.
DEMAND FOR JURY TRIAL
Plaintiff hereby demands a trial by jury.
DATED: December 19, 2016
JML LAW, A Professional Law Corporation
By: /s/ Joseph M. Lovretovich
JOSEPH M. LOVRETOVICH
JARED W. BEILKE
Attorneys for Plaintiff

JA 176
LINDA MILLER SAVITT, SBN 94164

lsavitt@brgslaw.com

STEPHANIE KANTOR, SBN 272421
skantor@brgslaw.com
BALLARD ROSENBERG GOLPER & SAVITT, LLP
15760 Ventura Boulevard, Eighteenth Floor
Encino, CA 91436
Telephone: (818) 508-3700
Facsimile: (818) 506-4827
Attorneys for Defendant
OUR LADY OF GUADALUPE SCHOOL
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIRDRE
MORRISSEY-BERRU,
an individual
Plaintiff,
v.

CASE NO. 2:16-CV09353-SVW-AFM
[Assigned to Hon
Stephen V. Wilson]
DEFENDANT OUR
LADY OF
GUADALUPE
SCHOOL’S ANSWER
TO COMPLAINT

OUR LADY OF
GUADALUPE
SCHOOL, a California
non-profit corporation
and DOES 1 through
50, inclusive
Action Filed:
Defendants. December 19, 2016

Defendant OUR LADY OF GUADALUPE
SCHOOL (“Defendant”), for itself and for no other
defendants, hereby responds to the Complaint filed by
Plaintiff AGNES DEIRDRE MORRISSEY-BERRU
(“Plaintiff”), and admits, denies and alleges as follows:

JA 177
1. Answering Paragraph 1 of the Complaint,
Defendant admits that Plaintiff purports to bring an
employment lawsuit pursuant to 29 U.S.C. § 621 et.
seq. Except as expressly admitted, Defendant denies
the allegations of Paragraph 1 of the Complaint.
2. Defendant admits Paragraph 2 of the Complaint.
3. Defendant admits Paragraph 3 of the Complaint.
4. Answering Paragraph 4 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
5. Defendant denies the allegations in Paragraph 5 of
the Complaint.
6. Answering Paragraph 6 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
7. Answering Paragraph 7 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
8. Answering Paragraph 8 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
9. Defendant admits Paragraph 9 of the Complaint.
10. Defendant denies the allegations in Paragraph 10
of the Complaint.
11. Defendant denies the allegation in Paragraph 11 of
the Complaint.
12. Defendant denies the allegations in Paragraph 12
of the Complaint.
13. Defendant denies the allegations in Paragraph 13
of the Complaint.

JA 178
14. Answering Paragraph 14 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
15. Defendant denies the allegations in Paragraph 15
of the Complaint.
16. Answering Paragraph 16 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
17. Answering Paragraph 17 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
18. Defendant denies the allegations in Paragraph 18
of the Complaint[.]
19. Answering Paragraph 19 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
20. Answering Paragraph 20 of the Complaint,
Defendant incorporates by reference its previous
responses to each of the individual paragraphs as pled.
21. Answering Paragraph 21 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
22. Answering Paragraph 22 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
23. Defendant denies the allegations in Paragraph 23
of the Complaint.
24. Defendant denies the allegations in Paragraph 24
of the Complaint.

JA 179
25. Defendant denies the allegations in Paragraph 25
of the Complaint.
26. Defendant denies the allegations in Paragraph 26
of the Complaint.
27. Defendant denies the allegations in Paragraph 27
of the Complaint.
28. Defendant denies the allegations in Paragraph 28
of the Complaint.
29. Defendant denies the allegations in Paragraph 29
of the Complaint.
30. Defendant denies the allegations in Paragraph 30
of the Complaint.
31. Defendant denies the allegations in Paragraph 31
of the Complaint.
32. Answering Paragraph 32 of the Complaint,
Defendant incorporates by reference its previous
responses to each of the individual paragraphs as pled.
33. Answering Paragraph 33 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
34. Answering Paragraph 34 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
35. Answering Paragraph 35 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.

JA 180
36. Defendant denies the allegations in Paragraph 36
of the Complaint.
37. Defendant denies the allegations in Paragraph 37
of the Complaint.
38. Defendant denies the allegations in Paragraph 38
of the Complaint.
39. Defendant denies the allegations in Paragraph 39
of the Complaint.
40. Defendant denies the allegations in Paragraph 40
of the Complaint.
41. Answering Paragraph 41 of the Complaint,
Defendant incorporates by reference its previous
responses to each of the individual paragraphs as pled.
42. Answering Paragraph 42 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
43. Defendant denies the allegations in Paragraph 43
of the Complaint.
44. Defendant denies the allegations in Paragraph 44
of the Complaint.
45. Defendant denies the allegations in Paragraph 45
of the Complaint.
46. Answering Paragraph 46 of the Complaint,
Defendant admits that it had policies and procedures
in place regarding discrimination prevention. Except
as expressly admitted, Defendant denies the
allegations of Paragraph 46 of the Complaint.
47. In response to the prayer for judgment,
paragraphs 1-7, Defendant denies generally and

JA 181
specifically that Plaintiff is entitled to any damages or
relief of any kind.
FIRST AFFIRMATIVE DEFENSE
[Failure to State Facts]
1. The Complaint fails to state facts sufficient to
constitute a cause of action or claim upon which relief
can be granted against this answering Defendant.
SECOND AFFIRMATIVE DEFENSE
[Good Faith Legitimate,
Non-Discriminatory Reasons]
2. All actions purportedly taken by Defendant with
respect to Plaintiff were taken in good faith for
legitimate, non-discriminatory reasons without any
intent to discriminate or commit any other act against
Plaintiff in any manner prohibited by any law or
public policy.
THIRD AFFIRMATIVE DEFENSE
[Failure to Exhaust Administrative Remedy]
3. Defendant is informed and believes that Complaint
is barred, in whole or in part, by Plaintiff’s failure to
comply
with
or
exhaust
her
prerequisite
administrative and/or judicial remedies.
FOURTH AFFIRMATIVE DEFENSE
[Statute of Limitations]
4. Defendant is informed and believes the Complaint
may be barred, in whole or in part, by the applicable
statutes of limitations.

JA 182
FIFTH AFFIRMATIVE DEFENSE
[Workers’ Compensation Act
Preemption/Exclusive Remedy]
5. To the extent that the Complaint alleges emotional
and/or physical injury, recovery is barred on the
ground that the California Workers’ Compensation
Act, Cal. Labor Code § 3200, et seq., provides the
exclusive remedy for such injuries.
SIXTH AFFIRMATIVE DEFENSE
[Failure to Mitigate]
6. Any recovery on the Complaint is barred by
Plaintiff’s failure to mitigate her damages.
SEVENTH AFFIRMATIVE DEFENSE
[Laches]
7. Any recovery on the Complaint is barred by the
doctrine of laches.
EIGHTH AFFIRMATIVE DEFENSE
[Contributory Fault]
8. Any recovery on the Complaint is barred by
Plaintiff’s own contributory and/or comparative fault
and if Plaintiff recovers any sum or sums whatsoever
herein, such amount(s) should and must be reduced in
proportion to the extent of Plaintiff’s own conduct
which proximately caused in whole or in part,
Plaintiff’s claimed injuries and damages.
NINTH AFFIRMATIVE DEFENSE
[Punitive Damages Unconstitutional]
9. Plaintiff is not entitled to recover punitive damages
as an award of punitive damages would violate
Defendant’s rights under the Constitutions of the
United States and the State of California, including

JA 183
their rights to procedural and substantive due process,
and protection from excessive fines.
TENTH AFFIRMATIVE DEFENSE
[Estoppel]
10. Plaintiff is estopped by her conduct from recovering
any relief under the Complaint.
ELEVENTH AFFIRMATIVE DEFENSE
[No Malice, Oppression, or Fraud]
11. Any acts, or omissions to act, by Defendant were
not the result of oppression, fraud or malice as such
terms are defined by Cal. Civil Code § 3294.
TWELFTH AFFIRMATIVE DEFENSE
[Unclean Hands]
12. Any recovery on the Complaint is barred, in whole
or in part, by Plaintiff’s unclean hands.
THIRTEENTH AFFIRMATIVE DEFENSE
[Percentage of Fault]
13. Liability for the amount of non-economic damages,
if any, should be allocated to Defendant in direct
proportion to its percentage of fault, if any, pursuant
to Civil Code § 1431 et. seq.
FOURTEENTH AFFIRMATIVE DEFENSE
[Damages Caused by Plaintiff’s Own Conduct]
14. Damages, if any, sustained by Plaintiff were solely
proximately caused by her own negligent, reckless, or
intentional conduct.
FIFTEENTH AFFIRMATIVE DEFENSE
[Justification/Privilege]
15. Without admitting that Defendant engaged in the
conduct alleged in this lawsuit, Defendant contends
that its purported conduct was at all times justified,

JA 184
privileged, and undertaken in good faith, or with a
good faith belief that good cause existed for any of the
disputed contact or actions, and without any intent to
injure Plaintiff.
SIXTEENTH AFFIRMATIVE DEFENSE
[No Impermissible Factors]
16. Defendant denies that Plaintiff’s age or any other
impermissible factor played any role in any purported
decisions relating to Plaintiff. Alternatively, even if
some impermissible motive had been a factor in any of
those decisions, the same decisions would have been
reached for legitimate, non-discriminatory reasons.
SEVENTEENTH AFFIRMATIVE DEFENSE
[After Acquired Evidence]
17. Defendant alleges that this action may be barred
and/or Defendant’s liability may be limited by after
acquired evidence of Plaintiff’s conduct or misconduct.
EIGHTEENTH AFFIRMATIVE DEFENSE
[Avoidable Consequences]
18. Defendant alleges that Plaintiff’s damages could
have been reduced, in whole or in part, by her failure
to avoid the consequences of alleged discrimination by
using the preventive and corrective measures provided
by Defendant.
NINETEENTH AFFIRMATIVE DEFENSE
[Consent]
19. Defendant is informed and believes that Plaintiff
consented to the conduct alleged in the Complaint.

JA 185
TWENTIETH AFFIRMATIVE DEFENSE
[Allege Other Affirmative Defenses]
20. Defendant reserves its right to allege other
affirmative defenses as they may arise during the
course of discovery.
WHEREFORE, Defendant prays that:
1. Plaintiff take nothing by way of her Complaint;
2. That judgment be entered in favor of
Defendant;
3. Defendant be awarded attorneys’ fees and costs
of suit incurred herein; and
4. For such other and further relief as the court
deems just and proper.
DATED: February 13, 2017
BALLARD ROSENBERG GOLPER & SAVITT, LLP
By: /s/ Linda Miller Savitt
Linda Miller Savitt
Stephanie B. Kantor
Attorneys for Defendant
OUR LADY OF
GUADALUPE SCHOOL
*

*

*

JA 186
LINDA MILLER SAVITT, SBN 94164

lsavitt@brgslaw.com

STEPHANIE KANTOR, SBN 272421
skantor@brgslaw.com
BALLARD ROSENBERG GOLPER & SAVITT, LLP
15760 Ventura Boulevard, Eighteenth Floor
Encino, CA 91436
Telephone: (818) 508-3700
Facsimile: (818) 506-4827
Attorneys for Defendant
OUR LADY OF GUADALUPE SCHOOL
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
AGNES DEIRDRE
MORRISSEY-BERRU,
an individual
Plaintiff,
v.
OUR LADY OF
GUADALUPE
SCHOOL, a California
non-profit corporation
and DOES 1 through
50, inclusive
Defendants.

CASE NO. 2:16-CV09353-SVW-AFM
[Assigned to Hon
Stephen V. Wilson]
DEFENDANT OUR
LADY OF
GUADALUPE
SCHOOL’S
AMENDED ANSWER
TO COMPLAINT
Action Filed: December
19, 2016

Defendant OUR LADY OF GUADALUPE
SCHOOL (“Defendant”), for itself and for no other
defendants, hereby responds to the Complaint filed by
Plaintiff AGNES DEIRDRE MORRISSEY-BERRU
(“Plaintiff”), and admits, denies and alleges as follows:

JA 187
1. Answering Paragraph 1 of the Complaint,
Defendant admits that Plaintiff purports to bring an
employment lawsuit pursuant to 29 U.S.C. § 621 et.
seq. Except as expressly admitted, Defendant denies
the allegations of Paragraph 1 of the Complaint.
2. Defendant admits Paragraph 2 of the Complaint.
3. Defendant admits Paragraph 3 of the Complaint.
4. Answering Paragraph 4 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
5. Defendant denies the allegations in Paragraph 5 of
the Complaint.
6. Answering Paragraph 6 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
7. Answering Paragraph 7 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
8. Answering Paragraph 8 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
9. Defendant admits Paragraph 9 of the Complaint.
10. Defendant denies the allegations in Paragraph 10
of the Complaint.
11. Defendant denies the allegation in Paragraph 11
of the Complaint.
12. Defendant denies the allegations in Paragraph 12
of the Complaint.
13. Defendant denies the allegations in Paragraph 13
of the Complaint.

JA 188
14. Answering Paragraph 14 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
15. Defendant denies the allegations in Paragraph 15
of the Complaint.
16. Answering Paragraph 16 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
17. Answering Paragraph 17 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
18. Defendant denies the allegations in Paragraph 18
of the Complaint,
19. Answering Paragraph 19 of the Complaint,
Defendant lacks information sufficient to admit or
deny the allegations contained therein.
20. Answering Paragraph 20 of the Complaint,
Defendant incorporates by reference its previous
responses to each of the individual paragraphs as pled.
21. Answering Paragraph 21 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
22. Answering Paragraph 22 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
23. Defendant denies the allegations in Paragraph 23
of the Complaint.
24. Defendant denies the allegations in Paragraph 24
of the Complaint.

JA 189
25. Defendant denies the allegations in Paragraph 25
of the Complaint.
26. Defendant denies the allegations in Paragraph 26
of the Complaint.
27. Defendant denies the allegations in Paragraph 27
of the Complaint.
28. Defendant denies the allegations in Paragraph 28
of the Complaint.
29. Defendant denies the allegations in Paragraph 29
of the Complaint.
30. Defendant denies the allegations in Paragraph 30
of the Complaint.
31. Defendant denies the allegations in Paragraph 31
of the Complaint.
32. Answering Paragraph 32 of the Complaint,
Defendant incorporates by reference its previous
responses to each of the individual paragraphs as pled.
33. Answering Paragraph 33 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
34. Answering Paragraph 34 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
35. Answering Paragraph 35 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.

JA 190
36. Defendant denies the allegations in Paragraph 36
of the Complaint.
37. Defendant denies the allegations in Paragraph 37
of the Complaint.
38. Defendant denies the allegations in Paragraph 38
of the Complaint.
39. Defendant denies the allegations in Paragraph 39
of the Complaint.
40. Defendant denies the allegations in Paragraph 40
of the Complaint.
41. Answering Paragraph 41 of the Complaint,
Defendant incorporates by reference its previous
responses to each of the individual paragraphs as pled.
42. Answering Paragraph 42 of the Complaint, to the
extent this paragraph does not contain allegations of
fact, but rather, contains conclusions of law, no answer
is required.
43. Defendant denies the allegations in Paragraph 43
of the Complaint.
44. Defendant denies the allegations in Paragraph 44
of the Complaint.
45. Defendant denies the allegations in Paragraph 45
of the Complaint.
46. Answering Paragraph 46 of the Complaint,
Defendant admits that it had policies and procedures
in place regarding discrimination protection. Except
as expressly admitted, Defendant denies the
allegations of Paragraph 46 of the Complaint.
47. In response to the prayer for judgment, paragraphs
1-7, Defendant denies generally and specifically that

JA 191
Plaintiff is entitled to any damages or relief of any
kind.
FIRST AFFIRMATIVE DEFENSE
[Failure to State Facts]
1. The Complaint fails to state facts sufficient to
constitute a cause of action or claim upon which relief
can be granted against this answering Defendant.
SECOND AFFIRMATIVE DEFENSE
[Good Faith Legitimate, Non-Discriminatory
Reasons]
2. All actions purportedly taken by Defendant with
respect to Plaintiff were taken in good faith for
legitimate, non-discriminatory reasons without any
intent to discriminate or commit any other act against
Plaintiff in any manner prohibited by any law or
public policy.
THIRD AFFIRMATIVE DEFENSE
[Failure to Exhaust Administrative Remedy]
3. Defendant is informed and believes that Complaint
is barred, in whole or in part, by Plaintiff’s failure to
comply
with
or
exhaust
her
prerequisite
administrative and/or judicial remedies.
FOURTH AFFIRMATIVE DEFENSE
[Statute of Limitations]
4. Defendant is informed and believes the Complaint
may be barred, in whole or in part, by the applicable
statutes of limitations.

JA 192
FIFTH AFFIRMATIVE DEFENSE
[Workers’ Compensation Act
Preemption/Exclusive Remedy]
5. To the extent that the Complaint alleges emotional
and/or physical injury, recovery is barred on the
ground that the California Workers’ Compensation
Act, Cal. Labor Code § 3200, et seq., provides the
exclusive remedy for such injuries.
SIXTH AFFIRMATIVE DEFENSE
[Failure to Mitigate]
6. Any recovery on the Complaint is barred by
Plaintiff’s failure to mitigate her damages.
SEVENTH AFFIRMATIVE DEFENSE
[Laches]
7. Any recovery on the Complaint is barred by the
doctrine of laches.
EIGHTH AFFIRMATIVE DEFENSE
[Contributory Fault]
8. Any recovery on the Complaint is barred by
Plaintiff’s own contributory and/or comparative fault
and if Plaintiff recovers any sum or sums whatsoever
herein, such amount(s) should and must be reduced in
proportion to the extent of Plaintiff’s own conduct
which proximately caused in whole or in part,
Plaintiff’s claimed injuries and damages.
NINTH AFFIRMATIVE DEFENSE
[Punitive Damages Unconstitutional]
9. Plaintiff is not entitled to recover punitive damages
as an award of punitive damages would violate
Defendant’s rights under the Constitutions of the
United States and the State of California, including

JA 193
their rights to procedural and substantive due process,
and protection from excessive fines.
TENTH AFFIRMATIVE DEFENSE
[Estoppel]
10. Plaintiff is estopped by her conduct from
recovering any relief under the Complaint.
ELEVENTH AFFIRMATIVE DEFENSE
[No Malice, Oppression, or Fraud]
11. Any acts, or omissions to act, by Defendant were
not the result of oppression, fraud or malice as such
terms are defined by Cal. Civil Code § 3294.
TWELFTH AFFIRMATIVE DEFENSE
[Unclean Hands]
12. Any recovery on the Complaint is barred, in whole
or in part, by Plaintiff’s unclean hands.
THIRTEENTH AFFIRMATIVE DEFENSE
[Percentage of Fault]
13. Liability for the amount of non-economic damages,
if any, should be allocated to Defendant in direct
proportion to its percentage of fault, if any, pursuant
to Civil Code § 1431 et. seq.
FOURTEENTH AFFIRMATIVE DEFENSE
[Damages Caused by Plaintiff’s Own Conduct]
14. Damages, if any, sustained by Plaintiff were solely
and proximately caused by her own negligent,
reckless, or intentional conduct.
FIFTEENTH AFFIRMATIVE DEFENSE
[Justification/Privilege]
15. Without admitting that Defendant engaged in the
conduct alleged in this lawsuit, Defendant contends

JA 194
that its purported conduct was at all times justified,
privileged, and undertaken in good faith, or with a
good faith belief that good cause existed for any of the
disputed contact or actions, and without any intent to
injure Plaintiff.
SIXTEENTH AFFIRMATIVE DEFENSE
[No Impermissible Factors]
16. Defendant denies that Plaintiff’s age or any other
impermissible factor played any role in any purported
decisions relating to Plaintiff. Alternatively, even if
some impermissible motive had been a factor in any of
those decisions, the same decisions would have been
reached for legitimate, non-discriminatory reasons.
SEVENTEENTH AFFIRMATIVE DEFENSE
[After Acquired Evidence]
17. Defendant alleges that this action may be barred
and/or Defendant’s liability may be limited by after
acquired evidence of Plaintiff’s conduct or misconduct.
EIGHTEENTH AFFIRMATIVE DEFENSE
[Avoidable Consequences]
18. Defendant alleges that Plaintiff’s damages could
have been reduced, in whole or in part, by her failure
to avoid the consequences of alleged discrimination by
using the preventive and corrective measures provided
by Defendant.
NINETEENTH AFFIRMATIVE DEFENSE
[Consent]
19. Defendant is informed and believes that Plaintiff
consented to the conduct alleged in the Complaint.

JA 195
TWENTIETH AFFIRMATIVE DEFENSE
[Allege Other Affirmative Defenses]
20. Defendant reserves its right to allege other
affirmative defenses as they may arise during the
course of discovery.
TWENTY-FIRST AFFIRMATIVE DEFENSE
[No Cause of Action]
21. Plaintiff’s wrongful termination cause of action is
barred because there exists no cause of action for
tortious non-renewal of contract.
TWENTY-SECOND AFFIRMATIVE DEFENSE
[Ministerial Exception]
22. Plaintiff’s operative complaint, and each cause of
action therein, is barred in its entirety based on the
ministerial exception as outlined in Hosanna-Tabor
Evangelical Lutheran Church & Sch. v. EEOC, 565
U.S. 171 (U.S. 2012) and other cases.
TWENTY-THIRD AFFIRMATIVE DEFENSE
[First Amendment to the United States
Constitution]
23. Plaintiff’s operative complaint, and each cause of
action therein, is barred in its entirety based on the
Free Exercise of Religion and Establishment Clauses
contained in the First Amendment to the United
States Constitution.
WHEREFORE, Defendant prays that:
1. Plaintiff take nothing by way of her Complaint;
2. That judgment be entered in favor of Defendant;
3. Defendant be awarded attorneys’ fees and costs
of suit incurred herein; and

JA 196
4. For such other and further relief as the court
deems just and proper.
DATED: March 17, 2017
BALLARD ROSENBERG GOLPER & SAVITT, LLP
By: /s/ Linda Miller Savitt
Linda Miller Savitt
Stephanie B. Kantor
Attorneys for Defendant
OUR LADY OF
GUADALUPE SCHOOL
*

*

*

JA 197
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________
No. 17-55180
__________
Darryl Biel, in his capacity as Kristen Biel’s personal
representative
Plaintiff-Appellant,
v.
St. James School
Defendant-Appellee.
__________
RELEVANT DOCKET ENTRIES
Date Filed

#

Docket Text

02/13/2017

1

DOCKETED CAUSE AND
ENTERED APPEARANCES OF COUNSEL.
SEND MQ: Yes. The schedule is set as follows: Mediation Questionnaire due on
02/21/2017. Appellant Kristen Biel opening brief due
07/20/2017. Appellees Does,
St. James Catholic School
and St. James School, A
Corp. answering brief due
08/21/2017. Appellant's optional reply brief is due 14
days after service of the answering brief. [10316854]
(JMR) [Entered: 02/13/2017

JA 198
Date Filed

09/20/2017

09/20/2017

09/27/2017

#

Docket Text

10:42 AM]
*
*
*
20 Submitted (ECF) Opening
Brief for review. Submitted
by Appellant Kristen Biel.
Date of service:
09/20/2017. [10588407] [1755180]-[COURT UPDATE:
Attached corrected brief.
09/25/2017 by SLM]
(Lovretovich, Joseph) [Entered: 09/20/2017 04:46 PM]
21 09/20/2017 Submitted
(ECF) excerpts of record.
Submitted by Appellant
Kristen Biel. Date of service: 09/20/2017.
[10588412] [17-55180][COURT UPDATE: Attached corrected PDF of excerpts, Vol 3-5. 10/03/2017
by RY] (Lovretovich, Joseph) [Entered: 09/20/2017
04:48 PM]
*
*
*
25 Submitted (ECF) Amicus
brief for review (by government or with consent per
FRAP 29(a)). Submitted by
Equal Employment Opportunity Commission. Date of
service: 09/27/2017.

JA 199
Date Filed

12/20/2017

12/20/2017

#

Docket Text

[10596481] [17-55180] (Oxford, Susan) [Entered:
09/27/2017 01:35 PM]
*
*
*
36 Submitted (ECF) Answering Brief for review. Submitted by Appellee St.
James Catholic School.
Date of service: 12/20/2017.
[10697963] [17-55180][COURT UPDATE: Attached corrected PDF of
brief. 12/21/2017 by RY]
(Fermin, Veronica) [Entered: 12/20/2017 02:52 PM]
37 Submitted (ECF) supplemental excerpts of record.
Submitted by Appellee St.
James Catholic School.
Date of service: 12/20/2017.
[10698096] [17-55180][COURT UPDATE: Attached corrected PDFs of
excerpts. 12/21/2017 by RY]
(Fermin, Veronica) [Entered: 12/20/2017 03:22 PM]
*
*
*

JA 200
Date Filed

#

02/09/2018

43

03/01/2018

Docket Text

Submitted (ECF) Reply
Brief for review. Submitted
by Appellant Kristen Biel.
Date of service: 02/09/2018.
[10759015] [17-55180][COURT UPDATE: Attached corrected brief.
02/12/2018 by SLM] (Lovretovich, Joseph) [Entered:
02/09/2018 08:27 PM]
*
*
*
48 Filed (ECF) Appellee St.
James Catholic School citation of supplemental authorities. Date of service:
03/01/2018. [10782658] [1755180]-[COURT UPDATE:
Attached corrected citation.
3/2/2018 by TYL] (Fermin,
Veronica) [Entered:
03/01/2018 11:52 AM]
*
*
*

JA 201
Date Filed

#

05/08/2018

53

05/10/2018

Docket Text

Filed (ECF) Amicus Curiae
EEOC Unopposed Motion
for miscellaneous relief
[Motion of Amicus Curiae
EEOC for leave to participate in oral argument on 5
minutes of time ceded by
the plaintiff.]. Date of service: 05/08/2018.
[10866122] [17-55180] (Oxford, Susan) [Entered:
05/08/2018 04:29 PM]
*
*
*
56 Filed clerk order (Deputy
Clerk: OC): The unopposed
motion of amicus curiae
Equal Employment Opportunity Commission to participate in oral argument,
Dkt. [53], is GRANTED.
The EEOC shall be allotted
five minutes of Plaintiff-Appellant’s oral argument
time. [10867951] (OC) [Entered: 05/10/2018 09:31
AM]
*
*
*

JA 202
Date Filed

#

Docket Text

07/05/2018

66

07/11/2018

67

07/12/2018

68

09/07/2018

69

Filed (ECF) Amicus Curiae
EEOC citation of supplemental authorities. Date of
service: 07/05/2018.
[10931618] [17-55180] (Oxford, Susan) [Entered:
07/05/2018 07:50 AM]
ARGUED AND SUBMITTED TO D. MICHAEL
FISHER, PAUL J. WATFORD and MICHELLE T.
FRIEDLAND. [10938612]
(Witt, Dusty) [Entered:
07/11/2018 01:49 PM]
Filed Audio recording of
oral argument. Note: Video
recordings of public argument calendars are available on the Court's website,
at
http://www.ca9.uscourts.go
v/media/ [10940302] (Witt,
Dusty) [Entered:
07/12/2018 02:39 PM]
Filed (ECF) Appellee St.
James Catholic School citation of supplemental authorities. Date of service:
09/07/2018. [11004431] [1755180] (Fermin, Veronica)
[Entered: 09/07/2018 12:41
PM]

JA 203
Date Filed

#

09/11/2018

70

12/17/2018

Docket Text

Filed (ECF) Appellant Kristen Biel citation of supplemental authorities. Date of
service: 09/11/2018.
[11008091] [17-55180][COURT UPDATE: Attached searchable version
of citation of supplemental
authorities. 09/11/2018 by
SLM] (Lovretovich, Joseph)
[Entered: 09/11/2018 04:07
PM]
71 FILED OPINION (D. MICHAEL FISHER, PAUL J.
WATFORD and
MICHELLE T. FRIEDLAND) REVERSED AND
REMANDED. Judge: DMF
Dissenting, Judge: MTF
Authoring. FILED AND
ENTERED JUDGMENT.
[11121871]-[Edited: Typo
corrected. 12/20/2018 by
TYL] (RMM) [Entered:
12/17/2018 09:11 AM]
*
*
*

JA 204
Date Filed
01/22/2019

01/31/2019

#

Docket Text

83

Filed (ECF) Appellee St.
James Catholic School petition for panel rehearing
and petition for rehearing
en banc (from 12/17/2018
opinion). Date of service:
01/22/2019. [11161874] [1755180] (Rassbach, Eric)
[Entered: 01/22/2019 03:06
PM]
Submitted (ECF) Amicus
brief for review and filed
Motion to become amicus
curiae. Submitted by Stephen Wise Temple. Date of
service: 01/31/2019.
[11174598] [17-55180][COURT UPDATE: Attached separate PDF files
of brief and motion.
01/31/2019 by RY] (McIntosh, Jacob) [Entered:
01/31/2019 01:40 PM]

84

JA 205
Date Filed

#

01/31/2019

85

02/01/2019

Docket Text

Submitted (ECF) Amicus
brief for review and filed
Motion to become amicus
curiae. Submitted by Douglas Laycock, Michael W.
McConnell, Thomas C.
Berg, Robert F. Cochran,
Jr., Carl H. Esbeck, Richard W. Garnett, Paul Horwitz, and John D. Inazu.
Date of service: 01/31/2019.
[11174795] [17-55180][COURT UPDATE: Attached separate PDF files
of brief and motion.
01/31/2019 by RY] (Dorfman, Victoria) [Entered:
01/31/2019 02:38 PM]
*
*
*
88 Submitted (ECF) Amicus
brief for review and filed
Motion to become amicus
curiae. Submitted by National Catholic Educational
Association. Date of service:
02/01/2019. [11175682] [1755180] (Haun, William)
[Entered: 02/01/2019 10:30
AM]

JA 206
Date Filed

#

02/01/2019

89

02/01/2019

Docket Text

Submitted (ECF) Amicus
brief for review and filed
Motion to become amicus
curiae. Submitted by General Conference of Seventhday Adventists, International Society for Krishna
Consciousness, Inc., Jewish
Coalition for Religious Liberty, and Shaykh Hamza
Yusuf. Date of service:
02/01/2019. [11175707] [1755180] (McArthur, Eric)
[Entered: 02/01/2019 10:43
AM]
*
*
*
98 Submitted (ECF) Amicus
brief for review and filed
Motion to become amicus
curiae. Submitted by
Church of God in Christ,
Inc.; Union of Orthodox
Jewish Congregations of
America. Date of service:
02/01/2019. [11176621][COURT ENTERED FILING to correct entry [94].]
(RY) [Entered: 02/01/2019
03:30 PM]
*
*
*

JA 207
Date Filed

#

Docket Text

02/26/2019

106

03/19/2019

107

Filed order (D. MICHAEL
FISHER, PAUL J. WATFORD and MICHELLE T.
FRIEDLAND) Appellant
Kristin Biel is directed to
file a response to the petition for rehearing and rehearing en banc within 21
days of the date of this order. The response shall not
exceed 15 pages in length
unless it complies with the
alternative length limitation of 4,200 words. 9th Cir.
R. 40-1. [11207553] (OC)
[Entered: 02/26/2019 09:49
AM]
Filed (ECF) Appellant Kristen Biel response to Combo
PFR Panel and En Banc
(ECF Filing), Combo PFR
Panel and En Banc (ECF
Filing) for panel and en
banc rehearing, for panel
and en banc rehearing (statistical entry). Date of service: 03/19/2019.
[11234859]. [17-55180]
(Pletcher, Andrew) [Entered: 03/19/2019 10:53 PM]

JA 208
Date Filed

#

Docket Text

05/31/2019

108

06/04/2019

109

Filed (ECF) Appellee St.
James Catholic School citation of supplemental authorities. Date of service:
05/31/2019. [11315995] [1755180] (Rassbach, Eric)
[Entered: 05/31/2019 03:40
PM]
Filed (ECF) Appellant Kristen Biel citation of supplemental authorities. Date of
service: 06/04/2019.
[11319566] [17-55180]
(Pletcher, Andrew) [Entered: 06/04/2019 03:19 PM]

JA 209
Date Filed

#

Docket Text

06/25/2019

110

Filed Order for PUBLICATION (D. MICHAEL
FISHER, PAUL J. WATFORD and MICHELLE T.
FRIEDLAND) (Dissent by
Judge R. Nelson) The panel
has voted unanimously to
deny the petition for panel
rehearing. Judge Fisher
recommends granting the
petition for rehearing en
banc. The full court has
been advised of the petition
for rehearing en banc. A
judge of the court requested
a vote on en banc rehearing. The matter failed to receive a majority of votes of
non-recused active judges
in favor of en banc consideration. Fed. R. App. P. 35(f).
The petition for rehearing
and the petition for rehearing en banc are DENIED.
[11343159]-[Edited: Attached corrected order (typo
corrected). 06/25/2019 by
TYL]-[Edited: Replaced
PDF of order (paragraph
edit). 08/09/2019 by RY]
(AKM) [Entered:
06/25/2019 08:16 AM]

JA 210
Date Filed

#

06/25/2019

111

07/02/2019

07/03/2019

07/05/2019

09/18/2019

Docket Text

Filed (ECF) Appellee St.
James Catholic School Correspondence: FRAP 43(a)(1)
Suggestion of Death. Date
of service: 06/25/2019
[11343730] [17-55180]
(Rassbach, Eric) [Entered:
06/25/2019 12:12 PM]
112 Filed (ECF) Appellant Kristen Biel Motion to substitute party. Date of service:
07/02/2019. [11352373] [1755180] (Lovretovich, Joseph) [Entered: 07/02/2019
02:00 PM]
113 Filed text clerk order (Deputy Clerk: OC): The motion
to substitute, is granted.
[11354288] (OC) [Entered:
07/03/2019 03:56 PM]
*
*
*
115 MANDATE ISSUED.(DMF,
PJW and MTF) Costs taxed
against Appellees in the
amount of $472.50.
[11354884] (QDL) [Entered:
07/05/2019 10:43 AM]
116 Supreme Court Case Info
Case number: 19-348; Filed
on: 09/16/2019; Cert Petition Action 1: Pending;
[11436050] (JFF) [Entered:
09/18/2019 02:07 PM]

JA 211
Date Filed

#

Docket Text

12/18/2019

117

Supreme Court Case Info
Case number: 19-348; Filed
on: 09/16/2019; Cert Petition Action 1: Granted,
12/18/2019; [11537625]
(RR) [Entered: 12/18/2019
03:45 PM]

JA 212
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
__________
No. 2:15-cv-4248
__________
Kristen Biel
Plaintiff,

v.
St. James School, et al.

Defendants.
__________
RELEVANT DOCKET ENTRIES
Date Filed

#

Docket Text

06/05/2015

1

COMPLAINT Receipt No:
0973-15851026 - Fee: $400,
filed by plaintiff Kristen Biel.
(Attorney Joseph M Lovretovich added to party Kristen
Biel(pty:pla))(Lovretovich, Joseph) (Entered: 06/05/2015)
*

07/22/2015

11

*

*

ANSWER to Complaint (Attorney Civil Case Opening) 1
JURY DEMAND. filed by Defendant St. James School, A
Corp..(Attorney Daniel R Sullivan added to party St.
James School, A Corp.
(pty:dft)) (Sullivan, Daniel)
(Entered: 07/22/2015)

JA 213
Date Filed

#

Docket Text
*

10/30/2015

17

20

*

STIPULATION to AMEND
Complaint (Attorney Civil
Case Opening) 1 filed by
plaintiff Kristen Biel. (Attachments: # 1 Exhibit Exhibit A FAC, # 2 Proposed Order)
(Lovretovich, Joseph) (Entered: 10/30/2015)
*

11/10/2015

*

*

*

ORDER by Judge Terry J.
Hatter, Jr, re Stipulation to
Amend Complaint 17 . Plaintiff is granted leave to file the
Proposed First Amended
Complaint. The First
Amended Complaint shall be
filed within 10 days from the
date of this Order. Defendants
previously filed Answer shall
be deemed the Answer to
Plaintiffs First Amended
Complaint. (shb) (Entered:
11/10/2015)

JA 214
Date Filed

#

11/12/2015

21

Docket Text
FIRST AMENDED COMPLAINT against Defendant
St. James School, A Corp.
amending Complaint (Attorney Civil Case Opening) 1,
filed by plaintiff Kristen Biel
(Lovretovich, Joseph) (Entered: 11/12/2015)
*

09/06/2016

64

10/06/2016

65

*

*

FINAL PRETRIAL CONFERENCE ORDER GRANTING
IN PART by Judge Terry J.
Hatter, Jr (shb) (Entered:
09/06/2016)
NOTICE OF MOTION AND
MOTION for Summary Judgment as to Plaintiffs First
through Sixth Causes of Action filed by defendant St.
James Catholic School. Motion set for hearing on
11/7/2016 at 08:30 AM before
Judge Terry J. Hatter Jr. (Attachments: # 1 Proposed Order, # 2 Proposed Judgment)
(Fermin, Veronica) (Entered:
10/06/2016)

JA 215
Date Filed

#

Docket Text

10/06/2016

66

10/06/2016

67

STATEMENT of Separate
Statement of Uncontroverted
Facts and Conclusions of Law
NOTICE OF MOTION AND
MOTION for Summary Judgment as to Plaintiffs First
through Sixth Causes of Action 65 filed by Defendant St.
James Catholic School. (Fermin, Veronica) (Entered:
10/06/2016)
DECLARATION of Veronica
Fermin in support of NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Plaintiffs First through Sixth
Causes of Action 65 filed by
Defendant St. James Catholic
School. (Attachments: # 1 Exhibit A (Part I), # 2 Exhibit A
(Part II), # 3 Exhibit B (Part
I), # 4 Exhibit B (Part II), # 5
Exhibit C (Part I), # 6 Exhibit
C (Part II), # 7 Exhibit D, # 8
Exhibit E, # 9 Exhibit F, # 10
Exhibit G)(Fermin, Veronica)
(Entered: 10/06/2016)
*

*

*

JA 216
Date Filed

#

Docket Text

10/17/2016

71

10/17/2016

72

10/17/2016

73

MEMORANDUM in Opposition to NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 filed by Plaintiff
Kristen Biel. (Lovretovich, Joseph) (Entered: 10/17/2016)
REQUEST FOR JUDICIAL
NOTICE re NOTICE OF MOTION AND MOTION for
Summary Judgment as to
Plaintiffs First through Sixth
Causes of Action 65 Opposition filed by Plaintiff Kristen
Biel. (Lovretovich, Joseph)
(Entered: 10/17/2016)
STATEMENT of Controverted
and Uncontroverted Facts
NOTICE OF MOTION AND
MOTION for Summary Judgment as to Plaintiffs First
through Sixth Causes of Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)

JA 217
Date Filed

#

Docket Text

10/17/2016

74

10/17/2016

75

10/17/2016

76

PLAINTIFF'S COMPENDIUM OF EVIDENCE 1 OF 4
re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)
PLAINTIFF'S COMPENDIUM OF EVIDENCE 3 OF 4
re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)
PLAINTIFF'S COMPENDIUM OF EVIDENCE 4 OF 4
re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)

JA 218
Date Filed

#

Docket Text

10/17/2016

77

10/17/2016

78

10/17/2016

79

PLAINTIFF'S COMPENDIUM OF EVIDENCE 2a OF
4 re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)
PLAINTIFF'S COMPENDIUM OF EVIDENCE 2b OF
4 re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)
PLAINTIFF'S COMPENDIUM OF EVIDENCE 2c OF
4 re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)

JA 219
Date Filed

#

Docket Text

10/17/2016

80

10/17/2016

81

PLAINTIFF'S COMPENDIUM OF EVIDENCE 2d OF
4 re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)
PLAINTIFF'S COMPENDIUM OF EVIDENCE 2e OF
4 re NOTICE OF MOTION
AND MOTION for Summary
Judgment as to Plaintiffs
First through Sixth Causes of
Action 65 Opposition filed by
Plaintiff Kristen Biel. (Lovretovich, Joseph) (Entered:
10/17/2016)
*

10/24/2016

83

*

*

REPLY in support of NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Plaintiffs First through Sixth
Causes of Action 65 filed by
Defendant St. James Catholic
School. (Fermin, Veronica)
(Entered: 10/24/2016)

JA 220
Date Filed

#

Docket Text

10/24/2016

84

10/24/2016

85

NOTICE OF LODGING filed
Defendant's Response re
Statement (Motion related) 73
(Attachments: # 1 Defendant's
Response to Plaintiffs Separate Statement of Uncontroverted and Controverted
Facts and Conclusions of Law
in support of Her Opposition
to Defendants Motion for
Summary Judgment)(Fermin,
Veronica) (Entered:
10/24/2016)
DECLARATION of Veronica
Fermin in support of NOTICE
OF MOTION AND MOTION
for Summary Judgment as to
Plaintiffs First through Sixth
Causes of Action 65 Reply
Brief filed by Defendant St.
James Catholic School. (Attachments: # 1 Exhibit Exhibit A, # 2 Exhibit Exhibit B,
# 3 Exhibit Exhibit C, # 4 Exhibit Exhibit D)(Fermin, Veronica) (Entered: 10/24/2016)
*

10/26/2016

89

*

*

CORRECTED re: Memorandum of Contentions of Fact
and Law 41 (Fermin, Veronica) (Entered: 10/26/2016)

JA 221
Date Filed

#

Docket Text
*

01/17/2017

96

01/20/2017

97

*

*

ORDER AND JUDGMENT by
Judge Terry J. Hatter, Jr:
GRANTING 65 MOTION for
Summary Judgment in favor
of St. James Catholic School,
St. James School, A Corp.
against Kristen Biel. MD JS6. Case Terminated. (shb)
(Entered: 01/18/2017)
NOTICE OF LODGING filed
re Order on Motion for Summary Judgment 96 (Attachments: # 1 Exhibit Judgment)(Vasin, Michael) (Entered: 01/20/2017)

JA 222
Date Filed

#

Docket Text

01/24/2017

98

02/10/2017

99

AMENDED ORDER AND
JUDGMENT by Judge Terry
J. Hatter, Jr, re Order on Motion for Summary Judgment
96 . It is Ordered that the motion for summary judgment
be, and hereby is, Granted. It
is Further Ordered, Adjudged,
and Decreed that judgment
be, and hereby is, Entered in
favor of Defendant St. James
School and against Plaintiff
Kristen Biel. It is Further Ordered, Adjudged, and Decreed
that Plaintiff Kristen Biel
shall take nothing and that
all parties shall bear their
own costs. (See order for further details). (shb) (Entered:
01/24/2017)
NOTICE OF APPEAL to the
9th Circuit Court of Appeals
filed by plaintiff Kristen Biel.
Appeal of Order,, 98. (Appeal
Fee - $505 Fee Paid, Receipt
No. 0973-19344582.) (Lovretovich, Joseph) (Entered:
02/10/2017)
*

*

*

JA 223
Date Filed

#

Docket Text

12/17/2018

104

OPINION from Ninth Circuit
Court of Appeals filed re: Notice of Appeal to 9th Circuit
Court of Appeals 99 filed by
Kristen Biel. CCA # 17-55180.
(yl) (Entered: 12/19/2018)
*

06/25/2019

119

*

*

ORDER from Ninth Circuit
Court of Appeals filed re: Notice of Appeal to 9th Circuit
Court of Appeals 99 filed by
Kristen Biel. CCA # 17-55180.
The petition for rehearing and
the petition for rehearingen
banc are DENIED.(mat) (Entered: 06/25/2019)

JA 224
Date Filed

#

Docket Text

07/05/2019

120

MANDATE of Ninth Circuit
Court of Appeals filed re: Notice of Appeal to 9th Circuit
Court of Appeals 99 CCA #
17-55180. The judgment of
this Court, entered December
17, 2018, takes effect this
date. This constitutes the formal mandate of this Court issued pursuant to Rule 41(a) of
the Federal Rules of Appellate
Procedure. Costs are taxed
against the appellees in the
amount of $472.50. [See
USCA Opinion 104 For the
foregoing reasons, we REVERSE the district court's
grant of summary judgment
to St. James and REMAND](mat) (Entered:
07/08/2019)
*

*

*

JA 225
Date Filed

#

Docket Text

09/23/2019

122

MINUTES OF Status Conference held before Judge Terry
J. Hatter, Jr: The matter is
called and counsel state their
appearances. Court and counsel confer. At the parties request, the Court orders the
case stayed. A further status
conference is set for January
27, 2020 at 10:00 a.m. Court
Reporter: Courtsmart. (yl)
(Entered: 09/24/2019)
*

*

*

JA 226
Excerpts from Defendant’s Response to
Plaintiff’s Separate Statement of
Uncontroverted and Controverted Facts and
Conclusions of Law in Support of Her
Opposition to Defendant’s Motion for Summary
Judgment or in the Alternative, Partial
Summary Judgment
ECF No. 84-1
[ER 29]
DANIEL R. SULLIVAN (State Bar No. 96740)
drs@sullivanballog.com
BRIAN L. WILLIAMS (State Bar No. 227948)
blw@sullivanballog.com
MICHAEL S. VASIN (State Bar No. 227945)
msv@sullivanballog.com
VERONICA FERMIN (State Bar No. 271331)
nuf@sullivanballog.com
SULLIVAN, BALLOG & WILLIAMS, LLP
400 North Tustin Avenue, Suite 120
Santa Ana, California 92705
Telephone: (714) 541-2121
Facsimile: (714) 541-2120
Attorneys for Defendant ST. JAMES CATHOLIC
SCHOOL (erroneously sued herein as St. James
School, a corp.)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

KRISTEN BIEL, an
individual,
vs.

Case No. 2:15-cv-04248
TJH (ASx)

Plaintiff, Assigned to: Hon. Terry
J. Hatter, Jr.

JA 227

ST. JAMES SCHOOL,
A CORP, a California
non-profit corporation;
and DOES 1-50, inclusive,

Magistrate Judge: Alka
Sagar

DEFENDANT’S RESPONSE TO PLAINTIFF’S SEPARATE
STATEMENT OF UNDefendants. CONTROVERTED
AND CONTROVERTED FACTS AND
CONCLUSIONS OF
LAW IN SUPPORT OF
HER OPPOSITION TO
DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT, OR IN
THE ALTERNATIVE,
PARTIAL SUMMARY
JUDGMENT
[Filed and Served Concurrently with Defendant’s Reply Brief to
Plaintiff’s Opposition to
Motion for Summary
Judgment, or in the Alternative, Partial Summary Judgment; Declaration of Veronica Fermin; and Evidentiary
Objections]
Date: November 7,
2016
Time: UNDER SUBMISSION

JA 228
Complaint Filed:
06/05/2015
Trial Date: 01/10/2017
*

*

*

[ER 34]
[12.] [DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence.
This does not create a genuine dispute as to any material fact because the evidence presented by Plaintiff
does not controvert the moving party’s fact. Plaintiff
testified that she was hired to teach the first grade
while a teacher was on maternity leave. Plaintiff only
taught the first grade for two days out of the week and
only from March 2013 to June 2013. Plaintiff attempts
to create the appearance of a controverted fact when
there isn’t one here. Evidence: Biel Depo., 14:5-15:25.
______________________________________________
13. Plaintiff’s part-time position at St. James ended
four months later in June 2013.
(Plaintiff depo., 14:5-9).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________
14. After Plaintiff’s part-time position ended in June
2013, Sister Mary hired Plaintiff as the full-time 5th
grade teacher for the 2013-2014 school year.
(Plaintiff depo., 17:13-25).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________

JA 229
15. As the principal of the School, Sister Mary was the
supervisor for all teachers including Plaintiff.
(Plaintiff depo., 17:3-8; Kreuper depo., 11:19-22).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________
16. As a teacher at St. James, Plaintiff was required to
perform her duties in conformity with the School’s
overriding mission of promoting and developing the
Catholic faith, as required in her employment contract.
(Kreuper decl., ¶ 6; Plaintiff depo. 26:13-17).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________
*

*

*

[ER 40]
[34.] [DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence. Lack of foundation.
This does not create a genuine dispute as to any material fact because the evidence presented by Plaintiff
does not controvert the moving party’s fact that St.
Mary required every teacher to attend the Los Angeles
Religious Education Congress in order to become better religious educators. Whether there were some nonreligious education classes that were offered at the
conference does not controvert Defendant’s fact.
Plaintiff attempts to create the appearance of a controverted fact when there isn’t one here. Evidence:
(Kreuper decl., ¶ 10; Plaintiff 33:22-24, 35:2-12).
______________________________________________

JA 230
35. At St. James, every teacher’s employment was governed by an annual written employment agreement.
(Kreuper decl., ¶ 5; Plaintiff depo., 18:8-25, 19:6-20,
20:11-14, 20:23-21:3).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________
36. This employment agreement was created and distributed to the Catholic schools within the Archdiocese
of Los Angeles by the Department of Catholic Schools.
(Kreuper decl., ¶ 5).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________
37. According to the employment agreement, every
teacher’s employment was on an annual basis, meaning employment started at the beginning of every
school year and expired at the end of each school year.
(Kreuper decl., ¶ 5; Plaintiff depo., 19:6-15).
Plaintiff’s Response and Supporting Evidence
CONTROVERTED to the extent that the Defendant’s cited evidence only reflects the agreement between Biel and St. James School and does not reflect
“every teacher’s employment” with St. James School.
(See, Defendant’s Evidence)
______________________________________________
*

*

*

[ER 45]
[50.] * * * with classroom management.

JA 231
(Kreuper depo., 101:23-102:5, 104:13-19, 105:11-13,
106:17-19).
Plaintiff’s Response and Supporting Evidence
* * * not establish that Sister Margaret was “counseling” Biel from the beginning of the school year.
(Kreuper depo., 101:23-102:5, 104:13-19, 105:11-13,
106:17-19).
2) Sister Margaret testified that she regularly “checks
in” with other teachers as she did with Biel
Deposition of Mary Kreuper 109:16-110:8
3) In addition, during these meetings, Biel and Sister
Margaret also discussed other things including Biel’s
efforts to make sure the students were “understanding
and learning” in her classroom which Sister Margaret
complimented.
Deposition of Kristen Biel 45:21-47:2.
4) During these meetings Biel and Sister Margaret
discussed the large number of students who were on
Biel’s honor roll during the first trimester
Deposition of Mary Kreuper 83:24-86:14; 157:15157:23
[DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence, assumes facts, calls for
speculation, irrelevant.
This does not create a genuine dispute as to any material fact because the evidence presented by Plaintiff
does not controvert the moving party’s fact that Sister
Mary met with Plaintiff from the beginning of the
school year to discuss Plaintiff’s classroom management issues, including the conditions of the students’
desks, the lack of test schedule, the missed homework

JA 232
policy, etc. The evidence presented by [ER 46] Plaintiff does not controvert this fact. Whether Sister Mary
“checked in” with other teachers is irrelevant to the
fact that Sister Mary met with Plaintiff one to two
times per week. (Kreuper depo., 101:23-102:5, 104:1319, 105:11-13, 106:17-19).
Further, Plaintiff’s belief that Sister Mary thought she
was “doing a good job with testing and that students
were understanding and learning” is speculative,
lacks foundation, and is not credible.
Lastly, whether Plaintiff and Sister Mary discussed
the amount of students that were on Plaintiff’s Honor
roll is irrelevant to the subject fact at hand.
______________________________________________
51. On November 12, 2013, Sister Mary completed a
formal classroom observation report after observing
Plaintiff teach the subject of Math to her students.
(Kreuper depo., 90:5-15, 90:22-24; Plaintiff’s depo.,
37:6-21, 38:1-6).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________
52. In this observation report, Sister Mary noted that
there were many items on the students’ desks and that
Plaintiff needed to work on organization in the classroom.
(Kreuper depo., 93:5-94:4; Plaintiff depo., 40:19-41:1).
Plaintiff’s Response and Supporting Evidence
UNCONTROVERTED
______________________________________________

JA 233
53. In addition,[sic] to this observation report, Sister
Mary also verbally counseled Plaintiff on multiple occasions throughout the school year regarding keeping
her classroom organized and controlling the noise
level.
(Plaintiff depo., 41:10-19, 42:3-7, 57:24-58:13, 71:1518, 113:24-114:8; Kreuper depo., 82:16-25, 83:1-13,
97:16-25)
Plaintiff’s Response and Supporting Evidence
CONTROVERTED to the extent the Biel testified
that only on five occasions or less did Sister Mary verbally counsel her on various aspects of her teaching.
Deposition of Kristen Biel 42:3-42:9; 57:24-58:15;
71:15-18.
[ER 47] [DEFENDANT’S] RESPONSE: Objection:
Mischaracterizes facts and evidence, argumentative,
calls for speculation.
This does not create a genuine dispute as to any material fact because the evidence presented by Plaintiff
does not controvert the moving party’s fact that Sister
Mary verbally counseled Plaintiff on multiple occasions. Plaintiff testified that Sister Mary talked to her
about the condition of her students’ desks more than
once as well as the noise level in her classroom. Evidence: Biel Depo., 42:3-42:9; 57:24-58:15; 71:15-18.
Plaintiff attempts to create the appearance of a controverted fact when there isn’t one here.
54. However, Plaintiff failed to improve her issues
with classroom management throughout the school
year.
(Kreuper depo., 83:1-13, 106:5-12).

JA 234
Plaintiff’s Response and Supporting Evidence
CONTROVERTED as Sister Margaret wrote positive
comments about Biel’s teaching, including that she
was “very good” at “[e]stablishing and maintaining
learning environments that are physically, intellectually, and emotionally safe”
Deposition of Mary Kreuper 89:24-90:15, Exh. 3 (“Elementary School Classroom Observation Report”)
Additionally, the Elementary School Classroom Observation Report has all of the boxes for “Creating and
Maintaining Effective Environments for Student
Learning” crossed out which indicates that there was
evidence that Biel was doing those aspects of her
teaching.
Deposition of Mary Kreuper 89:24-* * *
______________________________________________
*

*

*

[ER 73]
[109.] * * * [DEFENDANT’S] RESPONSE: Objection: Mischaracterizes facts and evidence, argumentative.
This does not create a genuine dispute as to any material fact because Plaintiff does not offer any evidence
that controverts the fact that Sister Mary wrote a letter on May 15, 2014 to Plaintiff informing her that she
would not be offering her an employment contract for
the following school year. Plaintiff produces evidence
that Plaintiff never received it. However, this testimony does not controvert the fact that Sister Mary

JA 235
wrote it. Even if it were true that Plaintiff never received the letter, this does not necessarily mean that
Sister Mary did not write the letter.
PLAINTIFF’S SEPARATE STATEMENT OF
ADDITIONAL MATERIAL FACTS
NEW UNDISPUTED MATERIAL FACT[S]:
110. Kristen Biel (“Biel”) attended three colleges to receive her Bachelor of Arts in liberal studies[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 9:25-11:2
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________
111. After receiving her degree, Biel attended California State University of Dominguez Hills and received
her teaching credential[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 9:25-11:2
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________
112. Biel began her teaching career at a substitute
teacher for various school districts as well as a few private schools, including St. Lawrence Martyr School
where she worked before starting at St. James
School[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 11:8-13:8
[ER 74] [DEFENDANT’S] RESPONSE: Uncontroverted.

JA 236
______________________________________________
113. At the time of her employment with St. James
Catholic School, Biel was Catholic.
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 24:9-24:10
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence.
At the time of Plaintiff’s deposition, she testified that
she was Catholic. The deposition occurred on November 10, 2015. This was over one year after Plaintiff’s
departure from St. James Catholic School.
______________________________________________
114. In 2013, Biel began working for St. James School
as a long-term substitute for one of the two first grade
teachers that was on maternity leave[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 14:5-15:21
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence, lacks foundation.
Plaintiff’s belief that a long-term substitute is like a
full-time teacher lacks foundation and is not credible
evidence. Evidence: Biel Depo., 14:5-15:25.
______________________________________________
115. After her long-term substitute position ended in
June 2013, she was hired as a full-time teacher by Sister Mary Margaret for the 2013-2014 school year[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 17:13-17:25

JA 237
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence, lacks foundation.
Plaintiff’s belief that a long-term substitute is like a
full-time teacher lacks foundation and is not credible
evidence. Evidence: Biel Depo., 14:5-15:25.
______________________________________________
[ER 75]
116. Upon being hired, Biel signed an employment
contract with the school that defined her title as a
“Teacher” throughout the contract[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 17:17-19:2, Exh. 1
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence, lacks foundation. There
is no “definition” of Plaintiff’s title within her employment contract.
______________________________________________
117. Shortly after she was hired, Biel attended a conference at the request of St. James School that lasted
“four or five hours” over a single day[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 18:1-19:17; 33:22-37:5, Exh. 1
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________

JA 238
118. In November 2013, Sister Margaret performed an
observational review of Biel’s teaching.
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 89:2-89:6; 89:24-90:16, Exh. 3; Deposition of
Kristen Biel 37:6-37:25, Exh. 4
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________
119. On the review, Sister Margaret checked boxes to
indicate that Biel was sufficiently performing in several aspects of her job including having “visible evidence of signs, sacramental, traditions of the Roman
Catholic Church in the classroom[.]”
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 89:24- 90:15; 91:14-91:24; 92:4-94:12, Exh. 3
(“Elementary School Classroom Observation Report”);
Deposition of Kristen Biel 37:6- 37:25, Exh. 4 (“Elementary School Classroom Observation Report”)
______________________________________________
*

*

*

[ER 77]
122. Sister Margaret wrote positive comments about
Biel’s teaching, including that she was “very good” at
“[e]stablishing and maintaining learning environments that are physically, intellectually, and emotionally safe[.]”
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 89:24-90:15; 91:14-91:24; 92:4-94:12, Exh. 3
(“Elementary School Classroom Observation Report”);
Deposition of Kristen Biel 37:6- 37:25, Exh. 4 (“Elementary School Classroom Observation Report”)

JA 239
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence, lacks foundation. The
cited testimony does not support Plaintiff’s characterization of the evidence.
______________________________________________
123. Sister Margaret wrote positive comments about
Biel’s teaching, including that overall it was a “good
review[.]”
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 89:24-90:15; 91:14-91:24; 92:4-94:12, Exh. 3
(“Elementary School Classroom Observation Report”);
Deposition of Kristen Biel 37:6- 37:25, Exh. 4 (“Elementary School Classroom Observation Report”)
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence, lacks foundation. The
cited testimony does not support Plaintiff’s characterization of the evidence.
______________________________________________
124. Biel testified that she first learned she had cancer
during Easter vacation of 2014 and informed Sister
Margaret the following week[.]
SUPPORTING EVIDENCE: Deposition of Kristen
Biel 90:23-91:25 Deposition of Mary Kreuper 121:16121:23; 124:14-124:25
[ER 78]
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________

JA 240
125. In 2014, Easter Sunday was April 20, 2014[.]
SUPPORTING EVIDENCE: Plaintiff’s Request for
Judicial Notice
[DEFENDANT’S] RESPONSE: Uncontroverted to
the extent the Court takes judicial notice.
______________________________________________
126. In early May, Biel informed Sister Margaret that
she would need to undergo chemotherapy and surgery
and that her last day would be May 22, 2014[.]
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 125:9-127:22; Deposition of Kristen Biel 94:994:17; 95:8-96:16
[DEFENDANT’S] RESPONSE: Objection. Mischaracterizes facts and evidence. Sister Mary testified that
Plaintiff told her she would need to undergo chemotherapy and surgery in end of April or first part of
May. Evidence: Kreuper depo., 125:9-14.
______________________________________________
127. According to the St. James School’s employment
contract, the school must provide notice on or before
May 15 of whether it intends to offer the teacher a new
employment contract for the following school year[.]
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 59:7-59:17; 132:10-132:15; 135:24-136:7,
Exhs. 2, 6
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________
128. Sister Margaret testified that pursuant to this
provision, she provided notice to Biel on May 15th by
placing written notice in her teacher mailbox[.]

JA 241
SUPPORTING EVIDENCE: Deposition of Mary
Kreuper 132:10-134:16; 135:24-136:7, Exh. 6
[DEFENDANT’S] RESPONSE: Uncontroverted.
______________________________________________
*

*

*

JA 242
Excerpts from Transcript of Deposition of
Kristen Biel
[ER 207]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
KRISTEN BIEL, an
individual,
Plaintiff,

No. 2:15-cv-04248 (TJH)
(ASx)

vs.
ST. JAMES SCHOOL, A
CORP, a California nonprofit corporation, and
DOES 1-50, inclusive,
Defendants

DEPOSITION OF
KRISTEN BIEL
TUESDAY, NOVEMBER 10, 2015
400 North Tustin Avenue, Suite 120
Santa Ana, California
Reported by: ROBERTA WIMBERLY, CSR No. 4882
*

*

[ER 210]
[BY MS. FERMIN]
Q. What is her name?
A. Delaney, D-e-1-a-n-e-y.
Q. Do you live with anyone else?
A. No.

*

JA 243
Q. What is your date of birth?
A. May 19th, 1965.
Q. Where were you born?
A. Chicago, Illinois.
Q. When did you move to California?
A. When I was a year old.
Q. Your current address?
A. 1019 Avenue B, Redondo Beach, California, 90277.
Q. How long have you lived there?
A. 20 years.
Q. You only have one daughter?
A. Yes.
Q. Do you have any intention of moving within the
next year?
A. No.
Q. Where did you attend high school?
A. Bullard High School.
Q. Can you spell that for me?
A. B-u-1-1-a-r-d
California.

High

School.

It’s

Q. Did you attend college?
[ER 211]
A. I did.
Q. What college was that?
A. California State University of Fresno.

in

Fresno,

JA 244
Q. Did you complete a degree?
A. Not there. I also attended El Camino College.
Q. After you attended Cal State Fresno?
A. Not right after, but, yes. And then finally
California State University of Dominguez Hills where
I got my degree.
Q. What year was that?
A. 2009.
Q. What was your degree in?
A. Liberal Studies.
Q. Have you had any legal training or legal education
of any sort?
A. No.
Q. Have you obtained any other degrees other than
your degree in liberal studies?
A. No. I do have a credential.
Q. Teaching credential?
A. Yes.
Q. When did you obtain that?
A. 2009.
Q. From where?
A. Cal State University of Dominguez Hills.
[ER 212]
Q. Your degree in liberal studies is a B.A.?
A. Yes.
Q. Are you currently working?

JA 245
A. No.
Q. Was your employment at St. James your most
recent employment?
A. Yes.
Q. Prior to working at St. James, where did you work
immediately prior?
A. St. Lawrence Martyr.
Q. St. Lawrence?
A. Uh-huh.
Q. Did you work for the parish or the school?
A. The school.
Q. What years did you work there?
A. It’s all—does she not have my resume?
S. SHOEMAKER: You have to answer her questions.
THE WITNESS: I’m sorry. 2012, 2013.
BY MS. FERMIN:
Q. What was your position at St. Lawrence?
A. Substitute teacher.
Q. For the entire time at St. Lawrence?
A. I was a substitute teacher there and a long-term
sub there, as well.
Q. When did your employment at St. Lawrence end?
[ER 213]
A. June. I think it was 2012.
Q. June of 2012?
A. I think so.

JA 246
Q. Why did you depart from St. Lawrence?
A. My long-term job was over. The teacher was
pregnant, and I worked for her until she came back.
Was it 2012? Yeah, it was 2012.
Q. Prior to St. Lawrence Martyr School, where did
you work immediately prior?
A. I worked as a substitute teacher for a few different
school districts as well as a few private schools.
Q. Okay. Let’s start with the private schools.
A. Riviera Hall Lutheran School and St. Lawrence,
and then I worked for the City of El Segundo—El
Segundo Unified School District and Manhattan
Unified School District.
Q. Any other school districts?
A. Not that I can remember.
Q. You substituted at all of these locations?
A. Correct.
Q. You never worked as a full-time teacher?
A. Correct. I also worked as a tutor at two different
locations—companies. I’m not remembering the
names right now. Sorry.
[ER 214]
Q. Private companies?
A. Yes.
Q. Prior to your employment at St. James, how long
had you been substituting?
A. Since 2009.

JA 247
Q. Before you got your teaching credential—I mean
after you got your teaching credential?
A. Yes.
Q. What did you do before you obtained your teaching
credential for employment?
A. I was a dance teacher and artistic director at a
dance studio.
Q. Private studio?
A. Yes.
Q. What is the name of the studio?
A. Vergari Dance Center.
Q. Can you spell that, please?
A. V-e-r-g-a-r-i Dance Center.
Q. How long were you a dance teacher there?
A. Ten years.
Q. No other employment while you were working as a
dance teacher at Vergari?
A. I did teach a few Mommy and Me classes at a local
ballet studio. I’m not remembering the name. Riviera
Dance Center, I think.
[ER 215]
Q. You studied dance?
A. I’m sorry.
Q. Did you study dance?
A. Yes.
Q. Okay. You were eventually hired as a substitute
teacher at St. James. Right?

JA 248
A. Yes.
Q. Do you recall the month and year?
A. March of 2013 to June of 2013.
Q. As a substitute?
A. Long-term sub.
Q. What do you mean by “long-term sub”?
A. A substitute teacher sometimes can substitute for
just one day. A long-term sub is like a full-time
teacher. I’m there every day all the time teaching,
but for somebody who is out, usually because they are
pregnant.
Q. Who was out during that time, what teacher?
A. I don’t remember her name. Sorry.
Q. Was she on maternity leave?
A. Yes.
Q. So you were first hired as a substitute teacher at
St. James in March of 2013. Right?
A. Yes.
Q. And your term ended in June of 2013?
[ER 216]
A. Yes.
Q. What grade did you teach during that time period?
A. First grade.
Q. Did you teach the first grade by yourself during
those few months?
A. I was a team teacher. I taught two days a week
and Alisa taught three days a week.

JA 249
Q. Alisa? What is her last name?
A. Gobey. I can’t recall her last name. It’s difficult to
remember.
Q. She taught three days a week?
A. Yes.
Q. Was she a long-term sub, too?
A. No. She was a permanent teacher.
Q. Was she the one who was on maternity leave?
A. No.
Q. Who were you subbing for that was on maternity
leave?
A. I don’t remember her name.
Q. But she was a first grade teacher?
A. Yes. They shared the position.
Q. I see. So Alisa shared the first grade teaching
position with this other teacher that went on
maternity leave?
A. Yes.
*

*

*

[ER 217]
long-term sub?
A. No.
Q. You know who Sister Mary Margaret is. Right?
A. Yes.
Q. Did she hire you?
A. Yes.

JA 250
Q. Was she your supervisor?
A. Yes.
Q. You know who Father Meyers is?
A. Yes.
Q. Was he ever your supervisor?
A. Not that I know of.
Q. After your long-term substitute after you subbed
for the first grade—that ended in June of 2013.
Right?
A. Yes.
Q. Were you then hired as a full-time teacher?
A. Yes.
Q. Who hired you?
A. Sister Mary Margaret.
Q. Do you know when she hired you as a full-time
teacher?
A. June of 2013.
Q. For what position?
A. Fifth grade teacher
[ER 218]

(Exhibit 1 was marked for identification by the court
reporter.)
BY MS. FERMIN:
Q. Kristen, if you would look over this document and
let me know when you’re done.
A. Explain “look over.” Do you want me to full on
read it or do you want me to glance at it?

JA 251
Q. I want you to tell me if you recognize it. Do you
recognize the document?
A. Yes.
Q. Okay. What is it?
A. An employment contract.
Q. Is this your employment contract for the 20132014 school year at St. James?
A. I believe so.
Q. On page 5—yes, on page 5, is that your signature?
A. It looks like my signature.
Q. Do you recall signing an employment contract
prior to teaching the 2013 to 2014 school year at St.
James?
A. Ask the question again.
Q. Do you recall signing an employment contract
before you started teaching at St. James full time?
A. Yes.
[ER 219]
Q. Does this look like the contract that you signed?
A. It looks like it.
Q. Do you have any reason to believe it’s not the
contract that you signed?
A. Not at this time.
Q. Was it your understanding this contract was for
the 2013 to 2014 school year?
A. Yes.

JA 252
Q. And that the start date of your employment,
according to this contract, was August 26, 2013, at
the top?
A. Yes.
Q. And the end date of this employment contract was
June 30th, 2014, as indicated at the top of the
contract?
A. That’s what it says.
Q. Was that your understanding?
A. As I look at it now.
Q. Did you have a different understanding when you
signed the contract?
A. Not that I can recall.
Q. Was it your understanding at the time that you
signed this contract that the terms of your
employment were contained in this document?
A. I’m sorry. Rephrase the question.
MS. FERMIN: Can you read it back, please.
*

*

*

[ER 223]
Q. Is that your understanding?
A. What do you mean by “promoting and furthering ‘?
Q. Incorporating it into the curriculum.
A. We prayed every day, yes.
Q. You prayed with your students?
A. Yes.
Q. In the morning or at the end of the day?

JA 253
A. Both.
Q. Twice a day?
A. Yes.
Q. Did you teach your students any Catholic prayers?
A. They already knew them. I didn’t need to teach
them anything. And I had prayer leaders. The
prayers that were said in the classroom were said
mostly by the students. We had prayer leaders. That
was like a job.
Q. Did you pray the Hail Mary with your students?
A. We did.
Q. The Lord’s Prayer?
A. We did, yes.
Q. Those are Catholic prayers, aren’t they?
A. Hail Mary is.
Q. The Lord’s Prayer is not a Catholic prayer?
A. It’s a Christian prayer.
Q. But used in mass. Right?
A. Yes, but used in mass of other Christian
[ER 224]
religions, as well.
Q. Going back to Exhibit 1, the second paragraph
that is entitled “Philosophy,” can you read that to
yourself and let me know when you’re done.
A. I understand.
Q. Was it your understanding that as a teacher you
performed your duties with this overriding mission of

JA 254
the school in mind to develop and promote the
Catholic faith?
MS. SHOEMAKER: Objection; vague and ambiguous,
legal contention. You can answer.
THE WITNESS: Can you rephrase the question?
BY MS. FERMIN:
Q. Was it your understanding that as a teacher at St.
James you had to abide with the school’s mission in
promoting and developing the Catholic faith within
the school?
A. Yes.
Q. Did you teach the subject of religion to your fifth
graders at St. James?
A. Yes.
Q. How often per week did you teach religion?
A. Four days.
Q. Four days a week?
A. Uh-huh.
Q. How long would these religion classes last?
[ER 225]
A. 30 minutes, approximately.
Q. 30 minutes each day four days a week?
A. Approximately. Sometimes they were longer and
sometimes they were shorter. It depends on the
schedule.
Q. What did this religion curriculum entail?

JA 255
A. Reading from a workbook
questions from the workbook.

and

answering

Q. What was the name of the workbook?
A. I don’t recall.
Q. Was it called “Coming To God’s Life”?
A. I’m not sure. It’s the curriculum that Sister Mary
Margaret gave me. It’s what they teach at that
school.
Q. Would you recognize it if you saw the book?
A. Probably.
Q. “Coming to God’s Life” doesn’t ring a bell as that
being the workbook?
A. I don’t recall the name.
Q. So your lessons for religion were done from this
curriculum workbook?
A. Yes.
Q. What kind of lessons were in this workbook?
A. Religion lessons.
Q. Can you give me an example?
A. Telling the story of Jesus, telling the stories
[ER 226]
of the disciples. Just the stories of the Bible.
Q. Was this a Catholic workbook?
A. I think so.
Q. Did you teach your students any songs, religious
songs?

JA 256
A. I don’t recall teaching them anything. They may
know songs and sing them, but I don’t recall teaching
them any. I don’t remember.
Q. Did you teach your students about the significance
of lent?
A. I’m sorry. What?
Q. The significance of lent?
A. Oh, we did talk about lent.
Q. What did you talk about regarding lent?
A. I followed the instructions in the book.
Q. Which entailed the significance of lent?
A. Yes.
Q. What about Easter? Did you teach your students
the significance of Easter?
A. Yes.
Q. What about Catholic practices like the Eucharist
and confession?
A. Yes.
Q. You taught your students the significance—
A. That was in the book.
[ER 227]
Q. –of the Eucharist and confession?
A. That was in the book, yes. But the kids—I’m sorry.
Never mind.
Q. Did you give tests based on this religious
workbook?
A. Yes.

JA 257
Q. How often would you give tests?
A. Weekly.
Q. Did you ever attend mass with your students?
A. Yes.
Q. Where was mass held?
A. It was kind of a multi-purpose room.
Q. It was school mass, I’m assuming.
A. Yes. The church and the school are not connected.
Q. So it was a mass just with the St. James students?
A. Yes.
Q. Okay. How often did school mass take place?
A. Once a month.
Q. You attended the school mass with your students?
A. Yes.
MS. FERMIN: I’m going to mark this as Exhibit No.
2.
(Exhibit 2 was marked for identification by the
*

*

*

[ER 228]
by that as a teacher?
A. Yes.
Q. That you had to teach religion for approximately
200 minutes per week?
A. Is that what it says? Per week?
Q. Weekly time allotments at the top.

JA 258
A. Okay.
Q. Was that your understanding?
A. Yes.
Q. When you went to school mass with your students,
was it Father Meyers who conducted mass?
A. Not always.
Q. But it was always led by a Catholic priest?
A. No.
Q. Who was it led by if not a priest?
A. Sister Mary Margaret and Sister Lana.
Q. What was your role during school masses?
A. To make sure the kids were quiet and in their
seats.
Q. Did your students ever participate in mass?
A. Yes.
Q. In what way?
A. They would bring the gifts.
Q. Who trained them on bringing the gifts?
A. They were trained from previous years.
[ER 229]
Q. Did you go over with your students on how to
present the gifts in mass?
A. As far as rehearsal? I don’t think we did rehearsal.
Most of them know how to do it already.
Q. So you did not go over how to present gifts?

JA 259
A. I don’t remember. Maybe we quickly did
something, or not. I don’t remember. It wasn’t that
often.
Q. Just for the record, when you say “gifts,” you are
referring to the Eucharist. Right?
A. Yes.
Q. How often would your class present the gifts at
school mass?
A. It was only twice a year.
Q. That they would present the gifts?
A. Yes, something like that. Not very often. It was
kind of a volunteer thing if the kids wanted to do it.
Q. During these school masses you mentioned that
you made sure that the kids were quiet and sitting
down and behaving during mass. Right?
A. Yes.
Q. Did your students pray during school mass?
A. Yes.
Q. Did you pray too?
A. Yes.
[ER 230]
S. FERMIN: I’m going to mark this as Exhibit 3.
(Exhibit 3 was marked for identification by the court
reporter.)
THE WITNESS: This is Virtus.
BY MS. FERMIN:
Q. I’m sorry.

JA 260
A. Sorry.
Q. Do you recognize this certificate?
A. Yes.
Q. Did you receive this certificate?
A. Yes.
Q. What was it for?
A. Virtus.
Q. V-i-r-t-u-s?
A. Yes.
Q. What is Virtus?
A. A training for child abuse.
Q. This was required by St. James?
A. Yes.
Q. Prior to your employment. Right?
A. Yes, I guess.
Q. Did you take any other training seminars for St.
James?
A. We went to a religious conference together.
Q. Is that called Congress?
[ER 231]
A. I don’t remember what it’s called. It was my first
time at one.
Q. Where was it held?
A. I think in Orange County.
Q. At the Anaheim Convention Center?

JA 261
A. I’m not sure. I know we had to drive at least an
hour. I wasn’t driving.
Q. This was put on by the Archdiocese?
A. I think so. I don’t know.
Q. Were you required to attend this religious
conference?
A. They asked us to.
Q. Who is “they”?
A. I’m sorry. Sister Mary Margaret asked us to.
Q. When you say “us,” who are you referring to?
A. Teachers.
Q. The teachers at St. James?
A. Yes.
Q. Do you remember the month that this religious
conference took place?
A. I don’t.
Q. Was this before you started your employment?
A. No.
Q. Were you working as a full-time teacher when you
attended the religious conference?
[ER 232]
A. Yes.
Q. What took place at this conference?
A. We took classes.
Q. What kind of classes?
A. Education classes mostly.

JA 262
Q. How long was this conference?
A. About four or five hours.
Q. Just one day?
A. Yes.
Q. What did they teach you?
A. Different techniques on teaching and
incorporating God.
Q. Who were the instructors?
A. I do not know.
Q. Were they priests or sisters?
A. No, not all of them.
Q. Was the focus of this conference how to develop
your skills as a religious educator?
A. I don’t remember what the focus was. Sorry. I
don’t know.
Q. Well, you said they taught you different
techniques and incorporating God.
A. That’s what I remember about it.
Q. Was this a Catholic conference?
A. I’m not sure if it was Catholic or not.
[ER 233]
Q. What other teachers did you go with?
A. I’m trying to remember. The fourth grade teacher,
the third grade teacher and the computer teacher.
Q. What were their names?
A. I was in the car with them, but there were other
teachers there from St. James.

JA 263
Q. Did you sit with the fourth grade teacher, the
third grade teacher and the computer teacher?
A. In the car.
Q. What about at the conference?
A. We went to different classes.
Q. What are these teachers’ names?
A. Ms. White and Ruth. She was a computer teacher.
And Ms. McDermott.
Q. Kathleen McDermott?
A. Yes.
Q. And Cindy White?
A. Cindy White.
Q. And Ruth. What is her last name?
A. Gosh. It starts with a B. It’s confusing. Mrs. Bell,
something like that.
Q. So at this conference you were taught how to
incorporate God into your lesson plans. Is that right?
A. Some classes did that. Other classes showed us
how to do art and make little pictures or things like
[ER 234]
that.
Q. Other than this religious conference, did you
attend any other conferences or training for your
employment at St. James?
A. Not that I remember.
MS. FERMIN: I’m going to mark this as Exhibit No.
4.

JA 264
(Exhibit 4 was marked for identification by the court
reporter.)
BY MS. FERMIN:
Q. Do you recognize this document?
A. Yes.
Q. What is it?
A. Observation report.
Q. Was this a performance review—
A. Yes
Q. —that was taken of you during your employment
at St. James?
A. Yes.
Q. At this time you were teaching the fifth grade?
A. Yes.
Q. Is that your signature on the last page?
A. It looks like it.
Q. Do you recall signing this?
A. I don’t recall, but I guess I did.
*

*

*

[ER 258]
A. I do.
Q. This was written for the purpose of your medical
extension with the California state credentialing
office?
A. I think.
Q. Did you ask Dr. Hool to write this?

JA 265
A. Yes.
Q. For the purpose of getting an extension for your
teaching credential?
A. Probably.
Q. Did you show this letter to anyone else other than
the California state credentialing office?
A. I don’t know. I may have given—did I give you
guys a copy of this? Probably my attorneys.
Q. Other than your attorney?
A. Not that I can remember.
Q. Dr. Hool references you suffering from a medical
condition in Exhibit 16. Right?
A. Due to Mrs. Biel’s disease and toxicity and
treatment she is currently disabled through
December 16, 2014. That’s what he says.
Q. What was your disease?
A. Breast cancer.
Q. When did you first learn that you had breast
cancer?
A. During Easter vacation of 2014.
[ER 259]
Q. Is Dr. Hool your physician?
A. He is my oncologist.
Q. As of Easter 2014?
A. Uh-huh.
Q. Is he currently?
A. He still is my oncologist.

JA 266
Q. Are you seeing any other oncologists other than
Dr. Hool?
A. No.
Q. You said you first discovered that you had breast
cancer over Easter of 2014. Is that right?
A. Yes.
Q. Was it over Easter break from school?
A. Yes.
Q. You weren’t working at the time?
A. I was not working when I found it, no.
Q. Did you inform Sister Mary Margaret that you had
breast cancer?
A. Yes.
Q. When did you tell her?
A. I believe that next week.
Q. When you returned to school?
A. Yes.
Q. Did you tell her in person?
A. Yes.
*

*

*

[ER 260]
Q. How about a month?
A. No, a month didn’t pass.
Q. So within three weeks? Would that be fair to say?
A. I don’t know.

JA 267
Q. The next conversation you had with Sister, what
did you tell her?
A. I don’t know what you’re asking.
Q. The next conversation you had with Sister Mary
Margaret regarding your breast cancer, what did you
tell her?
A. I don’t remember the specifics.
Q. Generally?
A. I probably told her the doctor wanted to do chemo
first and then do surgery and then do chemo
afterwards.
Q. Surgery first and then chemo?
A. Chemo first and then surgery and then more
chemo.
Q. What did Sister Mary Margaret say in response to
this?
A. I don’t recall.
Q. What else specifically did you tell Sister Mary
Margaret regarding your doctor’s intentions?
A. I don’t understand the question.
Q. What else did you tell Sister Mary Margaret other
than your doctor wanted you to do chemo—
[ER 261]
A. I don’t remember.
Q. —chemo, then surgery and then chemo?
A. I don’t remember.
Q. What was Sister Mary Margaret’s reaction to your
statements regarding your treatment?

JA 268
A. I think she said okay, I’ll need to get ready and get
a sub for you for the rest of the year.
Q. Did you tell her you needed a sub for the rest of
the year?
A. She knew that she needed a sub for May and June.
Q. Did you tell her that you needed a sub?
A. Yes. I told her that my doctor wanted me to start
chemo. I don’t know specifically what date this was,
but I did tell her during one of these meetings that
my doctor wanted to start chemo on May 27th, my
first chemo.
Q. Did you tell Sister Mary Margaret that your first
date for chemo was May 27th?
A. Yes.
Q. Did you tell her that you would not be able to
teach during your chemo treatment?
A. I told her the doctor recommended that I don’t
teach full time.
Q. Did you want to teach part time?
A. That wasn’t offered.
[ER 262]
Q. Would you have?
A. I wasn’t sure how the chemo would affect me, so I
didn’t know.
Q. Did you request to teach part time?
A. No.

JA 269
Q. Did you tell Sister Mary Margaret that you would
not be able to come back to school after your May
27th chemo treatment?
A. I may have mentioned the doctor recommended
that I stay home during chemo.
Q. And you wanted to follow what your doctor
recommended?
A. I wanted to see how the chemo affected me before I
could decide whether or not—how much work I could
do.
Q. Did you tell Sister Mary Margaret that?
A. Yes.
Q. After you received your first chemo treatment on
May 27, did you talk to Sister Mary Margaret
regarding how well you felt?
A. She called me in on June 6th.
Q. What did she say to you?
A. That’s when we discussed—I told her how I was
feeling.
Q. What did you tell her?
A. I don’t specifically remember.
*

*

*

[ER 263]
(Exhibit 18 was marked for identification by the court
reporter.)
BY MS. FERMIN:

JA 270
Q. This is Exhibit 18. This is a letter addressed to you
from Sister Mary Margaret. Have you seen this letter
before?
A. Yes.
Q. It’s dated May 15, 2014. Is that the date you
received this letter?
A. No.
Q. When did you receive this letter?
A. I never received this letter.
Q. You said that you’ve seen this letter before.
A. Yes. My attorney showed me.
Q. Prior to your attorney showing you this letter, you
had never seen this letter before?
A. No.
Q. Did Sister Mary Margaret ever verbally tell you
that you would not be offered a contract for the 20142015 school year?
A. She verbally told me that she would not be
renewing my contract in July of 2014. I think it was
like the 11th or 12th.
Q. July 11 or 12 of 2014?
A. Yes.
[ER 264]
Q. That’s the first time Sister Mary Margaret told
you she would not be offering you a contract—
A. Yes.
Q. —for the 2014-2015 school year? Yes?

JA 271
A. Yes.
Q. How did she tell you this?
A. I asked her.
Q. In person?
A. Yes.
Q. Where was this meeting?
A. In her office.
Q. Why were you there?
A. To find out if I was going to be teaching the next
year or not.
Q. Was this meeting pre-arranged?
A. I called a few days before to make an appointment,
yes.
Q. Who did you make an appointment with?
A. Sister Mary Margaret.
Q. You called her?
A. I called the school.
Q. Who did you speak to at the school?
A. I may have spoken to Cheryl.
Q. Cheryl?
A. Hugo.
[ER 265]
Q. Is that the school secretary?
A. Yes.
Q. You made an appointment with Ms. Hugo?

JA 272
A. She is probably the one that made the
appointment, yeah.
Q. For your meeting with Sister Mary Margaret?
A. Uh-huh.
Q. What did Sister Mary Margaret tell you during
this meeting?
A. First she asked me how I was feeling and wanted
to know how I was doing. Then I asked her if she was
going to—wanted me to work for her the next year.
Q. Why did you ask her that?
A. Because I wasn’t sure.
Q. Why weren’t you sure?
A. Because she told me she was possibly looking into
someone else—giving someone else the job.
Q. When did she tell you that?
A. I’m trying to remember. June—maybe it was June.
In the June 6th meeting she may have said I’m not
sure I want you to come back, something like that.
Q. When you met with her on June 6th, 2014, Sister
Mary Margaret told you she wasn’t sure that she
wanted you back?
A. Uh-huh.
[ER 266]
Q. Did she say why?
A. She said that she felt I was not strict and that it
wouldn’t be fair to the students to have two teachers
in one school year.
Q. What other reasons?

JA 273
A. Those are the ones that—I guess those. She asked
me to write a letter explaining what I can do to be—I
don’t know—things I could come back and do, I guess.
I don’t know. So I wrote her a letter.
Q. Things that you could do—
A. Improve on, I think, maybe.
Q. Things you could improve on as a teacher?
A. Uh-huh.
Q. When you said Sister Mary Margaret felt that you
weren’t strict, this is in regards to your classroom?
A. I guess.
Q. Is that your understanding?
A. I felt that she wanted me to be strict with the
students.
Q. She asked you to write a letter regarding different
things that she wanted you to improve on?
A. Uh-huh.
Q. Things that you talked about in this meeting?
A. Yes.
Q. And throughout the school year?
*

*

*

[ER 267]
Q. May 23rd?
A. Yeah. It was that Memorial Day weekend.
Q. How did you pick that date?

JA 274
A. My first chemo date was the 27th. It just made
sense since it was Memorial Day weekend, the next
week have off and get ready for my chemo.
Q. You picked to be off one week before your first
chemo treatment?
A. It wasn’t really a week. It was maybe Tuesday, I
think. On a Tuesday.
Q. In any case, you decided on this date for your last
day teaching for the fifth grade?
A. I think Sister Mary Margaret and I decided
together.
Q. When did you decide with Sister Mary Margaret
that May 23rd would be your last day?
A. I don’t recall.
Q. Was it during the same conversation when you
told her that your doctor recommended chemo and
then surgery and then chemo?
A. I don’t remember.
Q. You stopped teaching before Memorial Day
weekend or after?
A. The Thursday before.
Q. Did you have a box at school, an inbox?
[ER 268]
A. Yes.
Q. How often would you check it?
A. Daily.
Q. Even up until May 23rd?
A. Yes.

JA 275
Q. How about after you stopped teaching? Did you
check your box?
A. I checked my box as long as it had my name on it
in case people wanted to leave notes and things.
People left me notes and papers. So I did check it.
When I came in to grade papers, I would check it.
Q. You mentioned after your last day of teaching,
which was the Thursday before Memorial Day
weekend, you would come in and continue to work
but not teach.
A. Right.
Q. What would you do after you stopped teaching?
A. I would grade some tests and load the grades onto
the computer.
Q. Who was teacher that took over your classroom?
A. I don’t remember her name.
Q. Did Sister Mary Margaret know that you
continued to grade tests and load them onto the
computer?
A. Yes.
Q. Did you have a conversation with her regarding
this?
*

*

*

[ER 272]
Q. Did you ever talk to Sister Mary Margaret
regarding this letter afterwards?
A. I don’t remember. I don’t think so, but I don’t
remember. It may have been during the July
meeting. I don’t know.

JA 276
Q. During the July meeting?
A. Uh-huh.
Q. What did Sister Mary say to you regarding your
June 16 letter?
A. I don’t understand the question.
Q. When you met with her on July 11 or 12, 2014, did
Sister Mary Margaret bring up your June 16th
letter?
A. I don’t recall talking about it.
Q. What about your performance issues? Was that
talked about in the July meeting?
A. I don’t think we talked too much about my
performance.
Q. What was Sister Mary Margaret’s reason for not
offering you a contract in that July 11 or 12 meeting?
MS. SHOEMAKER: Calls for speculation.
THE WITNESS: The same reasons I told you before,
she said I was not strict and it was not fair for me—it
was not fair for her to have to have two teachers for
the children during the school year.
BY MS. FERMIN:
*

*

*

JA 277
[ER 282]
Archdiocese of Los Angeles
Elementary School Classroom Observation Report
Teacher: Kristen
School: St. James
Principal: SMM
City: Torrance
Grade: 5
School Year: 2013-14
Subject: Math
Date: Nov. 12, 2013
Innovating
Adjusts and creates new
strategies for unique
student needs and
situations during the
lesson.
Emerging
Attempts to use strategy
but uses it incorrectly or
at the wrong time.

Implementing
Uses strategies at
appropriate time, in the
appropriate manner.
Not Exhibiting
Strategy was called for
but not exhibited.

WCEA (Catholic Identity Factors) Check if observed
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 There is visible evidence of signs, sacramental,
traditions of the Roman Catholic Church in the
classroom.
 Curriculum includes Catholic values infused
through all subject areas. Respect – [handwritten note]
 Integrates Schoolwide Learning Expectations.

JA 278
Observation Comments: _____________
Objective to be Observed: California Standards
for the Teaching Profession
For the following 5 standards, check if observed
Standard 1: Engaging and Supporting All
Students in Learning
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 1.1 Using knowledge of students to engage them in
learning
 1.2 Connecting learning to students’ prior
knowledge, backgrounds, life experiences, and
interests
 1.3 Connecting subject matter to meaningful, reallife contexts
 1.4 Using a variety of instructional strategies,
resources, and technologies to meet students’ diverse
learning needs
 1.5 Promoting critical thinking through inquiry,
problem solving, and reflection
 1.6 Monitoring student learning and adjusting
instruction while teaching
Observation Comments: _____________
Standard 2: Creating and Maintaining Effective
Environments for Student Learning
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 2.1 Promoting social development and
responsibility within a caring community where each
student is treated fairly and respectfully

JA 279
 2.2 Creating physical or virtual learning
environments that promote student learning, reflect
diversity, and encourage constructive and productive
interactions among students with teacher
[handwritten note]
 2.3 Establishing and maintaining learning
environments that are physically, intellectually, and
emotionally safe Very good [handwritten note]
 2.4 Creating a rigorious learning environment
with high expectations and appropriate support for
all students
 2.5 Developing, communicating, and maintaining
high standards for individual and group behavior
 2.6 Employing classroom routines, procedures,
norms, and supports for positive behavior to ensure a
climate in which all students can learn There is a
variety of work displayed [handwritten note]
[ER 283]
 2.7 Using instructional time to optimize learning
Co-ordinates give example [handwritten note]
Observation Comments: _____________
Standard 3: Understanding and Organizing
Subject Matter for Student Learning
 Innovating
 Implementing
 Emerging
 Not Exhibiting
 3.1 Demonstrating knowledge of subject matter,
academic content standards, and curriculum
frameworks
 3.2 Applying knowledge of student development
and proficiencies to ensure student understanding of
subject matter

JA 280
 3.3 Organizing curriculum to facilitate student
understanding of the subject matter
 3.4 Utilizing instructional strategies that are
appropriate to the subject matter
 3.5 Using and adapting resources, technologies,
and standards-aligned instructional materials,
including adopted materials, to make subject matter
accessible to all students
 3.6 Addressing the needs of English learners and
students with special needs to provide
equitable access to the content
Observation Comments: Support for students w/
STEP/MAPS? [handwritten comment]
Standard 4: Planning instruction and Designing
Learning Experiences for All Students
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 4.1 Using knowledge of students’ academic
readiness, language proficiency, cultural background,
and individual development to plan instruction
 4.2 Establishing and articulating goals for student
learning
 4.3 Developing and sequencing long-term and
short-term instructional plans to support student
learning
 4.4 Planning instruction that incorporates
appropriate strategies to meet the learning needs of
all students Variety [handwritten comment]
 4.5 Adapting instructional plans and curricular
materials to meet the assessed learning needs of all
students Lots of different types of strategies
[handwritten comment]
Observation Comments: _____________

JA 281
Standard 5: Assessing Students for Learning
 Innovating
 Implementing
 Emerging
 Not Exhibiting
 5.1 Applying knowledge of the purposes,
characteristics, and uses of different types of
assessments
 5.2 Collecting and analyzing assessment data from
a variety of sources to inform instruction
 5.3 Reviewing data, both individually and with
colleagues, to monitor student learning IOWA Formal
assessment [handwritten comment]
 5.4 Using assessment data to establish learning
goals and to plan, differentiate, and modify
instruction
 5.5 Involving all students in self-assessment, goal
setting, and monitoring progress
 5.6 Using available technologies to assist in
assessment, analysis, and communication of student
learning
 5.7 Using assessment information to share timely
and comprehensible feedback with students and their
Families packets – Good way to plot co-ordinates
[handwritten comment]
Observation Comments/Commendations: Good
review – Did you have another idea? Good having
students come up to board. Good positive reenforcement. Pick sticks.[handwritten comment]
Recommendations: When you give an assignment go
over directions/give an example. How many picked
“C”? Thumbs up/down. Call a few #s at a time…
[illegible writing]. What about the people whose # is not
up there? Another day – choose anyone you want.
[handwritten comment]

JA 282
[ER 284]
I submit this report in accordance with the schedule
and procedures established by the Department of
Catholic Schools as described in the Administrative
Handbook.
Principal Signatures: /s/ Sister Mary Margaret
Date: 11/13/2013
I have read this report and discussed it with the
principal. My signature does not necessarily imply
agreement this observation report. I understand that
I am free to attach to this observation report any
written reactions I may have within one week of
today’s date.
Teacher Signature: /s/ Kristen Beil
Date: 11/18/2013
**This observation form is used in conjunction with
the California Standards for the Teaching Profession
Handwritten comments:
Observed:
1. Many things on desks
• Kleenex box, markers, Julia
• Pencil sharpeners
• Water bottles
• Books etc. under desks in aisle-Fire etc.
• Binder
• Staple remover – tape (scotch)
Have a zipper-bag for items.
Work on organization –
Do the students work in SS books?
Never allow them to color the pages of the book –
Julia then Francesca (look at)

JA 283
Good Review of Music rules
[illegible notes] +10/12
[ER 285]
 2.7 Using instructional time to optimize learning
Co-ordinates give example [handwritten note]
Observation Comments: _____________
Standard 3: Understanding and Organizing
Subject Matter for Student Learning
 Innovating 3.1, 3.4, 3.5
 Implementing
 Emerging 3.6
 Not Exhibiting
 3.1 Demonstrating knowledge of subject matter,
academic content standards, and curriculum
frameworks
 3.2 Applying knowledge of student development
and proficiencies to ensure student understanding of
subject matter
 3.3 Organizing curriculum to facilitate student
understanding of the subject matter
 3.4 Utilizing instructional strategies that are
appropriate to the subject matter
 3.5 Using and adapting resources, technologies,
and standards-aligned instructional materials,
including adopted materials, to make subject matter
accessible to all students
 3.6 Addressing the needs of English learners and
students with special needs to provide
equitable access to the content
Observation Comments: Support for students w/
STEP/MAPS? [handwritten comment]

JA 284
Standard 4: Planning instruction and Designing
Learning Experiences for All Students
 Innovating
 Emerging

 Implementing
 Not Exhibiting

 4.1 Using knowledge of students’ academic
readiness, language proficiency, cultural background,
and individual development to plan instruction
 4.2 Establishing and articulating goals for student
learning
 4.3 Developing and sequencing long-term and
short-term instructional plans to support student
learning
 4.4 Planning instruction that incorporates
appropriate strategies to meet the learning needs of
all students Variety [handwritten comment]
 4.5 Adapting instructional plans and curricular
materials to meet the assessed learning needs of all
students Lots of different types of strategies
[handwritten comment]
Observation Comments: _____________
Standard 5: Assessing Students for Learning
n/a [handwritten comment]
 Innovating
 Implementing
 Emerging
 Not Exhibiting
 5.1 Applying knowledge of the purposes,
characteristics, and uses of different types of
assessments
 5.2 Collecting and analyzing assessment data from
a variety of sources to inform instruction
 5.3 Reviewing data, both individually and with
colleagues, to monitor student learning IOWA Formal
assessment [handwritten comment]

JA 285
 5.4 Using assessment data to establish learning
goals and to plan, differentiate, and modify
instruction
 5.5 Involving all students in self-assessment, goal
setting, and monitoring progress
 5.6 Using available technologies to assist in
assessment, analysis, and communication of student
learning
 5.7 Using assessment information to share timely
and comprehensible feedback with students and their
Families [packets – Good way to plot co-ordinates
[handwritten comment]]
Observation Comments/Commendations: Good
review – Did you have another idea? Good having
students come up to board. Good positive reenforcement. Pick sticky. [handwritten comment]
Recommendations: When you give an assignment go
over directions/give an example. How many picked
“C”? Thumbs up/down. Call a few #s at a time…
[illegible writing]. What about the people whose # is not
up there? Another day – choose anyone you want.
[handwritten comment]
[ER 286]
I submit this report in accordance with the schedule
and procedures established by the Department of
Catholic Schools as described in the Administrative
Handbook.
Principal Signatures: /s/ Sister Mary Margaret
Date: 11/13/2013
I have read this report and discussed it with the
principal. My signature does not necessarily imply
agreement this observation report. I understand that

JA 286
I am free to attach to this observation report any
written reactions I may have within one week of
today’s date.
Teacher Signature: /s/ Kristen Beil
Date: 11/18/2013
**This observation form is used in conjunction with
the California Standards for the Teaching Profession
Handwritten comments:
Observed:
2. Many things on desks
• Kleenex box, markers, Julia
• Pencil sharpeners
• Water bottles
• Books etc. under desks in aisle-Fire etc.
• Binder
• Staple remover – tape (scotch)
Have a zipper-bag for items.
Work on organization –
Do the students work in SS books?
Never allow them to color the pages of the book –
Julia then Francesca (look at)
Good Review of Music rules
[illegible notes] +10/12

JA 287
Excerpts from Transcript of Deposition of
Mary M. Kreuper
[ER 431]
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
KRISTEN BIEL, an
individual,
Plaintiff,

No. 15-cv-04248 (TJH)
(ASx)

vs.
St. James School, A
Corp, a California nonprofit corporation, and
DOES 1-50, inclusive,

Volume I

Defendants.
DEPOSITION OF
MARY M. KREUPER
Woodland Hills, California
Thursday, November 12, 2015
Reported by: Alla Ponto
CSR No. 10046
NDS Job No.: 174564
*

*

*

[ER 435]
[BY MR. BROCK:]
A. Nine.
Q. Has the school generally looked the same
structure-wise in the 20 years you have been there?

JA 288
Meaning, has it always been a parish school that
taught nine grades?
A. Yes.
Q. What grades are taught there?
A. K to 8.
Q. How many classes?
A. Nine.
Q. So one class per grade?
A. That’s correct.
Q. Has there always been one class per grade?
A. No.
Q. When was it different?
A. When—let’s see. Years before I came there, they
had three grades of each class.
Q. Okay.
A. It went down to two, and then it went down to one.
Q. Do you know when it went down to one?
A. Before I came. I’m not sure.
Q. In the 27 years you have been there, there’s been
one class per grade; correct?
A. That’s correct.
[ER 436]
Q. And is there one teacher per grade per class?
A. There’s one teacher.
Q. So is there one 8th grade teacher, one 7th grade
teacher, one 6th grade teacher, one 5th grade

JA 289
teacher, one 4th grade teacher, one 3rd grade teacher
one 2nd, one 1st and one K?
A. Yes.
Q. Who is the current 8th grade teacher?
A. Sister Lana, L-a-n-a.
Q. Is there a prerequisite that a teacher needs to be
Catholic in order to teach at St. James?
A. It’s recommended.
Q. Is it a requirement?
A. No.
Q. Sister Lana—I take it she is Catholic?
A. She is.
Q. How long has she taught the 8th grade?
A. About 13 years.
Q. Who is the current 7th grade teacher?
A. Mrs. O’Dowd, O-d-o-w-d.
Q. Do you know if Mrs. O’Dowd is Catholic?
A. Yes.
Q. Do you know how long she’s taught the 7th grade?
A. About 15 years.
*

*

*

[ER 437]
A. Yes.
Q. Do you know how long she’s taught the 3rd grade?
A. This is her first year.

JA 290
Q. 2014—
A. 2015/2016.
Q. Do you know who taught the 3rd grade prior to
Ms. Raad?
A. Yes.
Q. Who?
A. Cynthia Wight, W-i-g-h-t.
Q. Do you know how long Ms. Wight taught the 3rd
grade?
A. 17 years.
Q. Who teaches the 2nd grade?
A. Mrs. Sitter, S-i-t-t-e-r.
Q. Is she Catholic?
A. Yes.
Q. Do you know how long she taught the 2nd grade?
A. Eight years.
Q. Who is the 1st grade teacher?
A. Elisa Schiappa-Gobee, S-c-h-i-a-p-p-a, dash G-o-be-e, and Ms. Roberts, Monica Roberts
Q. Does one teacher teach two days a week and one
teacher teaches another day?
*

*

*

[ER 441]
Q. And what did she say when she got back to you?
A. She said she cancelled her appointment with Chris
Knowles and would like to take the position at St.
James.

JA 291
Q. Do you know when that conversation took place?
A. No. In May sometime.
Q. I will give you a document that we’ll mark as
Exhibit 2. (Plaintiff’s Exhibit 2 was marked for
identification by the court reporter and is attached
hereto.)
BY MR. BROCK:
Q. Ma’am, have you seen this document before?
A. Yes.
Q. Can you tell me what this document is?
A. This is an employment agreement that we sign
with each teacher
Q. Page 4 of the agreement, is that your signature?
A. Yes.
Q. Also on Page 5?
A. Yes.
Q. It is dated May 28, 2013. Is that in or around the
time you had offered Ms. Biel the position?
A. I think it was a little bit after that.
*

*

*

[ER 442]
A. Define work performance.
Q. Her job performance in the broadest, sort of,
spectrum.
My understanding is she wasn’t asked back,
according to the verified discovery responses, due to
her job performance.

JA 292
Did you have any issues with her job performance
from August to November?
A. Yes.
Q. What issues did you have?
A. Classroom management, grading, policy.
Q. Grading policy?
A. No. Grading, and then policy.
Q. Okay. Any other issues?
A. That’s pretty much it.
Q. What classroom management did you observe?
A. I observed a chaotic environment, lots of talking,
lots of getting out of their seats with seemingly no
purpose, just because they wanted to go visit a friend.
I observed much clutter in the classroom and mostly
on and around the students’ desks.
Q. Okay. Any
management?

other

issues

with

classroom

A. Yes. We have a homework policy.
Q. Okay.
*

*

*

[ER 443]
Q. Why were you meeting with her then?
A. She would bring her lesson plans, or I would want
to see her about the clutter that I saw on the desks or
that kind of thing.
Q. Did you talk to her about the clutter throughout
the 1st trimester?

JA 293
A. Yes.
Q. Did the chaotic environment improve during the
1st trimester or get worse from the first time you
noticed it?
A. I think it stayed the same.
Q. What about the clutter? Did it stay the same?
A. Yes.
Q. The homework policy we discussed. Okay. What is
the grading issues that you had in the 1st trimester?
A. All the students in her classroom with the
exception of one was on the honor roll.
Q. It’s because they are all doing their homework;
right?
A. Right.
Q. Every single one was on the honor roll?
A. Except one.
Q. How does one get on the honor roll at St. James?
[ER 444]
A. You have to have 25 points made up of “A”s and
“B”s on your report card and a “good” in work habits
and behavior.
Q. Did you feel like she was too lenient on the
students?
A. Yes.
Q. When does the honor roll come out?
A. After the first report card.
Q. When does that come out?

JA 294
A. November.
Q. November what? Do you know?
A. Probably mid November.
Q. Okay.
A. On a Tuesday.
Q. How many 5th graders would typically be on the
honor roll after the first time the report cards came
out?
A. About 20 to 25, maybe.
Q. How many did she have on there?
A. 30 or however many she had in her class with the
exception of one.
Q. So 20 to 25 would be typical, and she had everyone
but one?
A. Correct.
Q. Do you have a list of the 5th graders on honor
*

*

*

[ER 447]
A. Yes.
Q. Did you ever conduct any written performance
evaluations of Ms. Biel during that 1st trimester?
A. Yes, I did.
Q. How many?
A. One in November, one formal one in November.
Q. The other ones would be the walkthroughs and the
walk-bys?
A. And in the meetings with her, yes.

JA 295
Q. What is the purpose of the performance, written
performance evaluation?
A. So that the teacher can see in documented form
the pros and the cons of what they are doing.
Q. Do you do performance evaluations of all the
teachers?
A. Yes.
Q. Do you do them at around the same time?
A. Yes.
Q. How often do you do written performance
evaluations of teachers during the school year?
A. Formal written, twice.
Q. What period of time?
A. November and then again in May.
Q. I will hand you a document that we’ll mark as
Exhibit 3.
[ER 448]
(Plaintiff’s Exhibit 3 was marked for identification by
the court reporter and is attached hereto.)
BY MR. BROCK:
Q. Have you seen this document before?
A. Yes, I have.
Q. Can you tell me what this document is.
A. This is the observation report that I did for
Kristen.
Q. Okay. When did you perform this report?
A. In November.

JA 296
Q. 2013?
A. Yes.
Q. This would have been after the 1st trimester?
A. Yes.
Q. It says, “2:10, Excell.” Can you tell me what that
mean[s]?
A. After I did this report, Kristen asked me if I would
come up to the computer lab and see an Excell class
that she was going to do. Graphics. I said, “Yes.”
Q. Okay. “Subject: Math.” What does that mean?
A. That’s the subject I observed.
Q. How long did you observe her teaching?
[ER 449]
A. About 40 minutes.
Q. And you filled out this document; correct?
A. Yes, I did.
Q. And you wanted to be accurate about what you
observed; correct?
A. Yes.
Q. You write the word “respect”?
A. Uh-huh.
Q. What do you mean by that?
A. She was respectful to all the students, treated
them.
Q. Is it a template form that you fill out?
A. Yes.

JA 297
Q. What do the Xs mean on the boxes?
A. I did that. Those are that they—there was
evidence of that.
Q. What do you say there at the bottom? There’s a
variety of work displayed?
A. She had class work that they had completed hung
up in her room.
Q. You find that a positive?
A. Yes.
Q. Next page, “Coordinate. Give example.” What do
you mean by that?
A. “Using instructional time to optimize
[ER 450]
learning. Coordinates and gives examples.”
She probably taught a concept, and then she gave
examples of the concept she was teaching.
Q. “Observational comments.” Can you read into the
record just to make sure I have it correct. I think it
starts with, “Good way to”—something.
A. Where is that now? Okay.
“Good way to plot and coordinate. Good review.
Did you have another idea? Good having students
come up to the board. Good positive reinforcement.
Pick sticks. When you give an assignment, go over
the directions. How many picked ‘C’? They had their
heads down and their thumbs up. Call a few numbers
at a time. What about the people whose number is
not up there? Choose anyone you want.”

JA 298
Q. Okay. The next page. It says: “This observation
form is used in conjunction with the California
standards for the
[ER 451]
teaching profession.”
Do you know what that means?
A. Yes. It means that this is a template that is used
with the California teaching profession.
Q. Can you read into the record what it says on the
bottom under “observed”?
A. It says, “Observed many things on the Desks,
Kleenex box, markers. Julia.”
Q. Who is Julia?
A. She’s one of the students in there.
Q. Are you saying that that student had things on the
desk or all of the students had things on their desks?
A. All the students had things on the desks. She had
an inordinate amount of markers on the desk
Q. Okay.
A. It says:
“Pencil sharpeners, water bottles, books, et cetera,
under the desks and in the aisle. It’s a fire hazard.
Binders, staple removers, tape, Scotch tape.”
Now I am suggesting these things:
“Have a zipper bag for these items. Work on
[ER 452]

JA 299
organization. Do the students work in their Simple
Solution books? Never allow the student to color the
pages of the book.”
Q. “Julia,” again?
A. Yes.
Q. Okay.
A. And “Francesca.” And then, “Go over the page
ahead of time.” I can’t read that.
Q. Okay.
A. And at the end of it, she had a good review of
music rules.
Q. It says “plus 10 over 12”?
A. That’s what I had suggested that she use as her
grading. If there were 12 items, then if they got 10
right, she put a plus 10 over 12. I thought it would be
easy for her to see that and be able to grade those.
Q. Did you feel this was a positive performance
evaluation?
A. Parts of it were.
Q. What parts weren’t? Was that the parts that you
observed?
A. Yes.
Q. Did you meet with Ms. Biel to go over this
evaluation?
*

*

*

[ER 453]
contract.”
Q. Based on her job performance?

JA 300
A. That’s right.
Q. And these were during meetings you had with
her?
A. Yes.
Q. How frequently were you having meetings with
her?
A. After January, I met with her weekly.
Q. Did you set up these meetings, or did she request
them?
A. No, she didn’t request them. I asked to see her.
Q. Once a week?
A. Sometimes twice a week.
Q. Why did you ask to see her?
A. Because I wanted to check in with her to see how
she was doing with regards to all the things we
talked about
Q. Did you check in with other teachers?
A. On those same issues?
Q. On any issues.
A. I check in with teachers regularly, yes.
Q. Did you have meetings once a week or twice a
week—
[ER 454]
A. No.
Q. –with other teachers?
A. No.

JA 301
Q. How frequently would you have meetings with
other teachers?
A. Depends on what the issue is. It could be—it could
be twice a week. It could be once every two weeks
Q. It says, “math.” What does it say underneath that?
A. “Pacing. Be sure skills are mastered.”
Q. Do you know when you wrote that?
A. No, I don’t.
Q. “Grades”?
A. I recall being in her classroom one time, and she
did have a group religion—it was kind of like a skit.
And I noticed that two of the students didn’t do
anything with the skit. They just sort of were in it.
And she gave everybody an A. She told them right
there, “Everyone gets an A.”
I am not sure how you give everybody the same
grade.
Q. Do you know when that happened?
A. No, I don’t.
Q. It says, “Communication. E-mail not to
*

*

*

[ER 458]
A. Looks like February 21st.
Q. When did you first decide that Ms. Biel would not
be offered a contract for the 2014/2015 school year?
A. Probably after I got this. I was thinking that
maybe she wouldn’t say she wanted to return.
Q. Okay.

JA 302
A. So after this.
Q. When you gave her this, were you hoping that she
would say “No?”
A. I wasn’t hoping that she would say “No,” but I was
hoping that she had learned something. But I felt
that she probably thought that I was being too hard
on her. That’s my feeling.
Q. Okay. Did you have an expectation that she would
say no, that she did not want to return for the next
school year?
A. I didn’t have an expectation. I thought maybe she
wouldn’t want to.
Q. Up until February 21, 2014, had you made a
decision one way or the other that you were going to
offer Ms. Biel a contract for the next school year?
A. I hadn’t decided.
Q. Are you the only person who makes the decision to
offer a teacher a contract for a school year?
A. Yes.
*

*

*

[ER 459]
school year?
A. No, she didn’t.
Q. There’s some checked box on credentialing?
A. Uh-huh.
Q. Did any part of Ms. Biel’s credentials play any role
in why she was not asked for the 2014/2015 school
year?

JA 303
A. No.
Q. All right. When did you decide that Ms. Biel would
not be returning for the next school year?
A. My tendency was in, say, March. When I found out
that she was wanting to return, I thought, well, you
know, I will work with her until to see if things
change. So probably in March I thought that I don’t
think this is going to work out.
Q. Was there a particular event that happened that
caused you to make a decision that it’s probably not
going to work out or was it just an accumulation of
things? What was it, if you can tell me?
A. I think it was the lack of doing the things that I
had asked her to do.
Q. In particular, what things?
A. Classroom, the orderliness or lack of in the
classroom, the chaoticness of the classroom—that
never changed.
[ER 460]
I found out that she wasn’t using a grammar book
that she was supposed to be using.
She was also not letting children work in the
Simple Solutions book, and I had asked her to do
that.
I think—I believe that she did do that after I had
said to her, “Let them work in the book.” It’s a
workbook.
Q. When you made the decision in March 2014, did
you communicate your decision to Ms. Biel at that
time?

JA 304
A. I think first I determined in my own mind I don’t
think this is going to work. However, I continued to
try and work with her up through March and April.
And, then, finally it just wasn’t going to work.
Q. Did you ever tell Ms. Biel she would not be offered
a contract prior to her going out on leave?
A. Before May 22nd. I said a couple of times, “I’m
going to find it difficult to offer you a contract.
Q. You said that a couple of times?
A. Couple of times, uh-huh.
Q. And when is the first time you said that to her?
A. Probably after this, probably the first part of
March.
Q. When is the second time?
[ER 461]
A. Probably—maybe the first part of April, I
continued to meet with her to try and resolve these
issues, and it just wasn’t working.
Q. Did you ever tell her she would not be offered a
contract prior to her going out on leave?
A. Yes –no. Prior to her going out—prior to May
22nd.
Q. When Ms. Biel went out on leave, did you ever tell
her that she would not be offered a contract?
A. Yes, I did.
Q. When did you tell her?
A. When?
Q. Yes.

JA 305
A. I don’t remember. It was between April and May.
Yeah.
Q. Do you know when Ms. Biel told you she had
cancer?
A. Yes.
Q. When was that?
A. It was the Monday after Easter vacation.
Q. Do you know the date?
A. April— probably the middle or toward the end of
April.
MR. BROCK: Let’s take a break.
(Whereupon, at the hour of 12:36 P.M.,
*

*

*

[ER 462]
1:42 P.M.
MARY M. KREUPER,
having been previously duly sworn,
was examined and testified as follows:
EXAMINATION
BY MR. BROCK:
Q. Go ahead.
A. I will tell you where it was.
Q. Please.
A. It was when we were talking about Elisa Schiappa
being out on maternity leave and Kristen subbing for
her at that time.

JA 306
Q. Uh-huh.
A. That was incorrect. Although Elisa had been out
on maternity leave for two children, the one that
Kristen subbed for was Annie Babuder.
Q. Got you.
A. Sorry about that.
Q. Did Elisa go out on maternity leave two times
during her employment with St. James?
A. Yes.
Q. How frequently—strike that.
[ER 463]
Can you tell me how frequently teachers went out on
a leave of absence that lasted longer than one or two
weeks?
A. Only for babies, and that was four of them.
Q. Had any teacher taken a leave of absence for any
medical condition other than pregnancy?
A. No.
Q. Four teachers in your 27 years went out on
maternity leave?
A. Correct.
Q. Okay.
A. And so Annie subbed for two days a week, not the
three that I said.
Q. Okay. Tell me when—Ms. Biel told you she had
cancer following Easter break?
A. Yes.

JA 307
Q. Do you know if it was a Monday?
A. Yes.
Q. Sometime in April?
A. Yes.
Q. Tell me how she told you.
A. She came in to my office, and she said that during
Easter vacation, she had found a lump on her breast
and went to the doctor, and they wanted to do some
tests, and they thought it was cancer.
[ER 464
Q. Did she tell you that she was waiting for test
results at that time?
A. I couldn’t really say for a fact, but she told me she
had several appointments. And I said, “You take
whatever you need to take.”
Q. At some point, did she tell you she would need to
take a leave of absence from work?
A. No.
Q. At some point, did she tell you that she would
need to undergo chemotherapy and surgery?
A. Yes.
Q. When did she tell you that?
A. That was probably in—in probably—maybe end of
April, first part of May.
Q. Do you recall what she said at that time?
A. She said that the doctors were going to try to
shrink the tumors and she would have to undergo

JA 308
treatment for that. She didn’t say specifically what it
was and that—that’s what she would have to do.
Q. From the time she first told you that she was
having tests to determine whether or not she had
cancer up until this conversation at the end of April
where she told you that she was going to have
chemotherapy and eventually surgery, did she have
any conversations with you about her cancer?
[ER 465]
A. In what regard?
Q. That it’s been diagnosed or anything like that?
A. At some point, she told me she had cancer and
that she would have to be in treatment
Q. That was before she told you about—strike that.
She tells you the Monday you come back from
Easter vacation that she found a lump and she is
undergoing tests; correct?
A. Yes.
Q. When is the next time you had any conversation
with Ms. Biel about her cancer?
A. Probably after the next doctor’s appointment that
she had.
Q. Do you recall what she told you?
A. That she would have to undergo treatment to
shrink the tumors, to try to shrink the tumors.
Q. Was that the conversation you believe happened
towards the end of April, early May?
A. Yes.

JA 309
Q. Did she tell you in that conversation when she was
going to begin chemotherapy?
A. No.
Q. Was Ms. Biel—did Ms. Biel finish the
[ER 466]
2013/2014 school year?
A. No, she didn’t.
Q. When did she take off?
A. She said that her last day would be May 22nd.
Q. When did she inform you that her last day would
be May 22nd?
A. Probably a couple of weeks before that.
Q. Do you recall a specific date?
A. No, I don’t.
Q. Was it during this late April, early May
conversation?
A. Probably a little bit after that. I think she had to
get more doctors’ consults.
Q. Tell me about that conversation where she informs
you she would not be finishing the school year.
A. She said that she was going to undergo some type
of treatment. It was sort of vague. I don’t know that
she had—actually knew. She was going to undergo
some kind of treatment, and she needed to be—her
last day needed to be May 22nd.
Q. Do you know how much notice that was?
A. Probably two weeks.

JA 310
Q. Did she tell you how long she would be unable to
work?
A. It was vague. She wasn’t quite sure.
*

*

*

[ER 467]
May 22nd about two weeks prior; correct?
A. Yes.
Q. Prior to her telling you that her last day was on
May 22nd, did you ever have any conversations with
her where she told you she might be missing time
from work?
A. No.
Q. Did she tell you what type of cancer she was
diagnosed with?
A. No.
Q. At the time that Ms. Biel informed you that she
had cancer—strike that.
At the time that—the Monday after Easter, she
told you she might have cancer, had you made a
decision whether or not to offer Ms. Biel a scholarship
for the next—had you made a decision whether or not
to offer Ms. Biel a contract for the next year?
A. Yes, I think I had, uh-huh.
Q. What was your decision?
A. It was not to rehire.
Q. Did you communicate that decision to Ms. Biel
prior to that Monday she returned following Easter
and told you she might have cancer?

JA 311
A. Yes, I did.
Q. What did you tell her?
[ER 468]
A. I told her I was not going to be able to offer her a
contract
Q. When did you first tell her that?
A. It was before May 15th and—I would say probably
early May.
Q. That’s after the Easter break; correct?
A. Yes.
Q. Did you tell—did you ever tell Ms. Biel before the
Easter Monday— strike that.
Did you ever tell Ms. Biel before the Monday after
Easter, when she told you she might have cancer that
she was not going to get a contract for the following
school year?
A. I mentioned on several occasions in early January,
February when I met with her, that because of her
performance, that I was going to find it very difficult
to offer her a contract
Q. I understand that. Did you tell her, though, prior
to her informing you she might have cancer on that
Monday after Easter, that you made your decision
and she was not going to get a contract?
A. I told her that—I said to her that this didn’t look
like it was working out. No. I don’t think I ever said
that I definitely was not going to rehire her
*
[ER 469]

*

*

JA 312
A. Yes.
Q. When did you tell her that?
A. With that letter on May 15th and then before
leading up to it all those other times that I told her
that I would find it difficult, that I just didn’t think I
could offer her a contract.
Q. But did you ever tell her she would not be given a
contract?
A. No.
Q. I will hand you a document that we will mark as
Exhibit 6.
(Plaintiff’s Exhibit 6 was marked for identification
by the court reporter and is attached hereto.)
BY MR. BROCK:
Q. Can you tell me what this document is?
A. This is my formal letter to her saying that I would
not be prepared to offer her a contract.
Q. When did you prepare this letter?
A. May 15th.
Q. Is this the first time you communicated to Ms. Biel
definitively that she would not be offered a contract
for the 2014/2015 school year?
A. Definitively, yes.
Q. You had hinted that you had trouble giving her
[ER 470]
a contract, but this is the first time you tell her she
ain’t coming back?

JA 313
A. I don’t think I hinted. I think it was stronger than
a hint. Because when I say to somebody “I am not”—
“I don’t think I’m prepared”— “I don’t think I am
going to be able to offer you a contract,” that’s what I
meant, and this was the formal declaration of that
Q. At any time prior to May 15, 2014, did you tell Ms.
Biel that you are not prepared to offer her a contract
for the 2014/2015 school year?
A. Yes.
Q. How did you—did you write this document before
or after Ms. Biel told you two weeks prior to May
22nd that that would be her last day?
A. Please repeat that.
Q. When you sent this document—
A. Yes.
Q. —did you know Ms. Biel’s last day of work would
be May 22nd?
A. Yes.
Q. She had already told you that May 22nd would be
her last day; correct?
A. Right.
Q. How did you present this document to Ms. Biel?
[ER 471]
A. As I do with any teacher, I put it in their mailbox.
I put letters or notes in their mailboxes.
Q. Where is their mailbox?
A. In the faculty room.
Q. Do you know if Ms. Biel got this letter?

JA 314
A. No.
Q. You don’t know?
A. I don’t know.
Q. Did you ever follow up with Ms. Biel prior to May
22nd when her last day of work was to ensure that
she got this letter?
A. No.
Q. Did you ever have a conversation with Ms. Biel
prior to May 22nd where she discussed receiving this
letter?
A. No.
Q. Did you—when is the last time you looked in her
mailbox?
A. I don’t actually look at it. If I have something to
put in it, I do. I don’t make it a practice to look at it.
There’s lots of things in there.
Q. Do you still have her mailbox?
A. No. I mean, somebody else’s name is there, but it’s
there.
[ER 472]
Q. Did you clean out her mailbox?
A. I think it was cleaned out.
Q. Do you know who cleaned it out?
A. I think she did.
Q. Have you put letters like this in other teachers’
mailboxes, letters expressing—strike that.

JA 315
Have you put a letter to a teacher saying they
would not be offered a contract in one of their
mailboxes?
A. No.
Q. This is the first time?
A. Well, yes.
Q. Is there any reason why you didn’t personally
deliver this letter to Ms. Biel?
A. That’s not my ordinary way of communicating
with something like this. I usually put—any notes or
something in the mailbox. That’s my ordinary way of
doing it.
I did that because I felt that I had talked so much
with her, and there was nothing else left to say. I
think she knew that I wasn’t prepared to offer the
contract, and this was the formal—saying that I
wasn’t.
Q. Why did you wait until May 15, 2014, to write a
letter to Ms. Biel advising her that she would not
[ER 473]
have a contract for the 2014/2015 school year?
A. That’s the day that we have to let teachers know.
Q. Who has mandated that to be the day?
A. It’s in the contract, I believe.
Q. What contract?
A. On No. 7 on Page 2 at the bottom.
Q. Did you ever extend Mrs. Biel’s introductory
period?

JA 316
A. What does that mean?
Q. Part of the contract, Page 5, No. 5, there’s an
introductory period for a newly hired or transferred
teacher. The introductory period is a minimum of 90
calendar days and may be extended in writing for up
to another 90 calendar days at the discretion of the
principal.
A. Uh-huh.
Q. Did you ever extend her introductory period?
A. I kept her until she requested that her last day be
the 22nd of May. Yes.
Q. Did you notify her in writing that her introductory
period would be extended by 90 days after—
A. No.
Q. —after the initial 90 days?
*

*

*

[ER 475]
A. And the first part of September.
Q. But other than maybe some other lesson plan
documents, are you aware of any other documents
out there that document a concern that you had with
Ms. Biel’s work performance?
A. No.
Q. Did you ever advise her in writing, at any time, if
she doesn’t improve her job performance, she would
not be offered a contract back?
A. Did I say that in writing?
Q. Yes.

JA 317
A. No. I said it to her.
Q. But not in writing; correct?
A. Not in writing.
Q. And you never considered terminating her
employment during the introductory period; correct?
A. No.
Q. You never considered -- strike that.
Did you ever consider extending the introductory
period for Ms. Biel?
A. By keeping her in the 5th grade after the
introductory period and me working with her, that, to
me, was an indication that I was willing to work with
her to try and help her be a better teacher.
Q. Assume that Ms. Biel could not return to work
[ER 476]
until January of the 2014/2015 school year and you
had to get two teachers, would that have created any
burden on St. James?
A. No, because I have done that before.
Q. Done what before?
A. Gotten a sub for a maternity leave or -- mostly it
was that.
Q. Did the fact that Ms. Biel needed a leave of
absence and couldn’t for [sic] work for about six
months, did that play any role in your decision to
bring her back?
A. She never asked me for a leave of absence.

JA 318
Q. Did she ever tell you that she would be unable to
work for a period of time?
A. Yes.
Q. Did that play any role in your decision not to hire
her back?
A. No.
Q. Can you tell me how many teachers you have not
asked back due to performance reasons?
A. I think only one.
Q. Mrs. Biel?
A. No. Counting her, two.
Q. One prior?
A. Yes.
Q. That was Ms. Wittermore?
*

*

*

[ER 477]
willing to make the changes.
Q. When you say she was not structured and
permissive, was that your opinion about her teaching
style, or was that just sort of an objective fact? I’m
trying to understand.
MS. FERMIN: Vague.
THE WITNESS: I think I know what you mean.
BY MR. BROCK:
Q. Yeah.
A. No. It was the reality that I saw. Every time I
walked by or went in or I subbed for her, I saw it.

JA 319
Q. How many times did you sub for her?
A. Three or four.
Q. Did you feel that the kids in her 5th grade class
didn’t get a good educational experience during that
year?
A. From an educator’s point of view, I don’t think
they did. From their point of view and their parents’
point of view, they did.
Q. Why is that?
A. Because when children who never made the honor
roll are on the honor roll, the parents were ecstatic.
From my point of view, all the things that I tried
to help Kristen with and help her to be a better
*

*

*

JA 320
[ER 483]
FACULTY EMPLOYMENT
AGREEMENT—ELEMENTARY
Exempt Full Time
Department of Catholic Schools
Archdiocese of Los Angeles
Name of School: St. James
Name of Teacher: Kristen Biel
Start Date: August 26, 2013
End Date: June 30, 2014
1. Term. The School (“School”) and you (the “Teacher”) make this Employment Agreement (“Agreement”), effective on the date below, for the work period shown above (the “Term”), for you to serve as a
member of our faculty.
2. Philosophy. It is understood ·that the mission of
the School is to develop and promote a Catholic
School Faith Community within the philosophy of
Catholic education as implemented at the School, and
the doctrines, laws and norms of the Catholic
Church. All duties and responsibilities of the Teacher
shall be performed within this overriding commitment.
3. Duties. Your duties shall be those-of a full-time or
part-time faculty member as specified in the Compensation and Benefits Supplement which is an integral part of this Agreement. You shall use your best
professional efforts and skills to perform your duties
in a diligent, energetic, competent, and ethical manner, consistent with the School’s established philosophy and its policies, directives and expected practices. You acknowledge and agree that the School re-

JA 321
tains the right to operate within the philosophy of
Catholic education and to retain teachers who
demonstrate an ability to develop and maintain a
Catholic School Faith Community. You understand
and accept that the values of Christian charity, temperance and tolerance apply to your interactions with
your supervisors, colleagues, students, parents, staff
and all others with whom you come in contact at or
on behalf of the School. Accordingly, you are expected
to model, teach, and promote behavior in conformity
to the teaching of the Roman Catholic Church. Your
duties shall include careful preparation and planning
for each class consistent with School and departmental curriculum; diligent review and evaluation of
student work and related communication to students
and parents; and conferring with students, the administration, and parents as needed regarding each
student’s progress and development. You also shall
attend faculty/staff meetings and conferences, including those prior to and following the School’s regular
academic year, participate in School activities including School liturgical activities, as requested, and
complete other duties as assigned. You agree to
maintain the levels of competency in subject matter,
teaching methods, classroom management, and student supervision required by the School whether on
your own initiative or at the direction of the School.
Your duties and job assignment may be revised during the Term to meet the School’s needs. In the event
the School’s operations are extended by reason of fire,
disaster, act of God, act of public authority or any
other necessity or emergency cause, your services
may be suspended for the time period and rescheduled as needed to complete the full School year.

JA 322
4. Policies. You shall be familiar with, and comply
with the School’s personnel policies and procedures
as they may be adopted or amended from time-totime, including policies in the faculty handbook. You
should refer to such documents for information relating to your employment, duties, and benefits. You
shall be familiar with, abide by, and assist and cooperate with School administration in enforcing, the
School’s policies for students and families whether
outlined in our handbook(s), our School policies, or
other directives and expected practices (together “Policies”). You acknowledge that a copy of the faculty
handbook has been made available to you. You understand and acknowledge that the policies do not
constitute a contractual agreement with you.
5. Introductory Period. There is an introductory
period for a newly hired or transferred teacher. The
introductory period is a minimum of 90 calendar
days, and may be extended, in writing, for up to another 90 calendar days at the discretion of the principal. During the introductory period this Agreement is
at will; therefore, it can be terminated at any time,
for any reason, without any notice. The Principal
shall complete a performance appraisal at the end of
the introductory period. Upon satisfactory completion
of [ER 484] the introductory period, employment will
be continued through any remaining term of this
Agreement except as noted under “Termination.”
6. Termination. Your employment, and this Agreement, may be terminated during the Term without
payment of salary or benefits beyond such date of
termination, for any of the following reasons:
I. The School may terminate for “cause” without
any prior notice. Such “cause” shall be determined

JA 323
by the School within its reasonable judgment and
shall include but not be limited to:
a) Failure to meet any of your duties as described in Paragraphs 3 and 4 above.
b) Inappropriate physical or social contact with
students during school or otherwise.
c) Unprofessional or unethical conduct, insubordination, unauthorized disclosure of confidential information or habitual or unreasonable tardiness or absence from duties.
d) Any criminal, immoral or unethical conduct
that relates to your duties as a teacher or
brings discredit upon the school or the Roman
Catholic Church.
e) Unauthorized possession of, or working under the influence of, illegal drugs, intoxicants,
or alcohol.
f) Threatening or causing bodily harm to others or other coercive and or intimidating acts,
or any verbal or physical harassment.
g) Having a diploma, credential, permit, license or certificate denied, revoked or suspended.
h) Falsification of documents, false or misleading information on an application, resume,
personnel record, professional or character reference, academic transcript, degree or credential.
i) Any other breach of the terms of this Agreement.

JA 324
II. Either you or the School may terminate this
Agreement without cause, for any reason within
the sole discretion of the terminating party, upon
30 calendar days’ prior written notice to the other
party in a manner that is consistent with applicable law and on a time frame that is mutually
agreeable to you and the Principal. However, you
may not terminate employment under this
Agreement if the termination is effective during
the 30 days immediately prior to the beginning of
the school year except by mutual agreement with
the Principal. You acknowledge that a breach by
you of this provision is a grave ethical violation,
may harm the educational program for the students and may cause expenses and damages to
the School.
III. The School may terminate your employment if
you are unable to perform the essential functions
of your position and reasonable accommodation is
not available or required under applicable laws.
The School’s failure to invoke its right of termination
on one occasion for the occurrence of a matter constituting a basis for discharge shall not affect the right
of the School to invoke discharge when the same or a
different basis for termination arises at a later date.
7. Renewal. Future employment will be determined
on a year-to-year-basis. It is agreed that you will give
written notice to the School, on or before April 1,
20__, stating whether or not you wish to renew the
Agreement. The School will give you written notice,
or before May 15, 20__, stating whether or not it intends to renew the Agreement for the following year.
In the absence of a notice by either party, this
agreement will lapse under its own terms. The Prin-

JA 325
cipal alone, with the approval of the Pastor, has the
final and sole authority with respect to offering contracts. This Agreement is contingent upon sufficient
School enrollment and the School’s financial condition. If the enrollment or the School’s financial condition does not justify the staffing, the Principal has
discretionary power to make decisions regarding personnel reduction including, but not limited to, modification or cancellation of this Agreement. Notwithstanding this, if the School closes for any reason, this
Agreement will be considered terminated on the date
of the closure. You understand that tenure is not
granted by Archdiocesan Schools and upon expiration
or termination of the Agreement for any reason you
shall have no right to
[ER 485]
FACULTY COMPENSATION AND BENEFITS
SUPPLEMENT
Elementary—Exempt Full Time
Department of Catholic Schools
Archdiocese of Los Angeles
13. School Day and Work Schedule.
Full Time Faculty
As a full time teacher, you understand that there will
be approximately 8 hours of work at the School each
regular class day. You will also devote additional
time to other assigned school responsibilities and in
preparation and assessment activities at hours not
during the regular class day. The School’s regular
class day is from 7:30 a.m. to 3:45 p.m.
14. Base Compensation.
Base Salary: $34,970

JA 326
15. Additional Compensation For Designated
Responsibilities (If Any):
Note: Calculations and Additional Compensation for
designated responsibility are based on anticipated
time commitment and skills.
Responsibility

Additional Compensation

_____________

$________________________

_____________

$________________________

_____________

$________________________

Total Additional Compensation: $ ____________
16. Payment Schedule.
Compensation for all faculty will be distributed on a
semi-monthly/bi-weekly
schedule
beginning
August 30, 2013 and ending June 20, 2014.
34,970/22
17. Education And Professional Growth Requirements:
In accordance with the regulations for salary placement and professional growth requirements, you
agree that you will complete the following requirements to be eligible to be offered an employment
agreement for the next school year.


______________________________________________



______________________________________________



Enroll in California Testing Credential program.

 Complete at least ______ unites toward a Christian Teaching Credential.

JA 327
 California Teaching Credential program must be
completed by July 1, 20___ for an Elementary School
Faculty Employment Agreement to be offered for the
20___—20___ academic year.
18. Available Benefits.
See Department of Catholic Schools Lay Employees
Benefit Guide.
[ER 486] employment or preferential treatment regarding employment at any other Archdiocesan
School. There is no implied duty by you or the School
to renew this Agreement, and no cause whatsoever is
required by either party for non-renewal. Any other
arrangement with respect to respect to renewal, extension or duration of employment is valid only if in
writing, executed by you and the Principal, with the
approval of the Pastor.
8. Severability. If, for any reason, any one or more
of the provisions of this Agreement shall be held or
deemed to be legally invalid or unenforceable, that
shall not have any effect on any of the other provisions of this Agreement, all of which shall remain in
full force and effect.
9. Entire Agreement. This Agreement and the attached Compensation and Benefits Supplement contain the complete and entire agreement between you
and the School, and it supersedes all prior offers,
agreements, commitments, understandings, whether
oral or written. No changes to this Agreement may be
made except by a document signed by you and the
Principal, with the approval of the Pastor.

JA 328
10. Applicable Law. This Agreement in [sic] entered into under, and governed by the laws of the
State of California.
11. Dispute Resolution and Grievances. You and
the School agree to attempt to resolve any disputes in
good faith. Any unresolved dispute between you and
the School arising out of or in any way related to your
employment or the termination thereof, shall be subject to the Grievance Procedures promulgated by the
Archdiocesan Department of Catholic Schools and no
legal actions may be taken until all procedures have
been fully discharged. This clause is intended to provide a speedy, economical and exclusive forum for resolving claims; its existence shall not imply any limitations upon the School’s right to manage its affairs
or terminate any employment.
12. Condition Precedent. It is agreed that a condition precedent of this Agreement is the receipt of the
Criminal Record Summary report from the California
Department of Justice and the Federal Bureau of Investigation, the completion of the I-9 Form from the
Immigration and Naturalization Service, and the
completion of the other relevant health and document
requirements of the school.
By: /s/Sister Mary Margaret
Principal’s Signature
Sr. Mary Margaret
Print Name
5/28/2013
Date
I accept a position as Grade 5 Teacher at St. James
School School [sic] on each and all of the terms and

JA 329
conditions set forth in the above Agreement and the
attached Compensation and Benefits Supplement.
By: /s/Kristen Biel
Teacher’s Signature

Kristen Biel 5/25/13
Print Name Date

By: /s/Msgr. Michael Meyers Msgr. Michael Meyers
Pastor’s Signature
Print Name
5/28/13
Date
[ER 487]
Sick Day: Full-time Faculty: 10 days per school year.
/s/Sister Mary Margaret
Principal’s Signature

Sr. Mary Margaret
Print Name

5/28/2013
Date
/s/Kristen Biel
Teacher’s Signature

Kristen Biel 5/25/13
Print Name Date

/s/Msgr. Michael Meyers Msgr. Michael Meyers
Pastor’s Signature
Print Name
5/28/13
Date

JA 330
[ER 502]
ST.JAMES CATHOLIC SCHOOL
4625 Garnet St.
Torrance, CA 90503
(310) 371-0416
May15, 2014
Dear Kristen,
At this time I am not prepared to offer you a contract
for the 2014-2015 school year at St James School.
We have had many conversations about your classroom management. I have tried to offer suggestions,
which I thought would help you. They haven't seemed
to work.
I do think that you are better suited for a position in
the primary grades. You have agreed with me. Unfortunately, I do not have a primary position available.
I wish you the very best!
Sincerely,
/s/Sr. Mary Margaret
Sister Mary Margaret
Principal

JA 331
DECLARATION OF
MARY MARGARET KREUPER
*

*

*

[ER 666]
School’s overriding commitment to developing its
faith. Accordingly, it is my preference that the teachers at St. James are practicing Catholics. Further, as
stated in each agreement, each teacher is employed
on an annual basis with no guarantee of renewal of
the employment agreement for the following year.
The Principal alone has the sole discretion with respect to renewing or offering employment contracts.
The employment contract states that the School will
give written notice on May 15 of the present school
year regarding whether it intends to offer a new employment contract to the teacher for the following
school year. Attached hereto as Exhibit A-1 is a true
and correct copy of the employment agreement that
governed Plaintiff’s employment for the 2013-2014
school year.
6. The job duties for every teacher are outlined in
each employment agreement. Each teacher is expected to “model, teach, and promote behavior in conformity to the teaching the Roman Catholic Church.”
As stated in every teacher employment agreement at
St. James Catholic School, every teacher is expected
to model and promote behavior in conformity to the
teachings of the Catholic Church in faith and morals.
Further, it is every teacher’s duty to develop, promote, and implement the Catholic faith through their
daily teachings.
7. Plaintiff taught the subject of Religion to her students at least four days a week. She was required to

JA 332
dedicate a minimum of 200 minutes every week to
the subject of Religion. The curriculum for the Religion course was grounded upon the norms and doctrines of the Catholic Faith, including the sacraments
of the Catholic Church, social teachings according to
the Catholic Church, morality, the history of Catholic
saints, Catholic prayers, and the overall Catholic way
of life. Plaintiff was required to teach her Religion
course from the textbook entitled “Coming to God’s
Life.” Attached hereto as Exhibit A-2 is a true and
correct copy of the cover page and table of contents of
the textbook.
8. Moreover, Plaintiff was required to incorporate
Catholic values and traditions throughout all subject
areas, not just during the Religion course. In fact,
[ER 667] two requirements included in all standard
teacher evaluation reports for the school were 1) incorporating “signs, sacramental, traditions of the
Roman Catholic Church in the classroom,” and 2) infusing “Catholic values through all subject areas.”
During the 2013-2014 school year, I evaluated Plaintiff on her ability to incorporate these factors while
she taught the subject of Math. Attached hereto as
Exhibit A-3 is a true and correct copy of the evaluation report I completed for Plaintiff on November 12,
2013.
9. During the 2013-2014 school year, every teacher at
St. James, including Plaintiff, was required to pray
with their students every day. In addition, Plaintiff
was required to accompany her students to Mass once
a month.
10. In order to prepare teachers as religious educators and to develop their skills, I required each teacher, including Plaintiff, to attend a Catholic education

JA 333
conference every other year called the Los Angeles
Religious Education Congress. At this conference, the
teachers learned different methods and techniques in
incorporating God into their teachings in order to enable them to become better religious educators.
11. Throughout the 2013-2014 school year, I instructed Plaintiff to follow certain teaching methods and
practices that were consistent with St. James’ teaching philosophy. I counseled Plaintiff on numerous occasions regarding these issues, which included classroom management, test-taking procedures, and
homework policy. For instance, at St. James School,
students were not permitted to re-take exams in order to obtain a higher grade on the exam. However, I
learned that Plaintiff allowed her students to re-take
exams if they were not satisfied with their prior
grade on the exam.
12. I also required Plaintiff to inform the parents of
the students’ test schedule so that they could help the
students prepare for the tests. However, I learned
that Plaintiff failed to communicate the students’ test
schedule to the parents.
13. In preparation for exams, Plaintiffs’ students
were required to complete
*

*

*

JA 334
JML LAW
A Professional Law Corporation
21052 Oxnard Street
Woodland Hills, California 91367
Tel: (818) 610-8800
Fax: (818) 610-3030
JOSEPH M. LOVRETOVICH
State Bar No. 73403
jml@jmllaw.com
D. AARON BROCK
State Bar No. 241919
aaron@jmllaw.com
Attorneys for Plaintiff
KRISTEN BIEL
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
KRISTEN BIEL,
an individual,
Plaintiff,
vs.

Case No.:
COMPLAINT FOR:

1. DISCRIMINATION IN
VIOLATION OF THE
ST. JAMES SCHOOL, ADA;
A CORP, a California
2. RETALIATION IN
non-profit corporation; VIOLATION OF THE
and DOES 1-50,
ADA;
inclusive,
3. FAILURE TO
Defendants. ACCOMMODATE IN
VIOLATION OF THE
ADA;
4. FAILURE TO
ENGAGE IN THE
INTERACTIVE

JA 335
PROCESS IN
VIOLATION OF THE
ADA;
5. FAILURE TO
PREVENT IN
VIOLATION OF THE
ADA; and
6. WRONGFUL
TERMINATION IN
VIOLATION OF THE
ADA.
DEMAND FOR
JURY TRIAL
Plaintiff, KRISTEN BIEL, hereby brings her
employment complaint against the above-named
Defendants and states and alleges as follows:
JURISDICTION AND VENUE
1. This is an employment lawsuit, brought pursuant to
42 U.S.C. § 12101 et. seq. to remedy violations of the
Americans with Disabilities Act of 1990 (“ADA”).
2. This Court has original federal question jurisdiction
over this action pursuant to 28 U.S.C. § 1331 because
Plaintiff alleges violations of the laws of the United
States of America.
3. The venue is appropriate since the actions giving
rise to this lawsuit occurred in Los Angeles County,
California, which is located within this district.
THE PARTIES
4. At all times mentioned herein, Plaintiff KRISTEN
BIEL was a resident of the State of California.

JA 336
5. At all times mentioned herein, Defendant ST.
JAMES SCHOOL, A CORP was a California nonprofit corporation that operated St. James Catholic
School, a private school, located at 4625 Garnet Street,
Torrance, California 90503.
6. The true names and capacities, whether individual,
corporate, associate or otherwise of DOES 1 through
50 are unknown to Plaintiff who therefore sues these
defendants under said fictitious names. Plaintiff is
informed and believes that each of the defendants
named as a Doe defendant is legally responsible in
some manner for the events referred to in this
Complaint, is either negligently, willfully, wantonly,
recklessly, tortiously, strictly liable, statutorily liable
or otherwise, for the injuries and damages described
below to this Plaintiff. Plaintiff will in the future seek
leave of this court to show the true names and
capacities of these Doe defendants when it has been
ascertained.
7. Plaintiff is informed and believes, and based
thereon alleges, that each defendant acted in all
respects pertinent to this action as the agent of the
other defendants, carried out a joint scheme, business
plan or policy in all respects pertinent hereto, and the
acts of each defendant are legally attributable to the
other defendants.
8. Hereinafter in the Complaint, unless otherwise
specified, reference to a Defendant or Defendants shall
refer to all Defendants, and each of them.
ALLEGATIONS
9. Plaintiff commenced employment with Defendant
as a long term substitute teacher for the first grade in
or around February 2013.

JA 337
10. In or around June 2013, Defendant hired Plaintiff
to be a permanent teacher of the fifth grade for the
2013-2014 school year.
11. On or about March 1, 2014, Defendant presented
Plaintiff with a notice of intent form to return to teach
for the 2014-2015 school. Plaintiff immediately
returned this form indicating her intent to return to
teach.
12. Unfortunately, on or about April 24, 2014, Plaintiff
was diagnosed with breast cancer. Within days of her
diagnosis, Plaintiff informed Defendant’s principal,
Sister Mary Margaret, of her diagnosis and that she
would need a finite leave of absence from work,
starting on or about May 23, 2014 and lasting until
January 2015, so that Plaintiff’s doctors could perform
a double mastectomy and so that Plaintiff could
undergo chemotherapy and radiation treatment.
13. On or about July 15, 2014, while Plaintiff was on a
leave of absence, Sister Mary Margaret informed
Plaintiff that she believed it was “unfair” to Plaintiff’s
potential students that Defendant accommodate her
leave of absence accommodation request and that
Plaintiff would not be placed back to work for
Defendant,
effectively
terminating
Plaintiff’s
employment.
14. Plaintiff is informed and believes, and thereon
alleges, that Defendant terminated Plaintiff’s
employment because of her cancer and because it did
not want to accommodate her finite leave of absence
for no legitimate reason under the law.

JA 338
EXHAUSTION OF ADMINISTRATIVE
REMEDIES
15. On December 15, 2014, Plaintiff filed charges with
the Equal Employment Opportunity Commission
(“EEOC”). Plaintiff received a “Right-To-Sue” letter
from the EEOC on March 14, 2015. This Complaint is
timely filed pursuant to that letter.
FIRST CAUSE OF ACTION
DISCRIMINATION
IN VIOLATION OF THE ADA
(Against ALL Defendants)
16. Plaintiff restates and incorporates herein
paragraphs 1 through 15, inclusive, of this Complaint
as though fully set forth herein.
17. Plaintiff is, and at all times material hereto was,
an employee covered by the ADA. The ADA prohibits
discrimination on the basis of disability, which
includes cancer, in all employment practices.
18. Defendants are and were at all times material
hereto, employers within the meaning of the ADA and,
as such, were barred from discriminating in
employment decisions on the basis of disabilities as set
forth in the ADA.
19. Defendants have at all times relevant hereto
regarded Plaintiff as having a disability within the
meaning of the ADA. A “disability” means a [sic] “a
physical or mental impairment that substantially
limits one or more major life activities” of an
individual. (42 U.S.C. § 12102(1)(A).) Major life
activities include, but are not limited to, walking,
standing, performing manual tasks, and working. (42
U.S.C. § 12102(2)(A).)

JA 339
20. Defendants have continuously discriminated
against Plaintiff on the basis of disability in violation
of the ADA by continuously engaging in a course of
conduct that included, but is not limited to, acts
described in this complaint.
21. As a proximate result of Defendant’s continuous
discrimination against Plaintiff, Plaintiff has suffered
and continues to suffer substantial losses in earnings,
deferred compensation, and other employment
benefits and has suffered and continues to suffer
embarrassment, humiliation and mental anguish all
to his damage in an amount according to proof.
22. As a result of Defendant’s discriminatory acts as
alleged herein, Plaintiff is entitled to reasonable
attorneys’ fees and costs of said suit as provided by 42
U.S.C. § 12205.
SECOND CAUSE OF ACTION
RETALIATION IN VIOLATION OF THE ADA
(Against ALL Defendants)
23. Plaintiff restates and incorporates herein
paragraphs 1 through 22, inclusive, of this complaint
as though fully set forth herein.
24. At all times herein mentioned, the ADA was in full
force and effect and was binding on Defendants. The
ADA prohibits retaliation against any person who
engages in a protective activity.
25. Plaintiff engaged in protected activity by
requesting reasonable accommodation for her
disability. In response, Defendant terminated
Plaintiff’s employment and accused Plaintiff of being
an unfit teacher.

JA 340
26. Defendants’ conduct as alleged above constituted
unlawful retaliation.
27. As a proximate result of the aforesaid acts of
Defendants,
Plaintiff
has
suffered
actual,
consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her
professional reputation, all in an amount subject to
proof at the time of trial.
28. As a proximate result of the wrongful acts of
Defendants, Plaintiff has suffered and continues to
suffer emotional distress, humiliation, mental anguish
and embarrassment, as well as the manifestation of
physical symptoms. Plaintiff is informed and believes
and thereupon alleges that she will continue to
experience said physical and emotional suffering for a
period in the future not presently ascertainable, all in
an amount subject to proof at the time of trial.
29. As a proximate result of the wrongful acts of
Defendants, Plaintiff has been forced to hire attorneys
to prosecute her claims herein, and has incurred and
is expected to continue to incur attorneys’ fees and
costs in connection therewith. Plaintiff is entitled to
recover attorneys’ fees and costs under 42 U.S.C.
§ 12205.
THIRD CAUSE OF ACTION
FAILURE TO ACCOMMODATE
IN VIOLATION OF THE ADA
(Against ALL Defendants)
30. Plaintiff restates and incorporates herein
paragraphs 1 through 29, inclusive, of this complaint
as though fully set forth herein.

JA 341
31. Although Defendants, and each of them, knew of
Plaintiff’s physical disabilities, Defendants, and each
of them, refused to accommodate Plaintiff’s
disabilities. Defendants’ actions were in direct
contravention of the ADA.
32. Plaintiff alleges that with reasonable
accommodations she could have fully performed all
duties and functions of her job in an adequate,
satisfactory and/or outstanding manner.
33. As a direct and legal result of Defendants refusal
to accommodate Plaintiff, Plaintiff has suffered and
continues to suffer general and special damages
including but not limited to substantial losses in
earnings, other employment benefits, physical
injuries, physical sickness, as well as emotional
distress, all to her damage in an amount according to
proof.
34. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has been
forced to hire attorneys to prosecute her claims herein,
and has incurred and is expected to continue to incur
attorneys’ fees and costs in connection therewith.
Plaintiff is entitled to recover attorneys’ fees and costs
under 42 U.S.C. § 12205.
FOURTH CAUSE OF ACTION
FAILURE TO ENGAGE IN THE INTERACTIVE
PROCESS IN VIOLATION OF THE ADA
(Against ALL Defendants)
35. Plaintiff restates and incorporates herein
paragraphs 1 through 34, inclusive, of this complaint
as though fully set forth herein.

JA 342
36. The ADA provides that it is unlawful for an
employer to fail to engage in a timely, good faith,
interactive process with the employee to determine
effective reasonable accommodations, if any.
37. Defendants failed to engage in a timely, good faith,
interactive with Plaintiff to determine effective
reasonable accommodations for Plaintiff’s known
disability, and instead Defendants terminated
Plaintiff’s employment while she was on a leave of
absence.
38. As a proximate result of the wrongful conduct of
Defendants, and each of them, Plaintiff has suffered
and continues to sustain substantial losses in earnings
and other employment benefits in an amount
according to proof at the time of trial.
39. As a direct and legal result of Defendants’ actions,
Plaintiff has suffered and continues to suffer general
and special damages including but not limited to
substantial losses in earnings, other employment
benefits and emotional distress, all to his damage in
an amount according to proof.
40. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has been
forced to hire attorneys to prosecute her claims herein,
and has incurred and is expected to continue to incur
attorneys’ fees and costs in connection therewith.
Plaintiff is entitled to recover attorneys’ fees and costs
under 42 U.S.C. 12205.

JA 343
FIFTH CAUSE OF ACTION
FAILURE TO PREVENT
IN VIOLATION OF THE ADA
(Against ALL Defendants)
41. Plaintiff restates and incorporates herein
paragraphs 1 through 40, inclusive, of this complaint
as though fully set forth herein.
42. At all times herein mentioned, the ADA was in full
force and effect and was binding on Defendants.
Plaintiff is, and at all times material hereto was, an
employee covered by the ADA prohibiting
discrimination in employment on the basis of
disabilities.
43. Defendants failed to take immediate and
appropriate corrective action to end the discrimination
against Plaintiff Defendants also failed to take all
reasonable steps necessary to prevent the
discrimination from occurring.
44. In failing and/or refusing to take immediate and
appropriate corrective action to end the discrimination
and in failing and/or refusing to take and or all
reasonable steps necessary to prevent discrimination
from occurring, Defendants violated the ADA causing
Plaintiff to suffer damages as set forth above.
45. As a proximate result of the aforesaid acts of
Defendants, and each of them, Plaintiff has suffered
actual, consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her
professional reputation, all in an amount subject to
proof at the time of trial.

JA 344
46. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has suffered
and continues to suffer emotional distress,
humiliation, mental anguish and embarrassment, as
well as the manifestation of physical symptoms.
Plaintiff is informed and believes and thereupon
alleges that she will continue to experience said
physical and emotional suffering for a period in the
future not presently ascertainable, all in an amount
subject to proof at the time of trial.
47. As a proximate result of the wrongful acts of
Defendants, Plaintiff hay been forced to hire attorneys
to prosecute her claims herein, and has incurred and
is expected to continue to incur attorneys’ fees and
costs in connection therewith. Plaintiff is entitled to
recover attorneys’ fees and costs under 42 U.S.C.
§ 12205.
SIXTH CAUSE OF ACTION
WRONGFUL TERMINATION
IN VIOLATION OF THE ADA
(Against ALL Defendants)
48. Plaintiff restates and incorporates herein
paragraphs 1 through 47, inclusive, of this complaint
as through fully set forth herein.
49. At all times herein mentioned, the ADA was in full
force and effect and was binding on Defendants.
50. The actions Defendants, and each of them, in
terminating Plaintiff on the grounds alleged and
described herein were wrongful and in contravention
of the ADA and the laws and regulations promulgated
thereunder.

JA 345
51. As a proximate result of the aforesaid acts of
Defendants, and each of them, Plaintiff has suffered
actual, consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her
professional reputation, all in an amount subject to
proof at the time of trial.
52. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has suffered
and continues to suffer emotional distress,
humiliation, mental anguish and embarrassment, as
well as the manifestation of physical symptoms.
Plaintiff is informed and believes and thereupon
alleges that she will continue to experience said
physical and emotional suffering for a period in the
future not presently ascertainable, all in an amount
subject to proof at the time of trial.
53. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has been
forced to hire attorneys to prosecute her claims herein,
and has incurred and is expected to continue to incur
attorneys’ fees and costs in connection therewith.
Plaintiff is entitled to recover attorneys’ fees and costs
under 42 U.S.C. § 12205.
WHEREFORE, Plaintiff prays for judgment as
follows:
1. For general damages, according to proof;
2. For medical expenses and related items of
expenses, according to proof;
3. For loss of earnings, according to proof;
4. For attorneys’ fees, according to proof;
5. For prejudgment interest, according to proof;

JA 346
6. For costs of suit incurred herein; and
7. For such other relief and the Court may deem
just and proper.
DEMAND FOR JURY TRIAL
Plaintiff hereby demands a trial by jury.
DATED: Friday, June 5, 2015
JML LAW, A Professional Law Corporation
By: /s/ D. Aaron Brock
JOSEPH M. LOVRETOVICH
D. AARON BROCK
Attorneys for Plaintiff

JA 347
DANIEL R. SULLIVAN (State Bar No. 96740)
drs@sullivanballog.com
NIKKI FERMIN (State Bar No. 271331)
nuf@sullivanballog.com
SULLIVAN, BALLOG & WILLIAMS, LLP
400 North Tustin Avenue, Suite 120
Santa Ana, California 92705
Telephone: (714) 541-2121
Facsimile: (714) 541-2120
Attorneys for Defendant ST. JAMES CATHOLIC
SCHOOL (erroneously sued herein as St. James
School, a corp.)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
KRISTEN BIEL,
an individual,
Plaintiff,
vs.
ST. JAMES SCHOOL,
A CORP, a California
non-profit corporation
and DOES 1-50,
inclusive,
Defendants.

Case No.: 2:15-cv-04248
TJH (ASx)
Assigned to: Hon. Terry J.
Hatter, Jr.
Magistrate Judge: Alka
Sagar
DEFENDANTS’
ANSWER TO
PLAINTIFF’S
COMPLAINT
Filed: 6/05/2015

COMES
NOW,
Defendant,
ST.
JAMES
CATHOLIC SCHOOL (erroneously sued herein as St.
James School, a corp.) and answers Plaintiff,
KRISTEN BIEL’S complaint for damages on file

JA 348
herein for themselves and themselves alone, and
admit, deny and allege as follows:
JURISDICTION AND VENUE
1. In answering paragraph 1-3, this answering
Defendant admits that Plaintiff is ostensibly invoking
jurisdiction of this district court under 28 U.S.C.
§ 1331. Except as so admitted, this answering
Defendant lacks information and belief sufficient to
enable it to answer thereto and basing its denial on
that ground, denies generally and specifically each
and every allegation contained therein.
THE PARTIES
2. In answering paragraph 4, this answering
Defendant lacks information and belief sufficient to
enable it to answer thereto and basing its denial on
that ground, denies generally and specifically each
and every allegation contained therein.
3. In answering paragraph 5, this answering
Defendant generally admits that St. James Catholic
School (hereinafter “St. James”) is and at all relevant
times was a Catholic school located in Torrance,
California. Except as so admitted, this answering
Defendant lacks information and belief sufficient to
enable it to answer thereto and basing its denial on
that ground, denies generally and specifically each
and every allegation contained therein.
4. In answering paragraph 6, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.

JA 349
5. In answering paragraph 7, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
6. In answering paragraph 8, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
7. In answering paragraph 9, this answering
Defendant generally admits that Plaintiff was an
employee at St. James. Except as so admitted, this
answering Defendant lacks information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
ALLEGATIONS
8. In answering paragraph 9, this answering
Defendant generally admits that Plaintiff was
employed at St. James. Except as so admitted, this
answering Defendant lacks information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
9. In answering paragraph 10, this answering
Defendant generally admits that Plaintiff was
employed at St. James. Except as so admitted, this
answering Defendant lacks information and belief

JA 350
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
10. In answering paragraph 11, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
11. In answering paragraph 12, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
12. In answering paragraph 13, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
13. In answering paragraph 14, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
EXHAUSTION OF ADMINISTRATIVE
REMEDIES
14. In answering paragraph 15, this answering
Defendant lacks sufficient information and belief

JA 351
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
FIRST CAUSE OF ACTION
DISCRIMINATION
IN VIOLATION OF THE ADA
15. In answering paragraph 16, this answering
Defendant repeats and re-alleges herein its responses
to paragraphs 1 through 15, inclusive, and incorporate
the same herein by reference as though fully set forth
at length.
16. In answering paragraph 17, this answering
Defendant generally admits that the Americans with
Disabilities Act, 42 U.S.C. § 12101, et seq., prohibits
employers from discriminating against qualified
individuals because of a disability. Except as so
admitted, this answering Defendant lacks sufficient
information and belief sufficient to enable it to answer
thereto and basing its denial on that ground, denies
generally and specifically each and every allegation
contained therein.
17. In answering paragraph 18, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
18. In answering paragraph 19, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and

JA 352
specifically each and every allegation contained
therein.
19. In answering paragraph 20, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
20. In answering paragraph 21, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
21. In answering paragraph 22, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
SECOND CAUSE OF ACTION
RETALIATION IN VIOLATION OF THE ADA
22. In answering paragraph 23, this answering
Defendant repeats and re-alleges herein its responses
to paragraphs 1 through 22, inclusive, and incorporate
the same herein by reference as though fully set forth
at length.
23. In answering paragraph 24, this answering
Defendant generally admits that the ADA “prohibits
retaliation against any person who engages in a
protective activity.” Except as so admitted, this
answering Defendant lacks sufficient information and

JA 353
belief sufficient to enable it to answer thereto and
basing its denial on that ground, denies generally and
specifically each and every allegation contained
therein.
24. In answering paragraph 25, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
25. In answering paragraph 26, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
26. In answering paragraph 27, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
27. In answering paragraph 28, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
28. In answering paragraph 29, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and

JA 354
specifically each and every allegation contained
therein.
THIRD CAUSE OF ACTION
FAILURE TO ACCOMMODATE
IN VIOLATION OF THE ADA
29. In answering paragraph 30, this answering
Defendant repeats and re-alleges herein its responses
to paragraphs 1 through 29, inclusive, and incorporate
the same herein by reference as though fully set forth
at length.
30. In answering paragraph 31, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
31. In answering paragraph 32, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
32. In answering paragraph 33, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
33. In answering paragraph 34, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and

JA 355
specifically each and every allegation contained
therein.
FOURTH CAUSE OF ACTION
FAILURE TO ENGAGE IN THE INTERACTIVE
PROCESS IN VIOLATION OF THE ADA
34. In answering paragraph 35, this answering
Defendant repeats and re-alleges herein its responses
to paragraphs 1 through 34, inclusive, and incorporate
the same herein by reference as though fully set forth
at length.
35. In answering paragraph 36, this answering
Defendant generally admits that the Americans with
Disabilities Act, 42 U.S.C. § 12101, et seq., provides
that “it is unlawful for an employer to fail to engage in
a timely, good faith, interactive process with the
employee
to
determine
effective
reasonable
accommodations, if any.”
36. In answering paragraph 37, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
37. In answering paragraph 38, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
38. In answering paragraph 39, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its

JA 356
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
39. In answering paragraph 40, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
FIFTH CAUSE OF ACTION
FAILURE TO PREVENT
IN VIOLATION OF THE ADA
40. In answering paragraph 41, this answering
Defendant repeats and re-alleges herein its responses
to paragraphs 1 through 40, inclusive, and incorporate
the same herein by reference as though fully set forth
at length.
41. In answering paragraph 42, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
42. In answering paragraph 43, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
43. In answering paragraph 44, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its

JA 357
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
44. In answering paragraph 45, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
45. In answering paragraph 46, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
46. In answering paragraph 47, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
SIXTH CAUSE OF ACTION
WRONGFUL TERMINATION
IN VIOLATION OF THE ADA
47. In answering paragraph 48, this answering
Defendant repeats and re-alleges herein its responses
to paragraphs 1 through 47, inclusive, and incorporate
the same herein by reference as though fully set forth
at length.
48. In answering paragraph 49, this answering
Defendant generally admits that the ADA was “in full
force and effect.” Except as so admitted, this

JA 358
answering Defendant denies generally and specifically
each and every allegation contained therein.
49. In answering paragraph 50, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
50. In answering paragraph 51, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
51. In answering paragraph 52, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
52. In answering paragraph 53, this answering
Defendant lacks sufficient information and belief
sufficient to enable it to answer thereto and basing its
denial on that ground, denies generally and
specifically each and every allegation contained
therein.
FIRST AFFIRMATIVE DEFENSE
53. Plaintiff’s operative complaint fails to state facts
sufficient to constitute a cause of action against this
answering Defendant.

JA 359
SECOND AFFIRMATIVE DEFENSE
54. Because Plaintiff’s operative complaint is couched
in conclusory terms, this answering Defendant cannot
fully anticipate all of the affirmative defenses that
may be applicable to the action, accordingly, the right
to assert additional affirmative defenses, if and to the
extent that such affirmative defenses are applicable,
is hereby reserved.
THIRD AFFIRMATIVE DEFENSE
55. Plaintiff has failed to mitigate her damages, which
damages are denied to exist.
FOURTH AFFIRMATIVE DEFENSE
56. Defendant alleges that all claims are barred in
whole or in part by the applicable statute of
limitations.
FIFTH AFFIRMATIVE DEFENSE
57. Plaintiff’s causes of action are barred in whole or
in part by the doctrine of waiver.
SIXTH AFFIRMATIVE DEFENSE
58. Plaintiff’s causes of action are barred in full or in
part by the doctrine of estoppel.
SEVENTH AFFIRMATIVE DEFENSE
59. Plaintiff’s causes of action are barred in whole or
in part by the doctrine of unclean hands.
EIGHTH AFFIRMATIVE DEFENSE
60. Any compensatory damages are capped pursuant
to 42 U.S.C. § 1981.

JA 360
NINTH AFFIRMATIVE DEFENSE
61. Plaintiff’s causes of action are barred because
Plaintiff did not suffer an adverse employment action.
TENTH AFFIRMATIVE DEFENSE
62. The causes of action contained in Plaintiff’s
Complaint are barred by the doctrine of laches in that
Plaintiff has unreasonably delayed in bringing these
claims, and said delays have caused prejudice to this
answering Defendant.
ELEVENTH AFFIRMATIVE DEFENSE
63. Plaintiff’s causes of action are unfounded as the
basis for the public policy asserted therein fails to
support the claims and relief sought.
TWELFTH AFFIRMATIVE DEFENSE
64. Plaintiff’s causes of action are barred by the fact
that she was an at-will employee.
THIRTEENTH AFFIRMATIVE DEFENSE
65. Plaintiff’s causes of action are unfounded as
Plaintiff was not a qualified individual under the
Americans with Disabilities Act (hereinafter “ADA”).
FOURTEENTH AFFIRMATIVE DEFENSE
66. Plaintiff’s Complaint is barred, in whole or in part
by the business necessity defense.
FIFTEENTH AFFIRMATIVE DEFENSE
67. Plaintiff’s Complaint is unfounded as Plaintiff’s
alleged disability was not substantially limiting
within the meaning of the ADA.

JA 361
SIXTEENTH AFFIRMATIVE DEFENSE
68. Plaintiff’s Complaint is barred, in whole or in
party, by the after-acquired evidence rule.
SEVENTEENTH AFFIRMATIVE DEFENSE
69. Plaintiff’s causes of action are barred because she
failed to exhaust administrative remedies.
EIGHTEENTH AFFIRMATIVE DEFENSE
70. Plaintiff’s causes of action are barred because this
answering defendant provided a reasonable
accommodation.
NINETEENTH AFFIRMATIVE DEFENSE
71. Plaintiff’s causes of action are barred because
providing the requested accommodation would have
imposed an undue hardship on this answering
defendant.
TWENTIETH AFFIRMATIVE DEFENSE
72. Plaintiff’s causes of action are barred because
providing the requested accommodation would have
caused an administrative hardship on this answering
defendant.
TWENTY-FIRST AFFIRMATIVE DEFENSE
73. Plaintiff’s causes of action are barred by the
ministerial exception.
TWENTY-SECOND AFFIRMATIVE DEFENSE
74. Plaintiff’s causes of action are barred because
Plaintiff could not conduct the essential functions of
her job.

JA 362
TWENTY-THIRD AFFIRMATIVE DEFENSE
75. That at all time mentioned herein, the conduct of
Plaintiff was willful and wrong and in violation of her
duty of good faith and fair dealing.
TWENTY-FOURTH AFFIRMATIVE DEFENSE
76. Plaintiff’s wrongful termination cause of action is
barred because there exists no cause of action for
tortious non-renewal of contract.
TWENTY-FIFTH AFFIRMATIVE DEFENSE
77. Plaintiff’s causes of action for retaliation are
barred because she cannot establish she was engaging
in a protected activity.
TWENTY-SIXTH AFFIRMATIVE DEFENSE
78. Plaintiff’s causes of action are barred by the
Avoidable Consequences Doctrine.
TWENTY-SEVENTH AFFIRMATIVE DEFENSE
79. Upon information and belief, Defendants’ alleged
obligations, if any, were excused.
TWENTY-EIGHTH AFFIRMATIVE DEFENSE
80. Plaintiff’s operative complaint, and each cause of
action therein, is barred because the acts complained
of were undertaken in good faith in that Defendants
acted in a manner authorized and/or required by the
applicable law, which controls Plaintiff’s rights, if any,
with regard to the matters alleged in the operative
complaint.
TWENTY-NINTH AFFIRMATIVE DEFENSE
81. Plaintiff’s punitive damages prayer is improper
given that there is no evidence of malice, oppression or
fraud.

JA 363
THIRTIETH AFFIRMATIVE DEFENSE
82. Plaintiff is not entitled to recover attorney’s fees in
this action.
THIRTY-FIRST AFFIRMATIVE DEFENSE
83. Plaintiff is not entitled to recover statutory
damages in this action.
THIRTY-SECOND AFFIRMATIVE DEFENSE
84. As discovery progresses, other defenses may
become apparent or available. Defendants reserve the
right to assert other defenses as they become apparent
or available and to amend this answer accordingly. No
defense is being knowingly or intentionally waived.
WHEREFORE, the answering Defendant prays:
1. That Plaintiff takes nothing by virtue of her
Complaint on file herein;
2. For costs of suit incurred herein and attorney’s
fees as allowed by law; and
3. For such other and further relief as the Court
deems just and proper.
DATED: July 21, 2015
SULLIVAN, BALLOG & WILLIAMS, LLP
By: /s/ Daniel R. Sullivan
Daniel R. Sullivan
Nikki Fermin
Attorneys for Defendant ST. JAMES CATHOLIC
SCHOOL (erroneously sued herein as St. James
School, a corp.)

JA 364
DEMAND FOR JURY TRIAL
Defendant, ST. JAMES CATHOLIC SCHOOL, hereby
demands a trial by jury in the above-referenced
matter.
DATED: July 22, 2015
/s/ Daniel R. Sullivan
Daniel R. Sullivan
Nikki Fermin
SULLIVAN, BALLOG &
WILLIAMS, LLP
Attorneys for Defendant
ST. JAMES CATHOLIC
SCHOOL (erroneously sued
herein as St. James School,
a corp.)
*

*

*

JA 365
JML LAW
A Professional Law Corporation
21052 Oxnard Street
Woodland Hills, California 91367
Tel: (818) 610-8800
Fax: (818) 610-3030
JOSEPH M. LOVRETOVICH
State Bar No. 73403
jml@jmllaw.com
D. AARON BROCK
State Bar No. 241919
aaron@jmllaw.com
Attorneys for Plaintiff
KRISTEN BIEL
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
KRISTEN BIEL,
an individual,
Plaintiff,
vs.
ST. JAMES SCHOOL,
A CORP, a California
non-profit corporation;
ST. JAMES
CATHOLIC SCHOOL,
a California non-profit
corporation; and DOES
2-50, inclusive,
Defendants.

Case No.: 2:15-cv-04248
TJH (ASx)
Assigned to: Hon. Terry J.
Hatcher, Jr.
Magistrate Judge: Hon.
Alka Sagar
FIRST AMENDED
COMPLAINT FOR:
1. DISCRIMINATION IN
VIOLATION OF THE
ADA;
2. RETALIATION IN
VIOLATION OF THE
ADA;

JA 366
3. FAILURE TO
ACCOMMODATE IN
VIOLATION OF THE
ADA;
4. FAILURE TO
ENGAGE IN THE
INTERACTIVE
PROCESS IN
VIOLATION OF THE
ADA;
5. FAILURE TO
PREVENT IN
VIOLATION OF THE
ADA; and
6. WRONGFUL
TERMINATION IN
VIOLATION OF THE
ADA.
DEMAND FOR
JURY TRIAL
Plaintiff, KRISTEN BIEL, hereby brings her
employment complaint against the above-named
Defendants and states and alleges as follows:
JURISDICTION AND VENUE
1. This is an employment lawsuit, brought pursuant to
42 U.S.C. § 12101 et. seq. to remedy violations of the
Americans with Disabilities Act of 1990 (“ADA”).
2. This Court has original federal question jurisdiction
over this action pursuant to 28 U.S.C. § 1331 because
Plaintiff alleges violations of the laws of the United
States of America.

JA 367
3. The venue is appropriate since the actions giving
rise to this lawsuit occurred in Los Angeles County,
California, which is located within this district.
THE PARTIES
4. At all times mentioned herein, Plaintiff KRISTEN
BIEL was a resident of the State of California.
5. At all times mentioned herein, Defendant ST.
JAMES SCHOOL, A CORP was a California nonprofit corporation that operated St. James Catholic
School, a private school, located at 4625 Garnet Street,
Torrance, California 90503.
6. Upon the filing of the complaint, Plaintiff being
ignorant of the true name of Defendant, and having
designated Defendant under the fictitious names of
“DOE 1” and having discovered the true name of
Defendant to be ST. JAMES CATHOLIC SCHOOL
amends the complaint by substituting the true name
for the fictitious name. Plaintiff is informed and
believes, and based thereon alleges, that Defendant
St. James Catholic School is a California non-profit
corporation that operated St. James Catholic School, a
private school, located at 4625 Garnet Street,
Torrance, California 90503.
7. The true names and capacities, whether individual,
corporate, associate or otherwise of DOES 2 through
50 are unknown to Plaintiff who therefore sues these
defendants under said fictitious names. Plaintiff is
informed and believes that each of the defendants
named as a Doe defendant is legally responsible in
some manner for the events referred to in this
Complaint, is either negligently, willfully, wantonly,
recklessly, tortiously, strictly liable, statutorily liable
or otherwise, for the injuries and damages described

JA 368
below to this Plaintiff. Plaintiff will in the future seek
leave of this court to show the true names and
capacities of these Doe defendants when it has been
ascertained.
8. Plaintiff is informed and believes, and based
thereon alleges, that each defendant acted in all
respects pertinent to this action as the agent of the
other defendants, carried out a joint scheme, business
plan or policy in all respects pertinent hereto, and the
acts of each defendant are legally attributable to the
other defendants.
9. Hereinafter in the Complaint, unless otherwise
specified, reference to a Defendant or Defendants shall
refer to all Defendants, and each of them.
ALLEGATIONS
10. Plaintiff commenced employment with Defendants
ST. JAMES SCHOOL, A CORP and/or ST. JAMES
CATHOLIC SCHOOL (collectively “Defendant(s)” or
“St. James”) as a long term substitute teacher for the
first grade in or around February 2013.
11. In or around June 2013, Defendant hired Plaintiff
to be a permanent teacher of the fifth grade for the
2013-2014 school year.
12. On or about March 1, 2014, Defendant presented
Plaintiff with a notice of intent form to return to teach
for the 2014-2015 school. Plaintiff immediately
returned this form indicating her intent to return to
teach.
13. Unfortunately, on or about April 24, 2014, Plaintiff
was diagnosed with breast cancer. Within days of her
diagnosis, Plaintiff informed Defendant’s principal,
Sister Mary Margaret, of her diagnosis and that she

JA 369
would need a finite leave of absence from work,
starting on or about May 23, 2014 and lasting until
January 2015, so that Plaintiff’s doctors could perform
a double mastectomy and so that Plaintiff could
undergo chemotherapy and radiation treatment.
14. On or about July 15, 2014, while Plaintiff was on a
leave of absence, Sister Mary Margaret informed
Plaintiff that she believed it was “unfair” to Plaintiff’s
potential students that Defendant accommodate her
leave of absence accommodation request and that
Plaintiff would not be placed back to work for
Defendant,
effectively
terminating
Plaintiff’s
employment.
15. Plaintiff is informed and believes, and thereon
alleges, that Defendant terminated Plaintiff’s
employment because of her cancer and because it did
not want to accommodate her finite leave of absence
for no legitimate reason under the law.
EXHAUSTION OF ADMINISTRATIVE
REMEDIES
16. On December 15, 2014, Plaintiff filed charges with
the Equal Employment Opportunity Commission
(“EEOC”). Plaintiff received a “Right-To-Sue” letter
from the EEOC on March 14, 2015. This Complaint is
timely filed pursuant to that letter.

JA 370
FIRST CAUSE OF ACTION
DISCRIMINATION
IN VIOLATION OF THE ADA
(Against ALL Defendants)
17. Plaintiff restates and incorporates herein
paragraphs 1 through 16, inclusive, of this Complaint
as though fully set forth herein.
18. Plaintiff is, and at all times material hereto was,
an employee covered by the ADA. The ADA prohibits
discrimination on the basis of disability, which
includes cancer, in all employment practices.
19. Defendants are and were at all times material
hereto, employers within the meaning of the ADA and,
as such, were barred from discriminating in
employment decisions on the basis of disabilities as set
forth in the ADA.
20. Defendants have at all times relevant hereto
regarded Plaintiff as having a disability within the
meaning of the ADA. A “disability” means a [sic] “a
physical or mental impairment that substantially
limits one or more major life activities” of an
individual. (42 U.S.C. § 12102(1)(A).) Major life
activities include, but are not limited to, walking,
standing, performing manual tasks, and working. (42
U.S.C. § 12102(2)(A).)
21. Defendants have continuously discriminated
against Plaintiff on the basis of disability in violation
of the ADA by continuously engaging in a course of
conduct that included, but is not limited to, acts
described in this complaint.
22. As a proximate result of Defendant’s continuous
discrimination against Plaintiff, Plaintiff has suffered

JA 371
and continues to suffer substantial losses in earnings,
deferred compensation, and other employment
benefits and has suffered and continues to suffer
embarrassment, humiliation and mental anguish all
to his damage in an amount according to proof.
23. As a result of Defendant’s discriminatory acts as
alleged herein, Plaintiff is entitled to reasonable
attorneys’ fees and costs of said suit as provided by 42
U.S.C. § 12205.
SECOND CAUSE OF ACTION
RETALIATION IN VIOLATION OF THE ADA
(Against ALL Defendants)
24. Plaintiff restates and incorporates herein
paragraphs 1 through 23, inclusive, of this complaint
as though fully set forth herein.
25. At all times herein mentioned, the ADA was in full
force and effect and was binding on Defendants. The
ADA prohibits retaliation against any person who
engages in a protective activity.
26. Plaintiff engaged in protected activity by
requesting reasonable accommodation for her
disability. In response, Defendant terminated
Plaintiff’s employment and accused Plaintiff of being
an unfit teacher.
27. Defendants’ conduct as alleged above constituted
unlawful retaliation.
28. As a proximate result of the aforesaid acts of
Defendants,
Plaintiff
has
suffered
actual,
consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her

JA 372
professional reputation, all in an amount subject to
proof at the time of trial.
29. As a proximate result of the wrongful acts of
Defendants, Plaintiff has suffered and continues to
suffer emotional distress, humiliation, mental anguish
and embarrassment, as well as the manifestation of
physical symptoms. Plaintiff is informed and believes
and thereupon alleges that she will continue to
experience said physical and emotional suffering for a
period in the future not presently ascertainable, all in
an amount subject to proof at the time of trial.
30. As a proximate result of the wrongful acts of
Defendants, Plaintiff has been forced to hire attorneys
to prosecute her claims herein, and has incurred and
is expected to continue to incur attorneys’ fees and
costs in connection therewith. Plaintiff is entitled to
recover attorneys’ fees and costs under 42 U.S.C.
§ 12205.
THIRD CAUSE OF ACTION
FAILURE TO ACCOMMODATE
IN VIOLATION OF THE ADA
(Against ALL Defendants)
31. Plaintiff restates and incorporates herein
paragraphs 1 through 30, inclusive, of this complaint
as though fully set forth herein.
32. Although Defendants, and each of them, knew of
Plaintiff’s physical disabilities, Defendants, and each
of them, refused to accommodate Plaintiff’s
disabilities. Defendants’ actions were in direct
contravention of the ADA.
33. Plaintiff alleges that with reasonable
accommodations she could have fully performed all

JA 373
duties and functions of her job in an adequate,
satisfactory and/or outstanding manner.
34. As a direct and legal result of Defendants refusal
to accommodate Plaintiff, Plaintiff has suffered and
continues to suffer general and special damages
including but not limited to substantial losses in
earnings, other employment benefits, physical
injuries, physical sickness, as well as emotional
distress, all to her damage in an amount according to
proof.
35. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has been
forced to hire attorneys to prosecute her claims herein,
and has incurred and is expected to continue to incur
attorneys’ fees and costs in connection therewith.
Plaintiff is entitled to recover attorneys’ fees and costs
under 42 U.S.C. § 12205.
FOURTH CAUSE OF ACTION
FAILURE TO ENGAGE IN THE INTERACTIVE
PROCESS IN VIOLATION OF THE ADA
(Against ALL Defendants)
36. Plaintiff restates and incorporates herein
paragraphs 1 through 35, inclusive, of this complaint
as though fully set forth herein.
37. The ADA provides that it is unlawful for an
employer to fail to engage in a timely, good faith,
interactive process with the employee to determine
effective reasonable accommodations, if any.
38. Defendants failed to engage in a timely, good faith,
interactive with Plaintiff to determine effective
reasonable accommodations for Plaintiff’s known
disability, and instead Defendants terminated

JA 374
Plaintiff’s employment while she was on a leave of
absence.
39. As a proximate result of the wrongful conduct of
Defendants, and each of them, Plaintiff has suffered
and continues to sustain substantial losses in earnings
and other employment benefits in an amount
according to proof at the time of trial.
40. As a direct and legal result of Defendants’ actions,
Plaintiff has suffered and continues to suffer general
and special damages including but not limited to
substantial losses in earnings, other employment
benefits and emotional distress, all to his damage in
an amount according to proof.
41. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has been
forced to hire attorneys to prosecute her claims herein,
and has incurred and is expected to continue to incur
attorneys’ fees and costs in connection therewith.
Plaintiff is entitled to recover attorneys’ fees and costs
under 42 U.S.C. 12205.
FIFTH CAUSE OF ACTION
FAILURE TO PREVENT
IN VIOLATION OF THE ADA
(Against ALL Defendants)
42. Plaintiff restates and incorporates herein
paragraphs 1 through 41, inclusive, of this complaint
as though fully set forth herein.
43. At all times herein mentioned, the ADA was in full
force and effect and was binding on Defendants.
Plaintiff is, and at all times material hereto was, an
employee covered by the ADA prohibiting

JA 375
discrimination in employment on the basis of
disabilities.
44. Defendants failed to take immediate and
appropriate corrective action to end the discrimination
against Plaintiff Defendants also failed to take all
reasonable steps necessary to prevent the
discrimination from occurring.
45. In failing and/or refusing to take immediate and
appropriate corrective action to end the discrimination
and in failing and/or refusing to take and or all
reasonable steps necessary to prevent discrimination
from occurring, Defendants violated the ADA causing
Plaintiff to suffer damages as set forth above.
46. As a proximate result of the aforesaid acts of
Defendants, and each of them, Plaintiff has suffered
actual, consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her
professional reputation, all in an amount subject to
proof at the time of trial.
47. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has suffered
and continues to suffer emotional distress,
humiliation, mental anguish and embarrassment, as
well as the manifestation of physical symptoms.
Plaintiff is informed and believes and thereupon
alleges that she will continue to experience said
physical and emotional suffering for a period in the
future not presently ascertainable, all in an amount
subject to proof at the time of trial.
48. As a proximate result of the wrongful acts of
Defendants, Plaintiff hay been forced to hire attorneys

JA 376
to prosecute her claims herein, and has incurred and
is expected to continue to incur attorneys’ fees and
costs in connection therewith. Plaintiff is entitled to
recover attorneys’ fees and costs under 42 U.S.C.
§ 12205.
SIXTH CAUSE OF ACTION
WRONGFUL TERMINATION
IN VIOLATION OF THE ADA
(Against ALL Defendants)
49. Plaintiff restates and incorporates herein
paragraphs 1 through 48, inclusive, of this complaint
as through fully set forth herein.
50. At all times herein mentioned, the ADA was in full
force and effect and was binding on Defendants.
51. The actions Defendants, and each of them, in
terminating Plaintiff on the grounds alleged and
described herein were wrongful and in contravention
of the ADA and the laws and regulations promulgated
thereunder.
52. As a proximate result of the aforesaid acts of
Defendants, and each of them, Plaintiff has suffered
actual, consequential and incidental financial losses,
including without limitation, loss of salary and
benefits, and the intangible loss of employment
related opportunities in her field and damage to her
professional reputation, all in an amount subject to
proof at the time of trial.
53. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has suffered
and continues to suffer emotional distress,
humiliation, mental anguish and embarrassment, as
well as the manifestation of physical symptoms.

JA 377
Plaintiff is informed and believes and thereupon
alleges that she will continue to experience said
physical and emotional suffering for a period in the
future not presently ascertainable, all in an amount
subject to proof at the time of trial.
54. As a proximate result of the wrongful acts of
Defendants, and each of them, Plaintiff has been
forced to hire attorneys to prosecute her claims herein,
and has incurred and is expected to continue to incur
attorneys’ fees and costs in connection therewith.
Plaintiff is entitled to recover attorneys’ fees and costs
under 42 U.S.C. § 12205.
WHEREFORE, Plaintiff prays for judgment as
follows:
1. For general damages, according to proof;
2. For medical expenses and related items of
expenses, according to proof;
3. For loss of earnings, according to proof;
4. For attorneys’ fees, according to proof;
5. For prejudgment interest, according to proof;
6. For costs of suit incurred herein; and
7. For such other relief and the Court may deem
just and proper.
DEMAND FOR JURY TRIAL
Plaintiff hereby demands a trial by jury.
DATED: November 12, 2015
JML LAW, A Professional Law Corporation
By: /s/ D. Aaron Brock
JOSEPH M. LOVRETOVICH
D. AARON BROCK
Attorneys for Plaintiff

